      United States Department of Agriculture




Office of Inspector General
Commodity Credit Corporation's
Financial Statements for
Fiscal Years 2013 and 2012




                                       06401-0003-11
                                       December 2013
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250


DATE:          December 5, 2013

AUDIT
NUMBER:        06401-0003-11

TO:            Board of Directors
               Commodity Credit Corporation

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff
               Farm Service Agency

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Commodity Credit Corporation’s Financial Statements for
               Fiscal Years 2013 and 2012

This report presents the results of the audit of Commodity Credit Corporation’s (CCC) financial
statements for the fiscal years ending September 30, 2013 and 2012. The report contains an
unmodified opinion on the financial statements, as well as an assessment of CCC’s internal
controls over financial reporting and compliance with laws and regulations.

CliftonLarsonAllen, LLP, an independent certified public accounting firm, conducted the audit.
In connection with the contract, we reviewed CliftonLarsonAllen, LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from an audit in
accordance with Government Auditing Standards (issued by the Comptroller General of the
United States), was not intended to enable us to express, and we do not express, opinions on
CCC’s financial statements, internal control, or on whether CCC’s financial management
systems substantially complied with the Federal Financial Management Improvement Act
(FFMIA); or conclusions on compliance with laws and regulations. CliftonLarsonAllen, LLP, is
responsible for the attached auditor’s report, dated December 3, 2013, and the conclusions
expressed in the report. However, our review disclosed no instances where CliftonLarsonAllen,
LLP, did not comply, in all material respects, with Government Auditing Standards and the
Office of Management and Budget Bulletin 14-02, Audit Requirements for Federal Financial
Statements.
Board of Directors et al.                                                                        2

It is the opinion of CliftonLarsonAllen, LLP, that the financial statements present fairly, in all
material respects, CCC’s financial position as of September 30, 2013 and 2012, and its net costs,
changes in net position, and budgetary resources for the years then ended, in accordance with
accounting principles generally accepted in the United States of America.

The CliftonLarsonAllen, LLP, report on CCC’s internal control structure over financial reporting
identified two significant deficiencies. Specifically, CliftonLarsonAllen, LLP, identified
weaknesses in CCC’s:

   ·   Funds control, and

   ·   Controls over child agency financial reporting.

CliftonLarsonAllen, LLP, considered the first significant deficiency to be a material weakness.
The results of CliftonLarsonAllen, LLP’s test of compliance with laws and regulations disclosed
substantial noncompliance with FFMIA for the United States Standard General Ledger at the
transaction level.

We appreciate the courtesies and cooperation extended during this audit. This report contains
publicly available information and will be posted in its entirety to our website
http://www.usda.gov/oig in the near future.
                             U.S. DEPARTMENT OF AGRICULTURE

 
                             COMMODITY CREDIT CORPORATION

             
                                                
                                     September 30, 2013 
                                                
                                                
                                      Table of Contents 
 
 
 
                                                                 Page 

 

INDEPENDENT AUDITORS’ REPORT                                         1
 

 
    Exhibit A – Material Weakness                                    7
 

 
    Exhibit B – Significant Deficiency                               8
 

 
    Exhibit C – Status of Prior Year’s Findings                    10

 
 
    Exhibit D – Management’s Response to Findings                  11

 
 
CCC ANNUAL REPORT
                                                                                      CliftonLarsonAllen LLP
                                                                                      www.cliftonlarsonallen.com




                                         INDEPENDENT AUDITORS’ REPORT 

Inspector General 
U.S. Department of Agriculture 
 
Board of Directors

 
Commodity Credit Corporation:

 
 
In  our  audits  of  the  fiscal  years  (FY)  2013  and  2012  financial  statements  of  the  Commodity  Credit 
Corporation (CCC), we found: 
 
      The financial statements are presented fairly, in all material respects, in accordance with accounting 
          principles generally accepted in the United States of America (U.S.); 
      One material weakness and one significant deficiency in internal control over financial reporting; 
      No  instance  of  reportable  noncompliance  with  selected  provisions  of  laws,  regulations,  contracts, 
          and  grant  agreements  tested,  exclusive  of  the  requirements  of  the  Federal  Financial  Management 
          Improvement Act of 1996 (FFMIA); and 
      CCC  is  not  in  substantial  compliance  with  the  FFMIA  Section  803  (a)  on  the  application  of  the  U.S. 
          Standard General Ledger (USSGL) at the transaction level. 
 
The  following  sections  and  Exhibits  discuss  in  more  detail:  (1)  these  conclusions,  (2)  Management’s 
Discussion  and  Analysis  (MD&A),  other  required  supplementary  information  (RSI),  and  other  information 
included  with  the  financial  statements,  (3)  management’s  responsibilities,  (4)  our  responsibilities,  (5) 
management’s response to findings, and (6) the current status of prior year findings. 
 
REPORT ON THE FINANCIAL STATEMENTS 
 
We  have  audited  the  accompanying  consolidated  financial  statements  of  CCC,  which  comprise  the 
consolidated  balance  sheets  as  of  September  30,  2013  and  2012,  and  the  related  consolidated  statements 
of net cost and changes in net  position, the combined statements of budgetary resources for the years then 
ended,  and  the  related  notes  to  the  financial  statements.  The  objective  of  our  audit  was  to  express  an 
opinion on the fairness of these financial statements. 
 
Management’s Responsibility for the Financial Statements 
 
CCC  management  is  responsible  for  the  (1)  preparation  and  fair  presentation  of  these  financial  statements 
in  accordance  with  accounting  principles  generally  accepted  in  the  U.S.;  (2)  preparation,  measurement,  and 
presentation  of  the  RSI  in  accordance  with  the  prescribed  accounting  principles  generally  accepted  in  the 
U.S.;  (3)  preparation  and  presentation  of  other  information  in  documents  containing  the  audited  financial 
statements  and  auditors’  report;  (4)  consistency  of  that  information  with  the  audited  financial  statements 
and  the  RSI;  and  (5)  design,  implementation,  and  maintenance  of  internal  control  relevant  to  the 
preparation and fair presentation of financial statements that are free from material misstatement, whether 
due to fraud or error. 



                                                            1

 
                                  INDEPENDENT AUDITORS’ REPORT (Continued) 
                                                     

Auditors’ Responsibility 
 
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted 
our  audits  in  accordance  with  auditing  standards  generally  accepted  in  the  U.S.;  and  the  standards 
applicable  to  financial  audits  contained  in  Government  Auditing  Standards,  issued  by  the  Comptroller 
General  of  the  United  States.  Those  standards  require  that  we  plan  and  perform  the  audit  to  obtain 
reasonable assurance about whether the financial statements are free from material misstatement. We also 
conducted  our  audits  in  accordance  with  OMB  Bulletin  No.  14‐02,  Audit  Requirements  for  Federal  Financial 
Statements,  (OMB  Bulletin  14‐02).  We  believe  that  the  audit  evidence  we  have  obtained  is  sufficient  and 
appropriate to provide a basis for our audit opinion. 
 
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the 
financial  statements.  The  procedures  selected  depend  on  the  auditors’  judgment,  including  the  assessment 
of  the  risks  of  material  misstatement  of  the  financial  statements,  whether  due  to  fraud  or  error.  In  making 
those  risk  assessments,  the  auditor  considers  internal  control  relevant  to  the  entity’s  preparation  and  fair 
presentation  of  the  financial  statements  in  order  to  design  audit  procedures  that  are  appropriate  in  the 
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal 
control.  Accordingly,  we  express  no  such  opinion.  An  audit  also  includes  evaluating  the  appropriateness  of 
accounting  policies  used  and  the  reasonableness  of  significant  accounting  estimates  made  by management, 
as well as evaluating the overall presentation of the financial statements. 
 
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our 
audit opinion. 
 
Opinion on the Financial Statements 
 
In  our  opinion,  the  financial  statements  referred  to  above  present  fairly,  in  all  material  respects,  the 
financial  position of CCC as of September 30, 2013 and 2012,  and  its  net  costs,  changes  in  net  position,  and 
budgetary  resources  for  the  years  then  ended,  in  accordance  with  accounting  principles  generally  accepted 
in the U.S. 
 
Other Matters 
 
Required Supplementary Information 
Accounting  principles  generally  accepted  in  the  U.S.  require  that  CCC’s  MD&A  and  other  RSI  (including 
stewardship  information)  on  pages  3  through  32  and  pages  112  through  116  be  presented  to  supplement 
the  financial  statements.  Such  information,  although  not  a  part  of  the  financial  statements,  is  required  by 
the  Federal  Accounting  Standards  Advisory  Board,  who  considers  it  to  be  an  essential  part  of  financial 
reporting for placing the financial statements in an appropriate operational, economic, or historical context. 
We  have  applied  certain  limited  procedures  to  the  MD&A  and  other  RSI  in  accordance  with  auditing 
standards generally accepted in the U.S., which consisted of inquiries of management about the methods of 
preparing  the  information  and  comparing  the  information  for  consistency  with  management's  responses  to 
our  inquiries,  the  financial  statements,  and  other  knowledge  we  obtained  during  our  audit  of  the  financial 
statements.  We  do  not  express  an  opinion  or  provide  any  assurance  on  the  RSI  because  the  limited 
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance. 
 
                                       



                                                             2
 

                                   INDEPENDENT AUDITORS’ REPORT (Continued) 
                                                      

Other Information 
Our  audit  was  conducted  for  the  purpose  of  forming  an  opinion  on  the  basic  financial  statements  as  a 
whole.  The  other  information  on  pages  33  through  51  and  pages  117  through  123  contains  a  wide  range  of 
information,  some  of  which  is  not  directly  related  to  the  financial  statements.  This  information is presented 
for  purposes  of  additional  analysis  and  is  not  a  required  part  of  the  financial  statements  or  RSI.  The  other 
information  has  not  been  subjected  to  the  auditing  procedures  applied  in  the  audit  of  the  financial 
statements, and accordingly, we do not express an opinion or provide any assurance on it. 
 
REPORT  ON  INTERNAL  CONTROL  OVER  FINANCIAL  REPORTING  AND  ON  COMPLIANCE  AND  OTHER 
MATTER  BASED  ON  AN  AUDIT  OF  FINANCIAL  STATEMENTS  PERFORMED  IN  ACCORDANCE  WITH 
GOVERNMENT AUDITING STANDARDS 
 
Report on Internal Control over Financial Reporting 
 
In  planning and performing our audit of the financial statements, we  considered  CCC’s  internal  control  over 
financial  reporting  (internal  control)  to  determine  the  audit  procedures  that  are  appropriate  in  the 
circumstances  for  the  purpose  of  expressing  our  opinion  on  the  financial  statements,  but  not  for  the 
purpose  of  expressing  an  opinion  on  the  effectiveness  of  CCC’s  internal  control  or  on  management’s 
assertion  on  internal  control  included  in  the  MD&A.  Accordingly,  we  do  not  express  an  opinion  on  the 
effectiveness  of  CCC’s  internal  control  or  on  management’s  assertion  on  internal  control  included  in  the 
MD&A.  
 
Our consideration of internal control was for the limited purpose described in the preceding  paragraph and 
was  not  designed  to  identify  all  deficiencies  in  internal  control  that  might  be  material  weaknesses  or 
significant  deficiencies  and  therefore,  material  weaknesses  or  significant  deficiencies  may  exist  that  were 
not  identified.  However,  we  identified  certain  deficiencies  in  internal  control  described  below  that  we 
consider to be material weaknesses and significant deficiencies. 
 
A deficiency in internal control exists when the design or operation of a control does not allow management 
or  employees,  in  the  normal  course  of  performing  their  assigned  functions,  to  prevent,  or  detect  and 
correct,  misstatements  on  a  timely  basis.  A  material  weakness  is  a  deficiency,  or  a  combination  of 
deficiencies,  in  internal  control,  such  that  there  is  a  reasonable  possibility  that  a  material  misstatement  of 
the  CCC’s  financial  statements  will  not  be  prevented,  or  detected  and  corrected  on  a  timely  basis.  We 
consider the deficiencies described below and in Exhibit A to be material weaknesses. 
                                                                   
                                                       Funds Control 
                                                                   
         CCC does not perform an automated and real time funds control for certain contracts at the 
         time they are fully executed (obligated). 
 
                                      




                                                              3

 
                                    INDEPENDENT AUDITORS’ REPORT (Continued) 
                                                       

A  significant  deficiency  is  a  deficiency,  or  combination  of  deficiencies,  in  internal  control  that  is  less  severe 
than  a  material  weakness,  yet  important  enough  to  merit  attention  by  those  charged  with  governance.  We 
consider the deficiencies described below and in Exhibit B to be significant deficiencies. 
                                                                
                   USAID’s Internal Control over Financial Reporting (Modified Repeat Finding) 

          CCC transferred budget authority to  the U.S. Agency  for International Development (USAID) 
          in  a  Parent/Child  allocation  transfer.  CCC  does  not  have  sufficient  internal  control  over 
          USAID’s:  (1)  review  and  recording  of  USAID’s  accruals,  and  (2)  performance  of  USAID’s  fund 
          balance with treasury’s reconciliation. 
                                                                
Also,  as  required  by  OMB  Bulletin  14‐02,  we  compared  the  material  weakness  identified  during  the  audit 
with  those  material  weaknesses  included  in  the  CCC’s  FMFIA  report  that  relate  to  financial  reporting.  We 
noted no exception. 
 
Report on Compliance and Other Matter 
 
As  part  of  obtaining  reasonable  assurance  about  whether  CCC’s  financial  statements  are  free  from  material 
misstatement,  we  performed  tests  of  its  compliance  with  certain  provisions  of  laws,  regulations,  contracts, 
and  grant  agreements,  noncompliance  with  which  could  have  a  direct  and  material  effect  on  the 
determination  of  financial  statement  amounts.  However,  providing  an  opinion  on  compliance  with  those 
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The results 
of  our  tests,  exclusive  of  those  required  by  FFMIA  as  discussed  below,  disclosed  no  instances  of 
noncompliance  that are required to be  reported in accordance with  Government Auditing Standards, issued 
by the Comptroller General of the United States or OMB Bulletin No. 14‐02. 
 
Systems Compliance with FFMIA Requirements 
Under  FFMIA,  we  are  required  to  report  on  whether  the  financial  management  systems  used  by  CCC 
substantially  comply  with  the  (1)  Federal  financial  management  systems  requirements,  (2)  applicable 
Federal  accounting  standards,  and  (3)  the  USSGL  at  the  transaction  level.  To  meet  this  requirement,  we 
performed tests of compliance with FFMIA Section 803(a) requirements. 
 
The  objective  of  our  audit  was  not  to  provide  an  opinion  on  CCC’s  compliance  with  FFMIA.  Accordingly,  we 
do  not  express  such  an  opinion.  However,  the  results  of  our  tests  of  FFMIA  disclosed  one  instance  in  which 
CCC’s  financial  management  systems  did  not  substantially  comply  with  Section  803(a)  requirement  on  the 
application  of  the  USSGL  at  the  transaction  level.  Application  of  the  USSGL  at  the  transaction  level  means 
that  each  time  an  approved  transaction  is  recorded  in  the  system;  it  will  generate  appropriate  general 
ledger  accounts  for  posting  the  transaction  according  to  the  rules  defined  in  the  USSGL  guidance.  See  
Exhibit A ‐ Material Weakness for the facts pertaining to the noncompliance, including the nature and extent 
of the noncompliance, the primary reason or cause of noncompliance, and the remedial actions. 
 
Other Matter 
In  October  2013,  CCC  identified  that  a  violation  of  the  Anti‐Deficiency  Act  (ADA),  31  U.S.C  1571  (a),  may 
have  occurred  in  September  2013  in  the  Feedstock  Flexibility  Program.  However,  as  of  the  date  of  this 
report, CCC has not completed its investigation to determine whether a violation has occurred or not. 
 
 
 


                                                               4

 
                                  INDEPENDENT AUDITORS’ REPORT (Continued) 
                                                     

Management’s Responsibility for Internal Control and Compliance 
 
CCC  management  is  responsible  for:  (1)  evaluating  the  effectiveness  of  internal  control  over  financial 
reporting  based  on  criteria  established  under  the  FMFIA;  (2)  providing  a  statement  of  assurance  on  the 
overall  effectiveness  on  internal  control  over  financial  reporting;  (3)  ensuring  CCC’s  financial  management 
systems  are  in  substantial  compliance  with  FFMIA  requirements;  and  (4)  ensuring  compliance  with  other 
applicable laws, regulations, contracts, and grant agreements. 
 
Auditors’ Responsibilities 
 
We  are  responsible  for:  (1)  obtaining  a  sufficient  understanding  of  internal  control  over  financial  reporting 
to  plan  the  audit;  (2)  testing  whether  CCC’s  financial  management  systems  substantially  comply  with  the 
FFMIA  requirements  referred  to  above;  (3)  testing  compliance  with  certain  provisions  of  laws  and 
regulations  that  have  a  direct  and  material  effect  on  the  financial  statements  and  applicable  laws  for  which 
OMB Bulletin 14‐02 requires testing; and (4) applying certain limited procedures with respect to the RSI and 
all other information included with the financial statements. 
 
We  did  not  evaluate  all  internal  controls  relevant  to  operating  objectives  as  broadly  established  by  the 
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient operations. We 
limited  our  internal  control  testing  to  testing  controls  over  financial  reporting.  Because  of  inherent 
limitations  in  internal  control,  misstatements  due  to  error  or  fraud,  losses,  or  noncompliance  may 
nevertheless  occur  and  not  be  detected.  We  also  caution  that  projecting  our  audit  results  to  future  periods 
is  subject  to  risk  that  controls  may  become  inadequate  because of changes in conditions or that the  degree 
of  compliance  with  controls  may  deteriorate.  In  addition,  we  caution  that  our  internal  control  testing  may 
not be sufficient for other purposes. 
 
We  did  not  test  compliance  with  all  laws  and  regulations  applicable  to  CCC.  We  limited  our  tests  of 
compliance  to  certain  provisions  of  laws  and  regulations  that  have  a  direct  and  material  effect  on  the 
financial statements and those required by OMB Bulletin 14‐02 that we deemed applicable to CCC’s financial 
statements  for  the  fiscal  year  ended  September  30,  2013.  We  caution  that  noncompliance  with  laws  and 
regulations  may  occur  and  not  be  detected  by  these  tests  and  that  such  testing  may  not  be  sufficient  for 
other purposes. Also, our work on FFMIA would not necessarily disclose all instances of noncompliance with 
FFMIA requirements. 
 
MANAGEMENT’S RESPONSE TO FINDINGS 
 
Management’s  response  to  the  findings  identified  in  our  report  is  presented  in  Exhibit  D.  We  did  not  audit 
CCC’s response and, accordingly, we express no opinion on it. 
 
STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES AND NONCOMPLIANCE ISSUES 

We  have  reviewed  the  status  of  CCC’s  corrective  actions  with  respect  to  the  findings  included  in  the  prior 
year’s Independent Auditors’ Report, dated November 5, 2012. The status of prior year findings is presented 
in Exhibit C. 
 
                                   




                                                             5

 
                                  INDEPENDENT AUDITORS’ REPORT (Continued) 
                                                     

PURPOSE  OF  THE  REPORT  ON  INTERNAL  CONTROL  OVER  FINANCIAL  REPORTING  AND  THE  REPORT  ON 
COMPLIANCE AND OTHER MATTER 
 
The  purpose  of  the  Report  on  Internal  Control  over  Financial  Reporting  and  the  Report  on  Compliance  and 
Other  Matter  sections  of  this  report  is  solely  to  describe  the  scope  of  our  testing  of  internal  control  and 
compliance  and  the  result  of  that  testing,  and  not  to  provide  an  opinion  on  the  effectiveness  of  CCC’s 
internal  control  or  on  compliance.  These  reports  are  an  integral  part  of  an  audit  performed  in  accordance 
with  Government  Auditing  Standards  in  considering  CCC’s  internal  control  and  compliance.  Accordingly, 
these reports are not suitable for any other purpose. 
 
 


a
CliftonLarsonAllen LLP 
Arlington, Virginia 
December 3, 2013 




                                                             6

 
                                                        EXHIBIT A

 
                                                   Material Weaknesses

 
                                                              

1.  Funds Control (Modified Repeat Finding) 
     
    CCC  uses  the  funds  control  system  (eFMS)  in  recording  obligations  at  the  transaction  level.  However,  as 
    in  prior  years,  a  substantial  portion  of  its  funds  is  still  not  managed  in  eFMS  as  of  September  30,  2013. 
    CCC  still  has  not  achieved  full  funds  control  and  still  does  not  record  certain  obligations  (budgetary 
    entries)  at  the  transaction  level.  This  deficiency  does  not  allow  CCC  to  perform  an  automated  and  real 
    time funds control at the time contracts are fully executed (obligated). 
     
    CCC’s  corrective  action  plan  is  projected  to  achieve  full  funds  management  control  by  the  end  of  FY 
    2014  and  has  incorporated  this  as  part  of  its  Financial  Management  Modernization  Initiative  (FMMI) 
    through the  Agency‐wide  Modernize and Innovate  the  Delivery  of  Agricultural  Systems  (MIDAS)  project. 
    In  FY  2013,  CCC  updated  its  corrective  action  plan  and  developed  a  more  detailed  plan  to  achieve  funds 
    control.  It  developed  four  main  tasks  with  16  phases  and  different  target  dates  and  percentage  of 
    completion. 
     
    OMB  Circular  A‐11,  Preparation,  Submission,  &  Execution  of  the  Budget,  states  that  the  agency 
    accounting  system  must  fully  support  agency  funds  control  systems.  The  agency’s  system  of 
    administrative  control  of  funds  should  be  designed  to  keep  obligations  from  exceeding  apportioned 
    amounts,  allotments,  suballotments,  and  other  administrative  subdivisions  of  funds.  The  funds  control 
    system must track obligations by program reporting categories used in the apportionment. 
     
    Also,  OMB  Circular  A‐123,  Appendix  D,  Compliance  with  the  Federal  Financial  Management 
    Improvement  Act  of  1996,  states  that,  “Financial  events  shall  be  recorded  applying  the  requirements  of 
    the  U.S.  Standard  General  Ledger  (USSGL).  Application  of  the  USSGL  at  the  transaction  level  means  that 
    each time an approved transaction is recorded in the system, it will generate appropriate general ledger 
    accounts for posting the transaction according to the rules defined in the USSGL guidance.” 
     
    CCC  continues  to  implement  its  remediation  plan  to  achieve  full  funds  control  and  record  obligations  at 
    the transaction level. Accordingly, we will not repeat previous year’s recommendations in this report. 




                                                               7

 
                                                        EXHIBIT B

 
                                                  Significant Deficiency

 


2. Strengthen Control Over Child Agency Financial Reporting (Modified Repeat Finding) 
    
   The  CCC  is  a  party  to  allocation  transfers  with  USAID  as  the  transferring  entity  (parent).  In  accordance 
   with  OMB  Circular  A‐136,  Financial  Reporting  Requirements,  “The  parent  is  accountable  for  and 
   maintains  the  responsibility  for  reporting  while  the  child  performs  on  behalf  of  the  parent  and  controls 
   how  the  funds  are  expended.  The  parent  is  responsible  for  the  program’s  overall  performance  and  may 
   decide  to  reallocate  funds  if  the  parent  is  not  satisfied  with  the  child’s  performance.”  It  further  states 
   that  “The  key  to  timely  and  accurate  quarterly  reporting  by  the  child  agency  is  the  communication 
   between  the  parent  and  child.  It  is  strongly  recommended  that  issues  such  as  formats,  abnormal 
   balances,  capitalization  thresholds,  useful  lives,  depreciation  methodologies,  transfer  of  trading  partner 
   information,  etc.,  be  discussed  and  resolutions  reached  at  a  date  required  by  the  parent  to  meet  its 
   reporting and auditing deadlines.” 
    
   During fiscal year 2013, CCC allocated funds of approximately $1 billion to USAID (the child) to fund P.L. 
   480 Title II, transportation and other administrative costs in connection with foreign donations. 
   Each  year,  the  cooperation  and  collaboration  between  CCC  and  USAID  continues  to  improve.  CCC  plans 
   to  continue  its  efforts  to  work  with  USAID  to  develop  and  implement  processes  and  controls  that  will 
   substantially  mitigate  this  deficiency.  Accordingly,  we  did  not  repeat  previous  years’  recommendations 
   in this report. 
    
   A. Review and Recording of Accruals (Modified Repeat Finding) 
          
         USAID records accrual of grants expenses and liabilities on a quarterly basis. Accruals are calculated 
         to  estimate  the  liabilities  and  expenses  incurred  but  not  yet  reported  by  grantees  as  of  September 
         30, 2013. Accruals also help an agency anticipate future funding and spending. The USAID Cognizant 
         Technical  Officer  (CTO)  evaluates  the  system  accrual  calculation  and  decides  if  an  adjustment  is 
         necessary. 
          
         We  identified  4  out  of  the  17  sample  transactions  tested  for  the  accrual  calculation  which  did  not 
         have  supporting  documentation.  Moreover,  we  noted  large  differences  between  the  calculated 
         accrued  amounts  and  the  actual  expenses  for  the  17  sample  transactions  tested.  USAID  does  not 
         perform  a  periodic  look‐back  analysis  to  validate  whether  the  grant  accrual  methodology  results  in 
         accruals that approximate actual dollar amounts from subsequent grantee reporting. 
          
         USAID  stated  that  the  USAID  obligation  managers/AORs/CORs  validate  system‐generated  accrual 
         amounts based on actual conditions and first‐hand knowledge of the project or activity with system‐
         generated  accrual  amounts.  Sometimes  these  projections  are  not  on  target,  resulting  in  variances 
         between  the  posted  accrual  estimates  with  subsequent  grantee  activity.  USAID  validates  the 
         reasonableness  of  the  previous  quarter’s  estimate  and  takes  that  and  other  grantee  data  into 
         consideration  when  posting  the  accrual  estimates  in  the  next  quarter.  USAID  is  currently  in  the 
         process of evaluating its estimation methodology to effect changes in FY 2014. 
          
         USAID  further  states  that  it  already  has  instituted  policy,  ADS  631.3.4,  which  describes 
         responsibilities  of  obligation  managers/AORs/CORs  and  supervisors  for  posting,  reviewing, 
         validating,  and  modifying  accrual  estimate  amounts.  However,  as  a  modified  recommendation, 
         USAID will send a reminder out to them again in order to emphasize these requirements with them. 



                                                             8

 
                                                   EXHIBIT B

 
                                             Significant Deficiency

 


   Additionally,  during  FY  2013,  CCC  and  USAID  prepared  a  joint  detailed  project  plan  that  includes 
   tasks  to  assist  in  the  validation  process,  and  in  FY  2014  they  will  work  to  implement  these  tasks  or 
   alternative tasks that accomplish the validation. 
    
   Technical  Release  12,  Accrual  Estimates  for  Grant  Programs,  states  that  "As  part  of  agencies' 
   internal control procedures to ensure that grant accrual estimates for the basic financial statements 
   were  reasonable,  agencies  should  validate  grant  accrual  estimates  by  comparing  the  estimates  with 
   subsequent grantee reporting." 
    
B. USAID FBWT Reconciliation (Modified Repeat Finding) 
    
   Since  at  least  FY  2009,  USAID  continued  to  use  a  suspense  account  (account  1010.31)  to  post  the 
   differences  between  its  GL  Fund  Balance  with  Treasury  (FBWT)  account  as  recorded  in  the  financial 
   accounting  system  (Phoenix)  and  the  Fund  Balance  reported  by  the  Department  of  the  Treasury 
   (Treasury) in order to facilitate FACTS II submissions. 
    
   In  FY  2013,  USAID  continues  to  have  unreconciled  differences  and  uses  a  suspense  account  to  post 
   differences  between  its  GL  and  Treasury’s  FBWT  accounts  without  a  formal  identification  of  the 
   causes  of  the  differences.  As  of  June  30,  2013,  the  net  unreconciled  difference  in  the  suspense 
   account  was  $6  million.  The  use  of  the  suspense  account  resulted  in  recorded  transactions  that 
   could not be readily identified when USAID received notification of these transactions from Treasury 
   and  could  not  resolve  these  items  within  the  60‐day  requirement  established  by  Treasury.  CCC 
   management  stated  that  it  currently  has  internal  control  procedures  that  will  prevent  new 
   differences from arising. 
    
   In  addition,  the  unreconciled  differences  in  FBWT  over  many  years  continue  to  accumulate  and 
   impact the budgetary accounts resulting in a $93 million difference in the budgetary accounts to the 
   proprietary (FBWT) account reconciliation. 
    
   GAO  Standard  for  Internal  Control  states  that  internal  control  should  generally  be  designed  to 
   assure  that  ongoing  monitoring  occurs  in  the  course  of  normal  operations.  It  is  performed 
   continually  and  is  ingrained  in  the  agency’s  operations.  It  includes  regular  management  and 
   supervisory  activities,  comparisons,  reconciliations,  and  other  actions  people  take  in  performing 
   their duties. 
    
   In  addition,  OMB  Circular  A‐123,  Management  Responsibility  for  Internal  Control,  states  that 
   monitoring  the  effectiveness  of  internal  control  should  occur  in  the  normal  course  of  business.  In 
   addition,  periodic  reviews,  reconciliations  or  comparisons  of  data  should  be  included  as  part  of  the 
   regular  assigned  duties  of  personnel.  Periodic  assessments  should  be  integrated  as  part  of 
   management’s continuous monitoring of internal control, which should be ingrained in the agency’s 
   operations.  If  an  effective  continuous  monitoring  program  is  in  place,  it  can  level  the  resources 
   needed to maintain effective internal controls throughout the year. 
    




                                                         9

 
                                                   EXHIBIT C

 
                                        Status of Prior Year’s Findings 

                                                         
                                                        
Our assessment of the current status of the findings identified in the prior year audit is presented below: 
         

          FY 2012 Findings                Type/ Years Reported                       FY 2013 Status 

    1. Funds Control                Material Weakness 2002‐2012             Open – Finding Modified – 
                                                                            Reported as Material Weakness 
    2. Strengthen Control Over      Significant Deficiency 2008‐2012        Open – Finding Modified – 
       Child Agency Financial                                               Reported as Significant 
       Reporting                                                            Deficiency 
 
 
 




                                                      10

 
                                                        EXHIBIT D

 
                                              Management’s Response to Findings
  




                     Exbibit 0


United SUIt"
Dep.rtment 0 1
Agric ulture

Farm and
Fore ig~             TO:                Lynette Cockrell
Agricu~yral
                                        Regional Inspector General
Services
                                        Office of the Inspector General
Commodity
Credit
Corporation                             Mia Leswing
1400 Independene e                      Partncr-in-Chargc
Aven\le, SW
Slop058t                                CliftonLarsonAllen             ~~
Washinglon. DC
2025().()581         FROM,       hi' Bruoo E . W...d                             ~
                               pv.. .   Chief Financial Officer
                                                                                       NOV 26 lOll
                                        Commodity Credit Corporation

                     SUBJEC T : Response to the Draft Combined Independent Auditor's Report on the
                                Commodity Credit Corporation's (CeC) Fiscal Years 2013 and 2012,
                                Comparative Financial Statements


                     We have reviewed the CliftonLarsonAlIen (CLA) Draft Combined Independem Auditor's
                     Report dated December 3. 2013, and concur with its contents. We are vcry pleased that for
                     the II'h consecutive year, CCC's financial statements have received an unqualified opinion
                     from the auditors.

                     CCC will continue to implement our planned corrective actions to address the findings
                     identified during the audit. We will continue to work with the Office of the Inspector
                     General and CLA in ensuri ng that the specific actions will successfu!Jy mitigate the
                     deficiencies repo rted.

                     If you have any questions or require additional infonnation. please contact
                     Elizabeth Russell at (202) 772-6031.




                     USDA is an eqyal "9pol'\untty pfO'lider er.d empioyer.




                                                                                                                   



                                                                         11

 
  U.S. DEPARTMENT OF
     AGRICULTURE
   COMMODITY CREDIT
     CORPORATION




2013 ANNUAL MANAGEMENT
        REPORT
U.S. Department of Agriculture
Commodity Credit Corporation

1400 Independence Avenue, S.W.
     Washington, DC 20250

2013 Annual Management Report

              ii
                                        PREFACE

This Annual Management Report shows the results of the Commodity Credit
Corporation’s (CCC) operations for fiscal year 2013.     This report meets the
requirements of the CCC Charter Act, as amended, and the Government Corporation
Control Act, as amended.

CCC worked closely with CliftonLarsonAllen LLP and the Office of Inspector General
(OIG) for the United States Department of Agriculture (USDA) in the development of this
report. The electronic version of this report can be found at http://www.usda.gov/oig.

The Management’s Discussion and Analysis section of the report contains the purpose,
authority, mission, and goals of the Corporation, financial, program summaries, and
performance measures. This report also includes the audit opinion letter, performance
information, financial statements, and accompanying notes.




USDA prohibits discrimination against its customers, employees, and applicants for
employment on the bases of race, color, national origin, age, disability, sex, gender
identity, religion, reprisal, and where applicable, political beliefs, marital status, familial
or parental status, sexual orientation, or all or part of an individual's income is derived
from any public assistance program, or protected genetic information in employment or
in any program or activity conducted or funded by the Department. (Not all prohibited
bases will apply to all programs and/or employment activities.)
To file a Civil Rights program complaint of discrimination, complete the USDA Program
Discrimination Complaint Form, found online at http://www.ascr.usda.gov or at any
USDA office, or call (866) 632-9992 to request the form. You may also write a letter
containing all of the information requested in the form. Send your completed complaint
form or letter to us by mail at U.S. Department of Agriculture, Director, Office of
Adjudication, 1400 Independence Avenue, S.W., Washington, D.C. 20250-9410, by fax
(202) 690-7442 or e-mail at program.intake@usda.gov.
Individuals who are deaf, hard of hearing, or have speech disabilities and wish to file
either an EEO or program complaint, should contact USDA through the Federal Relay
Service at (800) 877-8339 or (800) 845-6136 (in Spanish). Persons with disabilities,
who wish to file a program complaint, please see information above on how to contact
us by mail directly or by email. If you require alternative means of communication for
program information (e.g., Braille, large print, audiotape, etc.) please contact USDA’s
TARGET Center at (202) 720-2600 (voice and TDD).


                                              iii
                                    Table of Contents
  MESSAGE FROM THE CHIEF FINANCIAL OFFICER ............................................ 1
PART I: MANAGEMENT DISCUSSION AND ANALYSIS (UNAUDITED) ... 3
  MISSION STATEMENT .................................................................................. 4
  HISTORY OF THE COMMODITY CREDIT CORPORATION ..................................... 5
  STRUCTURE OF THE COMMODITY CREDIT CORPORATION ................................ 6
  ORGANIZATIONAL STRUCTURE ..................................................................... 7
  CCC PROGRAM AREAS ............................................................................... 8
  FUTURE EFFECTS OF DEMANDS, EVENTS, AND CONDITIONS.......................... 10
  2013 PERFORMANCE HIGHLIGHTS SUMMARY .............................................. 14
  FINANCIAL HIGHLIGHTS.............................................................................. 16
  MANAGEMENT CONTROLS, SYSTEMS, AND COMPLIANCE WITH LAWS AND
  REGULATIONS .......................................................................................... 25
  FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT ......................................... 29
  FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT ................................ 31
  ANTIDEFICIENCY ACT ................................................................................ 32
  LIMITATIONS OF THE FINANCIAL STATEMENTS .............................................. 32
PART II: PERFORMANCE SECTION (UNAUDITED) ............................... 33
  CCC STRATEGIC GOALS ........................................................................... 34
  CONSERVATION PROGRAM AREA................................................................ 35
  INCOME SUPPORT AND DISASTER ASSISTANCE PROGRAM AREA.................... 38
  COMMODITY OPERATIONS AND FOOD AID PROGRAM AREA ........................... 42
  MARKET DEVELOPMENT PROGRAM AREA .................................................... 44
  EXPORT CREDIT PROGRAM AREA ............................................................... 48
PART III: FINANCIAL SECTION ............................................................... 52
  CONSOLIDATED FINANCIAL STATEMENTS ..................................................... 53
  NOTES TO THE FINANCIAL STATEMENTS ...................................................... 57
PART IV: REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)
............................................................................................................... 112
PART V: OTHER INFORMATION (UNAUDITED)................................... 117
APPENDIX: GLOSSARY OF ACRONYMS ............................................. 124




                                                        iv
                               Table of Contents - Tables
Table 1: Summary of Assets .....................................................................................................16
Table 2: Summary of Liabilities .................................................................................................17
Table 3: Summary of Net Cost of Operations by Strategic Goal ................................................19
Table 4: Summary of Obligations ..............................................................................................24
Table 5: Summary of Net Outlays .............................................................................................24
Table 6: Summary of Performance Measure for Riparian and Grass Buffers Acreage ..............36
Table 7: Summary of Performance Measure for Restored Wetland Acreage ............................37
Table 8: Summary of Performance Measures for DCP and ACRE Programs ............................41
Table 9: Summary of Performance Measure for Commodity Operations Program ....................43
Table 10: Summary of Performance Measure for Market Development ....................................47
Table 11: Summary of Performance Measure for GSM .............................................................50
Table 12: Summary of Performance Measure for Economic Return Ratio.................................51
Table 13: Fund Balance with Treasury by Fund Type ...............................................................66
Table 14: Accounts Receivable .................................................................................................67
Table 15: Commodity Loans Receivable by Commodity ...........................................................68
Table 16: Direct Loans and Defaulted Guaranteed Loans, Net .................................................74
Table 17: Total Amount of Direct Loans Disbursed (Post-1991) ................................................75
Table 18: Guaranteed Loans Disbursed ....................................................................................75
Table 19: Guaranteed Loans Outstanding.................................................................................76
Table 20: Liability for Loan Guarantees (Present Value Method for Post-1991 Guarantees) .....77
Table 21: Subsidy Expense for Direct Loans by Program and Component ...............................77
Table 22: Subsidy Expense for Loan Guarantees by Program and Component ........................78
Table 23: Subsidy Rates for Direct Loans by Program and Component ....................................79
Table 24: Subsidy Rates for Loan Guarantees by Program and Component ............................79
Table 25: Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans
.................................................................................................................................................80
Table 26: Schedule for Reconciling Loan Guarantee Liability....................................................81
Table 27: Administrative Expenses ...........................................................................................81
Table 28: Inventory and Related Property, September 30, 2013 ...............................................85
Table 29: Inventory and Related Property, September 30, 2012 ...............................................86
Table 30: General Property and Equipment ..............................................................................88
Table 31: Other Assets .............................................................................................................89
Table 32: Liabilities not Covered by Budgetary Resources .......................................................90
Table 33: Debt to Treasury, categorized as Interest Bearing .....................................................91
Table 34: Total Debt Outstanding, by program and maturity date .............................................93
Table 35: Intragovernmental and Public - Deposit and Trust Liabilities .....................................94
Table 36: Other Liabilities .........................................................................................................95
Table 37: Accrued Liabilities .....................................................................................................96
Table 38: Earned Revenue .....................................................................................................100
Table 39: Net Costs of Operations by Strategic Goal and Program for the fiscal year ended
September 30, 2013 (In Millions) ............................................................................................102


                                                                        v
Table 40: Net Costs of Operations by Strategic Goal and Program for the fiscal year ended
September 30, 2012 (In Millions) ............................................................................................103
Table 41: Direct v. Reimbursable Obligations .........................................................................105
Table 42: P&F Reconciliation ..................................................................................................107
Table 43: Summary of CCC Transfers to Related Parties .......................................................108
Table 44: Custodial Activities ..................................................................................................110
Table 45: Reconciliation of Net Cost of Operations to Budget .................................................111
Table 46: Summary of Improper Payment Results ..................................................................123




                             Table of Contents – Charts
Chart 1: Farm Business Net Cash Income, 2013F compared with 2009-2012F averages .........12
Chart 2: Government Payments, 2003-2013F ...........................................................................12
Chart 3: Unexpended Appropriations ........................................................................................18
Chart 4: Cumulative Results of Operations ...............................................................................18
Chart 5: Provide a Financial Safety Net for Farmers and Ranchers ..........................................20
Chart 6: Increase Stewardship of Natural Resources While Enhancing the Environment ..........21
Chart 7: Ensure Commodities are Procured and Distributed Effectively and Efficiently .............22
Chart 8: Increase U.S. Food and Agricultural Exports ...............................................................23
Chart 9: Summary of Strategic Goals ........................................................................................34




                                                                vi
     Message from the Chief Financial Officer
I am pleased to present the Commodity Credit Corporation’s (CCC) Fiscal Year (FY)
2013 Financial Statements. The CCC is committed to the principles as established by
executive and legislative mandates that include information technology, financial
management, procurement, and program performance management. During FY 2013,
CCC continued to move aggressively to carry out its mission to provide high quality
services to the Nation’s agricultural community and to proactively respond to worldwide
agricultural needs.

CCC’s financial condition was significantly impacted by various programs due to events
in the global marketplace, extreme weather conditions, natural disasters, conservation,
and the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill). To help keep
American agriculture profitable and keep farmers on the farm, the Farm Service Agency
(FSA), administering CCC’s programs, paid farmers approximately $10 billion in the
form of direct payments, conservation payments, storage facility loans, market
assistance loans, and other loan payments.

Accountability and transparency are at the very core of CCC. For the eleventh
consecutive year, we earned an unqualified audit opinion on our financial statements.
The external auditors’ opinion is a testament to the hard work and dedication to strong
financial management practices performed in an effective and efficient manner by the
professionals who provide finance, accounting, and budget support to CCC. The
unqualified audit opinion validates our efforts to ensure that the financial statements of
the funds for which we are stewards are fairly presented.

While our financial statements are in good condition, CCC’s financial processes and
practices still have room for improvement. Our independent auditors identified one
material weakness, and one significant deficiency, in CCC’s internal controls. The
material weakness is related to Funds Control Management. We will take aggressive
action in FY 2014 to address the underlying causes of this weakness. Additionally, we
will address the significant deficiency just as aggressively.

Under the requirements of the Federal Managers’ Financial Integrity Act of 1982, CCC’s
management conducted its annual assessment and concluded that the system of
internal controls, taken as a whole, complies with internal control standards prescribed
by GAO and provides reasonable assurance that the related objectives are being met.
In FY 2014, our focus will be on maintaining and improving strong financial
management internal controls.



                                            1
CCC’s financial statements, included herein, report the Corporation’s FY 2013 financial
position, results of operations, and status of budgetary resources. These statements
are in compliance with the format prescribed by OMB in the form and content of Federal
financial statements (Circular A-136), and are in accordance with Generally Accepted
Accounting Principles for Federal entities. Financial management performance
measures also accompany the financial results. These performance measures
demonstrate areas of efficiency, accomplishments, and highlight areas for improvement.

I appreciate the efforts of the financial management professionals who support CCC for
their continued dedication and hard work this past year. It is their efforts that enable
CCC to deliver the most accurate, transparent, and useful information possible as we
continue to work together in our quest for excellence in financial management.

Sincerely,




Bruce E. Ward
Chief Financial Officer
Commodity Credit Corporation




                                           2
Part I: Management
Discussion and Analysis
(Unaudited)




  Certain information contained in this discussion is considered
  “forward-looking information” as defined by the Federal Accounting
  Standards Advisory Board’s (FASAB) Statement of Federal Financial
  Accounting Standards (SFFAS) No. 15, Management’s Discussion
  and Analysis. Such forward-looking information includes estimates
  and is subject to risks and uncertainties that could cause actual results
  to differ materially from this discussion.




                                     3
           COMMODITY CREDIT CORPORATION
               Management Discussion and Analysis


              Mission Statement


The Commodity Credit Corporation is a Government-
owned and operated entity dedicated to:

  Stabilizing, supporting, and protecting farm income
   and prices.

  Conserving soil, air, and water resources and
   protecting and improving wildlife habitats.

  Maintaining balanced and adequate supplies of
   agricultural commodities and aiding in their orderly
   distribution.

  Developing new domestic and foreign markets and
   marketing facilities for agricultural commodities.




                               4
                       COMMODITY CREDIT CORPORATION
                             Management Discussion and Analysis


 History of the Commodity Credit Corporation
Established in 1933, the Commodity Credit Corporation (hereinafter CCC or
Corporation) is a government-owned corporation within the United States Department
of Agriculture (USDA) created to stabilize, support, and protect farm income and prices.
CCC is also the Federal government’s primary financing arm for many domestic and
international agricultural programs. The statutory authority for Corporation operations is
found in the CCC Charter Act, 62 Stat.1070; 15 U.S.C. 714, and et seq. CCC helps
maintain balanced and adequate supplies of agricultural commodities and aids in their
orderly distribution.

CCC helps America’s agricultural producers through commodity and farm storage
facility loans, purchases, and income support payments. CCC also works to make
available materials and facilities required in the production and marketing of agricultural
commodities. In addition, CCC provides incentives and payments to landowners to
establish conservation practices on their land.

CCC provides agricultural commodities to other Federal agencies and foreign
governments. CCC also donates commodities to domestic and international relief
agencies as well as foreign countries. CCC assists in the development of new domestic
and foreign markets and marketing facilities for American agricultural commodities.
CCC operates numerous domestic programs such as income support, disaster
assistance, and conservation programs. It also extends direct credit and guarantees
commodity sales to foreign countries throughout the world.

CCC has its own disbursing authority and utilizes the Federal Reserve Bank system and
United States Treasury to make payments. This disbursing authority allows CCC to
make payments quickly and to provide financial support to America’s producers and
farmers immediately. CCC has multiple funding mechanisms. Most of the domestic
programs are operated out of a revolving fund, in which CCC has a permanent indefinite
borrowing authority, as defined by Office of Management and Budget (OMB) Circular A-
11, Preparation, Submission, and Execution of the Budget. Borrowing authority permits
the Corporation to incur obligations and authorizes it to borrow funds to liquidate the
obligations. This fund also receives money from appropriated funding for costs incurred
(i.e., realized losses), loan repayments, inventory sales, interest income, and fees.
Additionally, CCC receives direct appropriations for specific programs such as its Credit
Reform programs, foreign grant and donation programs, and disaster relief.




                                             5
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis

 Structure of the Commodity Credit Corporation
A Board of Directors manages CCC and is subject to the general supervision and
direction of the Secretary of Agriculture who is an ex officio director and chairperson of
the Board. The Board consists of seven members in addition to the Secretary. The
President of the United States, with the advice and consent of the Senate, appoints the
board members to office. The members of the Board and the Corporation officers are
officials of USDA. CCC officers, directly or through officials of designated USDA
agencies, maintain liaison with numerous other governmental and private trade
operations.

CCC has no actual employees; it carries out the majority of its programs through the
personnel and facilities of the Farm Service Agency (FSA), Agricultural Marketing
Service (AMS), Natural Resources Conservation Service (NRCS), Foreign Agricultural
Service (FAS), and the United States Agency for International Development (USAID).
Most CCC programs are delivered through an extensive nationwide network of FSA
field offices, including approximately 2,100 USDA Service Centers and 51 state offices
(including Puerto Rico). This network enables CCC to maintain a close relationship with
customers, successfully addressing their needs and continually improving program
delivery.     FSA implements CCC-funded programs for income support, disaster
assistance, conservation, and international food procurement.

Though FSA provides the staff for CCC, several CCC-funded programs fall under
purview of FAS or NRCS. FAS has the primary responsibility for USDA international
activities - market development, trade agreements and negotiations, and the collection
and analysis of statistics and market information. It also administers the USDA export
credit guarantee and certain food aid programs and helps increase income and food
availability in developing nations by mobilizing expertise for agriculturally led economic
growth.

NRCS provides leadership in a partnership effort to help American private landowners
and managers conserve their soil, water, and other natural resources. It also provides
financial assistance for many conservation activities. CCC reaches out to all segments
of the agricultural community, including underserved and socially disadvantaged
farmers and ranchers to ensure that CCC programs and services are accessible to
everyone.




                                            6
                       COMMODITY CREDIT CORPORATION
                             Management Discussion and Analysis


                     Organizational Structure
                          CCC Board of Directors
              Chairperson, Thomas James Vilsack, Secretary of Agriculture
           Vice Chairperson, Krysta L. Harden, Deputy Secretary of Agriculture
 Member, Michael T. Scuse, Under Secretary, Farm and Foreign Agricultural Services (FFAS)
               Member, Vacant, Under Secretary, Rural Development (RD)
  Member, Kevin W. Concannon, Under Secretary, Food, Nutrition, and Consumer Services
                                        (FNCS)
                     Member, Vacant, Chief Financial Officer, USDA
  Member, Edward M. Avalos, Under Secretary, Marketing and Regulatory Programs (MRP)
   Member, Robert Bonnie, Under Secretary, Natural Resources and Environment (NRE)

                                  CCC Officers
                     President, Michael T. Scuse, Under Secretary, FFAS
    Executive Vice President, Juan M. Garcia, Administrator, Farm Service Agency (FSA)
 Vice President, Candace Thompson, Associate Administrator, Operations and Management,
                                             FSA
     Vice President, Anne L. Alonzo, Administrator, Agricultural Marketing Service (AMS)
     Vice President, Philip C. Karsting, Administrator, Foreign Agricultural Service (FAS)
               Vice President, Philip C. Karsting, General Sales Manager, FAS
        Vice President, Audrey Rowe, Administrator, Food and Nutrition Service (FNS)
    Vice President, Jason Weller, Chief, Natural Resources Conservation Service (NRCS)
Deputy Vice President, James W. Monahan, Deputy Administrator, Commodity Operations, FSA
      Deputy Vice President, Mark A. Rucker, Deputy Administrator, Management, FSA
   Deputy Vice President, J. Michael Schmidt, Deputy Administrator, Farm Programs, FSA
 Deputy Vice President, Gregory A. Diephouse, Deputy Administrator, Field Operations, FSA
    Deputy Vice President, Joy Harwood, Director, Economic & Policy Analysis Staff, FSA
        Deputy Vice President, Leonard Jordan, Associate Chief, Conservation, NRCS
           Deputy Vice President, Anthony Kramer, Deputy Chief, Programs, NRCS
   Deputy Vice President, Thomas Christensen, Acting Associate Chief, Operations, NRCS
    Secretary, Steven N. Mikkelsen, Acting Executive Assistant to the Administrator, FSA
                       Deputy Secretary, Vacant, Farm Service Agency
               Assistant Secretary, Monique B. Randolph, Staff Assistant, FSA
             Chief Financial Officer, Bruce E. Ward, Chief Financial Officer, FSA
          Treasurer, Joseph Spain Jr., Director, Financial Management Division, FSA
 Chief Accountant, Sherry A. Laws, Center Director, Policy, Accounting, Reporting, and Loan
                         Center, Financial Management Division, FSA

                                      Advisors
          General Counsel, Ramona Emilia Romero, Office of the General Counsel
  Associate General Counsel, Ralph A. Linden, Natural Resources and Environment Division




                                             7
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis

                         CCC Program Areas
CCC funds many programs that fall under multiple agencies within the USDA. Each
CCC-funded program helps achieve parts of both CCC’s mission and the strategic plan
of the agency under which the program falls. CCC’s mission and strategic goals are
achieved through the successful implementation of the following key program areas:

Income Support and Disaster Assistance – Income support and disaster assistance
programs provide financial assistance to protect farmers and ranchers from fluctuations
in market conditions and unexpected natural or man-made disasters. Assistance is
provided through income support programs, disaster assistance programs, and the
Noninsured Crop Disaster Assistance Program (NAP). FSA is responsible for
administering income support and disaster assistance programs.

Conservation – Supported by the Food, Conservation, and Energy Act of 2008 (2008
Farm Bill), conservation programs offer farmers and ranchers a variety of financial and
economic incentives to conserve natural resources on the nation’s privately owned
farmlands. These programs focus on reducing erosion, protecting streams and rivers,
restoring and establishing fish and wildlife habitats, and improving air quality through
several conservation incentive payments, technical assistance, and cost-share
programs. FSA and NRCS administer CCC conservation programs.

Commodity Operations and Food Aid – FSA personnel handle the procurement,
acquisition, storage, disposition, and distribution of commodities, and the administration
of the United States Warehouse Act (USWA). These programs help achieve domestic
farm program price support objectives, produce a uniform regulatory system for storing
agricultural products, and ensure the timely provision of food products for domestic and
international food assistance programs and market development programs. FAS
administers the Food for Progress Program, which provides food aid to countries that
are emerging democracies and are committed to introducing and expanding free
enterprise in the agricultural sector. Food aid addresses participating countries’ hunger
and helps to build longer term economic development that boosts trade opportunities for
the United States and other countries.

Foreign Market Development – Expanding markets for agricultural products is critical to
the long-term health and prosperity of the U.S. agricultural sector. With 95 percent of
the world’s population living outside the United States, future growth in demand for food
and agricultural products will occur primarily in overseas markets. CCC funds used in
the market development programs play a critical role in helping to open new markets
and in facilitating U.S. competitiveness and by doing so, help to secure a more
prosperous future for American agriculture. Support for economic development and

                                            8
                     COMMODITY CREDIT CORPORATION
                           Management Discussion and Analysis

trade capacity building reinforces these efforts by helping developing countries to
become economically stable and improve their prospects to participate in and benefit
from expanding global trade in agricultural products. FAS administers CCC foreign
market development programs.

Export Credit – CCC export credit guarantee and direct loan programs, administered by
FAS in conjunction with FSA, provide payment guarantees for third-party commercial
financing and direct financing of U.S. agricultural exports. These programs facilitate
exports to buyers in countries where credit is necessary to maintain or increase U.S.
sales but where financing may not be available without CCC credit facilities.




                                           9
                       COMMODITY CREDIT CORPORATION
                             Management Discussion and Analysis


      Future Effects of Demands, Events, and
                    Conditions 1                       0F




According to USDA projections for 2013-2022, direct Government payments to farmers
will average about $9.7 billion annually over the next decade, well below the average of
$16 billion annually that occurred during 2000-2010. Assuming a continuation of current
law, the Conservation Reserve Program (CRP) and fixed direct payments are expected
to be the largest Government payments to the agricultural sector through the projection
period, although payments under the Average Crop Revenue Election (ACRE) program
are projected to jump to $1.8 billion in 2015 following a projected decline in commodity
prices. When the market supports higher prices, Government payments have a smaller
role in the agricultural sector’s income. Government payments, which represented
more than 8 percent of gross cash income in 2005, are expected to drop 2 to 3 percent
during the 2013-2022 projection period. As a result, it is expected that the sector will
rely more on the market for its income than on Government payments.

High commodity prices are projected to lead to record-high U.S. net farm income in
2013, reflecting the run-up in prices for many agricultural commodities, due in part to the
2012 U.S. drought and large crop insurance indemnities. Prices for many major crops
are projected to decline in the near term as global production responds to recent high
prices. Nonetheless, after these initial price declines, long-term growth in global
demand for agricultural products, a depreciating dollar, and continued biofuel demand,
particularly in the United States, the EU, Brazil, and Argentina, are expected to hold
prices for corn, oilseeds, and many other crops above pre-2007 levels.

USDA’s long-term projections for global agriculture reflect steady world economic
growth and continued global demand for biofuels. Grain and oilseed prices along with
export values and farm cash receipts are projected to decline in 2014-2015, but growth
is expected over the rest of the projection period as a return to steady domestic and
international economic growth, a weaker dollar, and continuing production of biofuels
support long-term demand for U.S. agricultural products. Those factors combine to
support long run increases in consumption, trade, and prices of agricultural products.
Following reductions from projected record levels in 2013, farm cash receipts and the
value of U.S. agricultural exports are expected to grow beyond 2015. Although farm


1
 Portions of Future Effects of Demands, Events, and Conditions were extracted from the “USDA
Agricultural Projections to 2022” dated February 2013 (USDA, Office of the Chief Economist);
and the “2013 Farm Sector Income Forecast” dated February 2013 (USDA, Economic Research
Service).

                                            10
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis

production expenses will also increase beyond 2015, net farm income remains
historically high. While net farm income is projected to decline from the 2013 record
through 2015, it will remain well above the average of the previous decade (2001 to
2010). After 2015, projected lower Government payments and rising farm production
expenses offset most of the gains in cash receipts and other sources of farm income.

Despite average net cash farm income (NCFI) for the industry, most farm businesses
specializing in program crops are forecast to experience a 7 to 10 percent decline in
NCFI in 2013, with larger declines anticipated for cotton and rice. Crop receipts are
forecast to decline slightly for almost all program crop farm businesses, but cotton and
rice farms will likely see a larger decline in crop receipts of about 5 percent, primarily
due to lower cotton acreage and declining cotton and rice prices. For some producers,
2012 insurance indemnities will be paid in 2013, boosting NCFI.

Specialty crop farm businesses (fruits, vegetables, and nurseries/greenhouses) are
forecast to experience a decline in average NCFI of more than 15 percent in 2013.
Crop receipts are expected to be slightly less than in 2012, while total cash expenses
are forecast to increase by almost 7 percent. Labor expenses, which make up over a
third of all cash expenses for specialty crop farms, are projected to increase 11 percent
due to increasing wages and output. Other field crop farm businesses (sugar crops,
hay, silage, trees, and woody crops) are expected to experience a 16 percent decrease
in average net cash income in 2013.

Farm businesses in some regions are forecast to experience substantial increases in
NCFI in 2013 relative to their 2009-2012 averages, while a few regions are expected to
experience declines. Higher mixed grain, wheat, and cattle NCFI relative to 2009-2012
favors farm businesses in the Northern Great Plains, Prairie Gateway, and Basin and
Range (see Chart 1 for regional definitions). The forecast decline in dairy NCFI
contributes to declines in the Northern Crescent and Fruitful Rim relative to 2009-
2012F 2 averages. Declining cotton and rice farm business NCFI is contributing to the
         1F




expected decrease in NCFI in the Mississippi Portal.




2
    F - Forecast

                                           11
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis

 Chart 1: Farm Business Net Cash Income, 2013F compared with 2009-2012F averages




Government payments paid directly to producers are expected to total $10.9 billion in
2013 under current law. This payment level is largely unchanged from 2012. Direct
payments under the 2013-crop Direct and Counter-cyclical Payment Program (DCP)
and the Average Crop Revenue Election Program (ACRE) are forecast at $4.94 billion
for 2013. Strong crop prices in 2013 are expected to result in only about $15 million in
price-based commodity program payments. These payments reflect final 2011-crop
ACRE payments for rice and 2012-crop ACRE payments for other commodities.

                      Chart 2: Government Payments, 2003-2013F




                                           12
                       COMMODITY CREDIT CORPORATION
                             Management Discussion and Analysis

The Milk Income Loss Contract Program (MILC) was reinstituted by the American
Taxpayer Relief Act (ATRA) of 2012. This program compensates dairy producers when
domestic milk prices fall below a specified benchmark price. Under ATRA, the
program's payment rate and annual volume of covered milk production are reduced and
the feed adjustment factor is increased. As a result, dairy producers are expected to
receive $290 million in MILC payments in calendar year 2013, a 37 percent decline from
2012.

Tobacco farmers and quota holders are expected to receive $641 million from the
Tobacco Transition Payment Program (TTPP) in 2013. Begun in 2005, this program
provides annual payments over a 10-year period to eligible quota holders and producers
of tobacco. The TTPP will expire after making final payments in 2014.

Estimated conservation payments of $3.7 billion in 2013 (covering both FSA and NRCS
programs) are largely unchanged from 2012. Although total Conservation Reserve
Program (CRP) acreage has declined in recent years, CRP outlays have remained fairly
constant. This is due to a higher proportion of newly enrolled acreage being devoted to
partial field practices, resulting in fewer acres covered at higher payment rates per acre.

Noninsured Crop Disaster Assistance Program payments of $250 million are expected
to be made to livestock and specialty crop producers for which insurance is unavailable.




                                            13
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis


      2013 Performance Highlights Summary
CCC had mixed results in achieving its performance expectations for FY 2013. CCC
funds many programs that fall under multiple agencies across USDA. Each Corporation
funded program helps achieve parts of both the CCC mission and the strategic plan of
the agency under which the program falls. The CCC mission and strategic goals are
achieved through the successful implementation of the key programs.

CCC did not meet its wetland and buffer program goals for FY 2013 due to a delay of
authority for the program from October 2012 to January 2013. However, CCC
leveraged program flexibility to the conservation programs to alleviate the hay and
pasture shortages faced by livestock producers during a recent drought. In the face of
uncertainty about the passage of a new Farm Bill, CCC remains strongly committed to
attaining its conservation objectives.

The Income Support and Disaster Assistance Program area met its program
performance target in FY 2013. Most visible to the public have been the efforts to rally
behind farmers and ranchers during natural calamities such as droughts and floods.
CCC will continue to use its resources and capabilities to ensure farmers and ranchers
have the full support of USDA and CCC during these difficult times.

The 2013 CCC performance estimate of 365 days between warehouse examinations
falls within its target range (plus or minus 25 days). The reduction in warehouse
examination staff in FY 2013 resulted in the number of days between warehouse
examinations increasing from FY 2012 (342) to FY 2013 (358). Additional warehouses
were also added to the examination schedule, accounting for the increase in days
between examinations. CCC will continue to provide food assistance purchase support
to domestic and international programs.          CCC has implemented a licensing
requirement, including inspection and examination procedures for all port and trans-
loading facilities receiving, storing, handling, and shipping export food assistance
commodities for the U. S. Agency for International Development (USAID) and CCC food
assistance programs Public Law (P.L.) 480, Title II and III, Food for Progress, Section
416(b) and McGovern-Dole International Food for Education and Child Nutrition
programs. Commodities purchased by CCC are stored or handled only through
International Food Aid Warehouses licensed under the United States Warehouse Act.
There is currently no CCC inventory of dairy products and CCC is projecting no FY
2014 Dairy Product Price Support Program purchases.




                                           14
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis

CCC exceeded its FY 2013 dollar value target for agricultural exports because of
increased participation in foreign food and agricultural trade shows. International trade
shows are a key component in the export strategies of most of the 70-plus organizations
receiving CCC market development funding.             These organizations use market
development funds to facilitate their industry members’ participation in key trade shows.
Some provide cost-share funding directly to small to medium-sized enterprises (SME),
enabling their participation. In particular, State Regional Trade Groups (SRTG), such
as the Food Export USA Northeast, Food Export Association of the Midwest USA,
Southern United States Trade Association and Western United States Trade
Association, use considerable CCC funds to provide a wide array of services to help
U.S. companies export for the first time and enter new markets. SRTG export
readiness training, market intelligence, how-to-export seminars, as well as cost-share
support at trade shows, are particularly valuable to SMEs. In addition, FAS provides the
National Association of State Departments of Agriculture (NASDA) CCC market
development funds to enhance the appearance and services offered at U.S. pavilions at
20-25 trade shows annually. Many participants’ market development-funded trade
missions are coordinated with key trade shows. Trade shows and trade missions are
critical components of the National Export Initiative’s (NEI) goal of doubling exports by
2015. U.S. company sales resulting from trade show participation are a good indicator
of the success of these investments.

The CCC Export Credit Guarantee Program was impacted by the drought-related
downturn in U.S. feed corn exports and did not meet its target of $3.4 billion in port
value of export sales. The FY 2013 program finished at $3.1 billion in registered port
value for all commodities. Even with the downturn in registrations the program
exceeded its 2013 economic return ratio target of $100 per dollar invested. Given
current projected performance, the economic return ratio for FY 2013 is $131 per dollar
invested. This is an increase over the FY 2012 economic return ratio of $117 per dollar
invested. The increase in the economic return ratio was due to increased applicant fee
rates and reduced administrative costs. No claims or defaults have been received in FY
2013, continuing the FY 2012 trend.




                                           15
                          COMMODITY CREDIT CORPORATION
                                 Management Discussion and Analysis


                              Financial Highlights
As part of its mission to stabilize, support, and protect farm income and prices, CCC is
also responsible for providing accurate, timely, and useful financial management
information to all stakeholders. The information that follows has been prepared from the
accounting records of the Corporation as of September 30, 2013 and September 30,
2012 in accordance with generally accepted accounting principles for Federal entities
and policies prescribed in the OMB Circular A-136, Financial Reporting Requirements.

Assets:
The Balance Sheet shows CCC had Total Assets of $8.2 billion as of September 30,
2013, a decrease of $1.8 billion (18 percent) below the previous year’s Total Assets of
$10 billion. This is mainly attributed to decreases of $1.5 billion in Accounts Receivable,
Commodity Loans, and Direct Loans and Loan Guarantees, Net and $292 million in
Fund Balance with Treasury.

There was a $1.5 billion decrease in Accounts Receivable, Commodity Loans, and
Direct Loans and Loan Guarantees, Net. A major part ($942 million) of the decrease is
primarily due to the reduction in the net present value of future collections expected
from the manufacturers for the Tobacco Transition Payment Program (TTPP) and
pending quarterly assessment recordings. The receivables for this program will
continue to decrease as it comes to an end in FY 2014. In addition, due to an increase
in principal collection and write-offs in the P.L. 480 Title I Program, Direct Loans and
Loan Guarantees, Net dropped by $400 million in FY 2013.

In FY 2013, Fund Balance with Treasury decreased by $298 million primarily due to an
increase in disbursements in the Milk Income Loss Contract Program (MILC). The
steady decline in the Boston Class I milk price triggered higher MILC payments in FY
2013.

                                   Table 1: Summary of Assets

                                                                                Dollars in Millions
  As of September 30                                          2013    2012 Variance Variance %
  Fund Balance with Treasury                               $ 2,686 $ 2,984 $ (298)           -10%
  Accounts Receivable, Commodity Loans, and Direct Loans
                                                              5,323     6,836    (1,513)      -22%
  and Loan Guarantees, Net
  Commodity Inventories, Net                                    69      14       55           393%
  General Property and Equipment, Net                           20      28       (8)          -29%
  Other                                                        119     111        8             7%
  Total Assets                                             $ 8,217 $ 9,973 $ (1,756)          -18%


                                                  16
                       COMMODITY CREDIT CORPORATION
                              Management Discussion and Analysis

Liabilities:
The Balance Sheet shows CCC had Total Liabilities of $16.2 billion as of September 30,
2013. This represents an increase of $977 million (6 percent) above the previous year’s
Total Liabilities of $15.2 billion. The variance is primarily due to an increase of $2.9
billion in Debt to the Treasury offset with a decrease of $2.1 billion in Other Liabilities.

The Debt to the Treasury increase is attributed to CCC borrowings from Treasury. In
FY 2012, CCC had a large cash reserve due to reimbursement for realized losses, but
in FY 2013, CCC had less cash reserves which resulted in more borrowing from
Treasury.

There was a $2.1 billion decrease in Other Liabilities, of which $952 million is due to the
net present value of future accrued liabilities and receivables for TTPP. Accrued
liabilities will continue to decrease as the number of payments left to be paid to tobacco
quota holders and producers declines. An additional $398 million decrease in Other
Liabilities was related to transfer of excess funds to Treasury for the P.L. 480 Title I
Program. In addition, CCC received $355 million less advances from AMS and FNS
due to the implementation of a Direct Cite Pilot program in May 2013 which eliminates
the need to advance amounts to CCC.

                              Table 2: Summary of Liabilities

                                                                         Dollars in Millions
  As of September 30                                  2013     2012 Variance Variance %
  Accounts Payable                                $    616 $    464 $    152           33%
  Debt to the Treasury                               5,609    2,682    2,927         109%
  Loan Guarantee Liabilities                           126      174      (48)         -28%
  Environmental and Disposal Liabilities                 8        8        -             0%
  Other                                              9,824   11,878   (2,054)         -17%
  Total Liabilities                               $ 16,183 $ 15,206 $    977             6%




                                             17
                                               COMMODITY CREDIT CORPORATION
                                                    Management Discussion and Analysis

Ending Net Position:
CCC’s Net Position, as of September 30, 2013 and 2012, is $(8.0) billion and $(5.2)
billion, respectively. Net Position is the sum of the Unexpended Appropriations,
Cumulative Results of Operations and Capital Stock. Refer to Note 1 - Significant
Accounting Policies, under Reporting Entity, and for additional information on Capital
Stock.

The charts below present the trend of Unexpended Appropriations and Cumulative
Results of Operations balances for the fiscal years ended September 30.

                                                  Chart 3: Unexpended Appropriations
                                      $2,500
                                                   $2,028
                                                                 $1,815
            Dollars in Millions




                                      $2,000

                                      $1,500                                   $1,167
                                                                                            $900
                                      $1,000
                                                                                                    $372
                                       $500

                                         $-
                                                   2009          2010          2011        2012     2013
                                                                           Fiscal Years

                                                               Unexpended Appropriations




                                                Chart 4: Cumulative Results of Operations
                                      $14,000      $12,205
            Dollars in Millions (-)




                                      $12,000
                                      $10,000                     $8,621                            $8,438
                                       $8,000                                              $6,233
                                       $6,000                                  $4,982

                                       $4,000
                                       $2,000
                                          $-
                                                    2009          2010         2011         2012    2013
                                                                           Fiscal Years

                                                             Cumulative Results of Operations




                                                                          18
                       COMMODITY CREDIT CORPORATION
                              Management Discussion and Analysis

Net Cost of Operations:
Net cost of operations is categorized based on CCC’s strategic goals. Net cost of
operations was $10.6 billion and $9.7 billion for the fiscal years ended September 30,
2013 and 2012, respectively. Overall Total Net Cost of Operations increased 9 percent
from the prior year. As shown in table 3 below, expenses for “Provide a Financial
Safety Net for Farmers and Ranchers” comprise a majority of the costs for the fiscal
years ended September 30, 2013 and 2012.

             Table 3: Summary of Net Cost of Operations by Strategic Goal

                                                                              Dollars in Millions
  For the Fiscal Years Ended September 30              2013         2012 Variance Variance %
  Provide a Financial Safety Net for Farmers and
                                                   $ 6,131    $ 5,736      $   395           7%
  Ranchers
  Increase Stewardship of Natural Resources
  While Enhancing the Environment                     2,156        2,115        41           2%
  Ensure Commodities are Procured and
                                                         79          65         14          22%
  Distributed Effectively and Efficiently
  Increase U.S. Food and Agricultural Exports         2,259     1,809          450          25%
  Total Net Cost of Operations                     $ 10,625   $ 9,725      $   900           9%




                                              19
                                         COMMODITY CREDIT CORPORATION
                                                 Management Discussion and Analysis

The activity that caused the fluctuation in the Statement of Net Cost for the fiscal year
ended September 30, 2013, relates to the following strategic goals:

            Provide a Financial Safety Net for Farmers and Ranchers – The majority of the
             $395 million variance is attributed to a timing difference in direct payments under
             the Direct and Counter-cyclical Payment Program (DCP). Per the 2008 Farm
             Bill, a single payment is now made in October of the subsequent fiscal year,
             eliminating partial payments after FY 2011. Under rules preceding the passage
             of the 2008 Farm Bill, a 22 percent partial payment was made in FY 2011 that
             caused the remaining balance paid in FY 2012 to be lower. In FY 2013, with no
             prior partial payments, the entire direct payment made resulted in an operating
             expense increase.

                               Chart 5: Provide a Financial Safety Net for Farmers and Ranchers

                             $14,000
                                       $12,682

                             $12,000
       Dollars in Millions




                             $10,000

                              $8,000
                                                      $6,140            $6,249                   $6,167
                                                                                      $5,822
                              $6,000

                              $4,000
                                            $2,347
                              $2,000
                                                           $159              $105          $86        $36
                                 $-
                                         2009           2010               2011         2012       2013
                                                                        Fiscal Year

                                                     Gross Costs    Earned Revenue




                                                                   20
                                      COMMODITY CREDIT CORPORATION
                                                  Management Discussion and Analysis

    Increase Stewardship of Natural Resources While Enhancing the Environment –
     The $41 million variance is mainly attributed to higher Conservation Reserve
     Program (CRP) annual rental payment expenses in FY 2013 compared to past
     years. This is a result of the change in the year-end accrual process which
     reduced the amount of FY 2012 year-end accrual. In addition, NRCS technical
     assistance activity, and the resulting expense for CRP was reduced since
     legislative authority was not extended for this program beyond September 30,
     2013.

Chart 6: Increase Stewardship of Natural Resources While Enhancing the Environment

                           $3,000

                                                       $2,426             $2,374
                           $2,500
                                    $2,223                                              $2,154     $2,191
     Dollars in Millions




                           $2,000


                           $1,500


                           $1,000


                            $500

                                             $1                 $1              $40          $39        $35
                              $-
                                      2009               2010                2011         2012       2013
                                                                          Fiscal Year

                                                     Gross Costs      Earned Revenue




                                                                     21
                                    COMMODITY CREDIT CORPORATION
                                                Management Discussion and Analysis

    Ensure Commodities are Procured and Distributed Effectively and Efficiently –
     The $14 million variance is primarily due to an increase in FY 2013 downward re-
     estimate subsidy disbursements in the Farm Storage Facility Loan Program.

Chart 7: Ensure Commodities are Procured and Distributed Effectively and Efficiently

                            $350                                         $326

                            $300                      $279

                            $250
      Dollars in Millions




                            $200
                                   $171

                            $150
                                                                                                  $100
                            $100                                                      $90


                             $50                             $36                $30         $25          $21
                                          $15
                             $-
                                    2009               2010                2011        2012        2013
                                                                        Fiscal Year

                                                   Gross Costs      Earned Revenue




                                                                   22
                                       COMMODITY CREDIT CORPORATION
                                              Management Discussion and Analysis

   Increase U.S. Food and Agricultural Exports – The $450 million variance is
    primarily due to a decrease in earned revenue. Interest revenue from loans
    receivable decreased approximately $236 million. This was mainly attributable to
    debt forgiveness to Democratic Republic of Congo in FY 2012 under the P.L. 480
    Title I Program. In addition, refinements made to the billing process by the U.S.
    Department of Transportation for Maritime Administration resulted in lower
    accruals which will be consistent going forward. Effective July 6, 2012, the
    Moving Ahead for Progress in the 21st Century Act (MAP-21) lowered shipping
    reimbursement rates for agricultural cargoes. Impacted programs are Title II
    Grant, Food for Education, and Food for Progress.

                                   Chart 8: Increase U.S. Food and Agricultural Exports

                          $3,500

                          $3,000                                    $2,894
                                                   $2,726
                                                                                  $2,511      $2,545
                          $2,500
    Dollars in Millions




                          $2,000     $1,749

                          $1,500

                          $1,000
                                                                                       $702

                           $500           $305          $325             $358                      $286

                             $-
                                       2009          2010              2011         2012        2013
                                                                    Fiscal Year

                                                 Gross Costs    Earned Revenue




                                                               23
                       COMMODITY CREDIT CORPORATION
                              Management Discussion and Analysis

Obligations Incurred:
Between September 30, 2013 and 2012, Obligations Incurred increased by $241 million
(one percent). Generally, many DCP contracts are approved after fiscal year-end.
However, due to the expectation that the program was ending, there was an increase in
contracts submitted and approved before year-end.

                             Table 4: Summary of Obligations

                                                                          Dollars in Millions
  For the Fiscal Years Ended September 30         2013        2012   Variance Variance %
  Obligations Incurred:
   Direct                                    $  2,965 $ 3,514 $         (549)          -16%
   Reimbursable                                18,976   18,186           790             4%
  Total Obligations                          $ 21,941 $ 21,700 $         241             1%



Net Outlays:
The $1.5 billion variance (17 percent increase) in Net Outlays is primarily due to a
timing difference in the DCP Program disbursements. Per the 2008 Farm Bill, a single
payment is now made in October of the subsequent fiscal year, eliminating partial
payments after FY 2011. However, under rules preceding the passage of the 2008
Farm Bill, a partial payment was made in FY 2011, which caused the remaining balance
paid in FY 2012 to be lower. Therefore, in FY 2013 when the entire direct payment was
made, Net Outlays reflected an increase compared to the prior fiscal year.

                             Table 5: Summary of Net Outlays

                                                                          Dollars in Millions
   For the Fiscal Years Ended September 30        2013       2012    Variance Variance %
   Net Outlays:
    Gross Outlays                            $ 21,253 $ 19,075 $       2,178            11%
    Offsetting Collections                     (10,660) (9,998)         (662)            7%
    Less: Distributed Offsetting Receipts         (102)    (74)          (28)           38%
   Net Outlays                               $ 10,491 $ 9,003 $        1,488            17%




                                             24
                COMMODITY CREDIT CORPORATION
                        Management Discussion and Analysis

 Management Controls, Systems, and
Compliance with Laws and Regulations
              FMFIA and FFMIA Assurance Statement:




         This memorandum provides CCC’s assertions to support the Secretary’s
         annual assurances for the U.S. Department of Agriculture’s (USDA) FY
         2013 Agency Financial Report. The assertions include assurance statements
         for the Federal Managers' Financial Integrity Act (FMFIA); The Office of
         Management and Budget (OMB) Circular No. A-123, “Management's
         Responsibility for Internal Control, Appendix A, “Internal Control over
         Financial Reporting”; and the Federal Financial Management Improvement
         Act (FFMIA) as of September 30, 2013.

        Federal Managers’ Financial Integrity Act Assertions

         1.    Management is responsible for developing and maintaining internal
               control to ensure the efficiency and effectiveness of operations,
               reliability of financial reporting, compliance with applicable laws and
               regulations, and the safeguarding of assets.



 USDA is an equal opportunity provider and employer.




                                            25
     COMMODITY CREDIT CORPORATION
           Management Discussion and Analysis



Jon M. Holladay
Page 2

2.   Internal control encompasses accounting and administrative controls.
     Such controls include program, operational, and administrative areas
     as well as accounting and financial management.

3.   Management has conducted its annual evaluations of internal control
     and financial systems pursuant to Section 2 and Section 4 of FMFIA,
     respectively, for the period ended September 30, 2013.

4.   Based on the results of the evaluations, CCC can provide reasonable
     assurance that internal controls are operating effectively.

5.   For Section 2 FMFIA, a material weakness (MW) for Funds Control
     Management continues to be reported, although there has been
     significant progress in working towards reducing the risk and
     materiality level during the year. One significant deficiency (SD)
     derived from USAID and oversight activities existed at the beginning
     of FY 2013 that has since been mitigated by the third quarter.

     No new MWs or SDs were identified to date for FY 2013; however,
     CCC’s management has concerns regarding the accounting processes
     USAID follows, which are currently undergoing a scrutinized review
     and analysis. At the time of this report, it is unknown what the final
     audit results will be and the effect on CCC’s financial statements, but
     CCC management is investigating the possibility of a MW in this
     area. Consequently, these conditions are subject to revision based on
     the final FY 2013 CCC Financial Statement Audit report that will be
     finalized in November 2013.

6.   Corrective action plans, where necessary, have been entered into the
     Office of the Chief Financial Officer’s (OCFO) A-123 Document
     Tracking System (ADTS) and are attached to this letter.

     Internal Control over Financial Reporting Assertions


1.   CCC assessed the effectiveness of internal control over financial
     reporting as of June 30, 2013. The assessment follows OCFO’s
     guidance and is required by OMB Circular A-123, Appendix A.




                            26
     COMMODITY CREDIT CORPORATION
           Management Discussion and Analysis


Jon M. Holladay
Page 3

2.   The assessment included an evaluation of entity level controls, risk
     assessments, process descriptions and flowcharts, documentation of
     key controls, and an assessment of the design of key controls, tests of
     operating effectiveness of properly designed controls, summary of
     deficiencies, and the development of corrective action plans for
     control deficiency. For the FY 2013 assessment, management
     determined the business cycles to be tested based on the risk rating.
     Key controls in the following cycles/processes were tested:

     CCC Commodity Loans
     CCC Farm Storage Facility Loans
     CCC Credit Management-Direct Loans
     CCC Credit Management-Guaranteed Loans
     CCC Producer Payments
     CCC Commodity Procurement
     CCC Revenue and Receivables Management
     CCC Tobacco Transition Payment Program
     CCC Funds Management
     CCC Funds Control
     CCC Financial Reporting

3.   Management recognizes its responsibility for monitoring and
     correcting all deficiencies.

4.   Management further certifies that there have been no significant
     changes in the operation of controls tested from the sample selection
     date through June 30, 2013.

5.   Based on the results of the assessment, CCC can provide reasonable
     assurance that internal controls over financial reporting are operating
     effectively.

6.   At the beginning of FY 2013, CCC had no MWs and two existing
     SDs. FY 2013 testing determined the two SDs “Maintaining,
     Controlling and Monitoring the CORE General Ledger” and
     “Reconciling Fund Balance with Treasury” still existed during FY
     2013. Two new SDs was identified during FY 2013 – “Monitoring
     GSM Guaranteed Loan Disbursements” and “Reconciling with
     Federal Trading Partners.”

7.   Corrective action plans, where necessary, are entered into OCFO’s
     ADTS.

                            27
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis



                 Jon M. Holladay
                 Page 4

                 Federal Financial Management Improvement Act Assertions

                 1.   CCC management evaluated its financial management systems under
                      FFMIA for the period ended September 30, 2013.

                 2.   Based on the results of our evaluation, we are in substantial
                      compliance with Section(s) 1. Federal Financial Management
                      Systems Requirements and 2. Applicable Federal Accounting
                      Standards. CCC’s financial management systems are not in
                      substantial compliance with Section 3, The Standard General Ledger
                      at the Transaction Level.

                 3.   A corrective action plan has been submitted into OCFO’s ADTS to
                      remediate Section 3, and is attached to this letter.

                 Noncompliance with Laws and Regulations

                 Except for being unable to report substantial compliance with FFMIA
                 above, CCC states that it has no reportable noncompliance with laws and
                 regulations for FY 2013.

                 Should you have any questions or require additional information, please
                 contact Elizabeth L Russell, Audit Liaison, Office of Budget and Finance,
                 at 202-772-6031.



NOTE:
The Assurance Certification is due to the Department annually by the last Friday in
August, which is almost three months before the final independent auditor’s report is
provided to CCC. Therefore, in order to prepare the assurance statement and send it
through the chain of command for signatures, CCC must assess reportable internal
control weaknesses and non-conformances based on available information. If the FY
2013 final audit report contains any new unexpected reportable conditions, the new
information is reflected in the sections that follow (FMFIA, FFMIA and ADA) and a
revised assurance statement will be submitted during the second quarter of FY 2014.




                                           28
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis

       Federal Managers’ Financial Integrity Act
Overview
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires Federal
agencies to submit an annual report to the President and Congress reflecting the status
of management controls for program, financial, and administrative operations. The
CCC Assurance Certification contains the FMFIA report that includes CCC’s reportable
conditions and related corrective action plans identified through the implementation and
assessment process complying with the requirements of OMB Circular A-123,
Management’s Responsibility for Internal Control, including an assessment conducted
in accordance with OMB Circular A-123, Appendix A, Internal Control over Financial
Reporting. CCC provides the Assurance Certification to the Department of Agriculture
(USDA) Office of the Chief Financial Officer, certifying that CCC is compliant with
FMFIA by:
      Fulfilling requirements to perform ongoing evaluations of internal control,
      Developing corrective action plans to mitigate the deficiencies, and
      Providing management oversight to ensure that progress is made and the
       conditions are properly reported.

The certification also includes assurances from CCC’s Chief Financial Officer, Executive
Vice President, and President that:
      Obligations and costs comply with applicable laws and regulations;
      Federal assets are safeguarded against fraud, waste, and mismanagement;
      Transactions are accounted for and properly recorded; and
      Financial management systems conform to standards, principles, and other
       requirements to ensure that Federal managers have timely, relevant, and
       consistent financial information for decision-making purposes.

Fiscal Year 2013 and 2012 Results
In accordance with FMFIA and OMB Circular A-123, Appendix A, information to support
CCC’s Assurance Certification was derived from FMFIA certification statements
submitted by CCC board members and other appropriate management, audits,
management reviews, and insight gained from daily operations of programs and
functions.

In FY 2013, management’s assessment of internal controls over financial reporting as of
September 30, 2013, determined that the material weakness (MW) - Funds Control –
has not been sufficiently mitigated and will be a repeat finding in the audit report under


                                           29
                       COMMODITY CREDIT CORPORATION
                             Management Discussion and Analysis

FMFIA Section 4 as a system non-conformance and as a MW in Section 2 of FMFIA.
CCC also revised the estimated completion date to September 2014.

There was one significant deficiency (SD) reported in the 2012 audit report under
FMFIA: Strengthen Internal Controls over Child Agency Financial Reporting (USAID).
The relationship between CCC and USAID has improved significantly. CCC continued
its efforts to work with USAID to develop and implement processes and controls to
substantially mitigate this deficiency. However, although agreements were reached,
these controls were not sufficiently implemented during FY 2013 to mitigate the prior
years’ deficiencies resulting in a repeat audit finding. The finding includes the following
two areas of deficiency:
      There is a lack of implementing periodic review procedures, already established
       within USAID, of the grant accruals to validate whether the grant accrual
       methodology results in accruals that approximate actual dollar amounts from
       subsequent grantee reporting.
      USAID continues to have unreconciled differences between its general ledger
       and its Fund Balance with Treasury accounts without a formal identification of the
       causes of the differences. This results in USAID continuing to make unsupported
       adjustments in order to pass the FACTS II reconciliation requirements without
       conducting research to correct the root cause.

Under OMB Circular A-123, Appendix A, there were two SDs reported for CCC in FY
2012 for “Maintaining, Controlling, and Monitoring the CORE general ledger,” and
“Reconciling Fund Balance with Treasury”. Two new SDs were identified during FY
2013 test work – “Monitoring General Sales Manager (GSM) Guaranteed Loan
Disbursements” and “Reconciling with Federal Trading Partners”.




                                            30
                       COMMODITY CREDIT CORPORATION
                             Management Discussion and Analysis

Federal Financial Management Improvement Act
The Federal Financial Management Improvement Act (FFMIA) is designed to improve
financial and program managers’ accountability, provide better information for decision-
making, and improve the efficiency and effectiveness of Federal programs. FFMIA
requires that financial management systems provide reliable, consistent disclosure of
financial data in accordance with generally accepted accounting principles and
standards. These systems must also comply substantially with the following three areas
of FFMIA: (1) Federal financial management system requirements; (2) applicable
Federal accounting standards; and (3) the United States Standard General Ledger
(USSGL) at the transaction level.

During FY 2013, CCC evaluated its financial management systems to assess
substantial compliance with FFMIA. CCC management has made the determination
that CCC has demonstrated substantial compliance with Sections 1 and 2; however,
CCC is not substantially compliant with Section 3 – the USSGL at the transaction level.

CCC has completed the development of a fully integrated funds control system,
electronic Funds Management System (eFMS), within the FSA/CCC CORE financial
management system. This system is integrated with CCC’s general ledger system at
the transaction level. The eFMS provides management with timely information to
monitor and control the status of budgetary resources recorded in the general ledger.
CCC continues to implement programs into eFMS for full funds control at the
transaction level.    CCC anticipates that when all material programs are fully
implemented, CCC will be substantially compliant with Section 3 for FFMIA.

As of the end of FY 2013, a significant percentage of CCC’s programs (85 percent) now
include funds control and accounting using eFMS. An additional 8 percent are
electronically controlled at the payment level but not at the transactional level. The
balance (7 percent) of the payments are administratively controlled and will be either
migrated into eFMS or continue to be administratively controlled due to age of the
systems and the cost benefit.

Significant progress has been made toward complete funds control, but the lack of the
financial system functionality to record all obligations at the transaction level at the time
the obligation occurs increases the risk that funds could be disbursed or obligations
incurred with no or insufficient budget authority to fund the expense or obligation.
Although CCC implemented manual controls in order to compensate for the system’s
inherent limitation, the controls may not be adequate to reduce the risks of an
Antideficiency Act (ADA) violation occurring and may not prevent or detect violations


                                             31
                      COMMODITY CREDIT CORPORATION
                            Management Discussion and Analysis

timely. CCC has plans to correct the deficiency by FY 2014 with the migration to the
Department's enterprise solution under the Financial Management Modernization
Initiative (FMMI) plan. However, continued efforts for the system migration will be
required and are dependent upon additional funding to meet the current target date.

For FY 2014, CCC will continue to do the following:
      Collaborate with Information Technology Services Division (ITSD) and Deputy
       Administrator Farm Programs (DAFP) to develop and execute a project plan to
       complete software modifications for the identified program applications to send
       obligation transactions, including establishments, liquidations, and adjustments
       (downward and upward) to eFMS at the transaction level;
      Implement a reconciliation process to ensure that budget authority in CORE
       agrees with budget authority in eFMS and SF-132's, Apportionment and
       Reapportionment Schedules, CCC’s Apportionment Control log and unliquidated
       obligations in CORE agree with the unliquidated obligations in eFMS;
      Perform clean-up of existing unliquidated obligations; and
      Initiate implementation of programs in FMMI/MIDAS (Modernize and Innovate the
       Delivery of Agricultural Systems) and independent FMMI applications.



                           Antideficiency Act
In October 2013, CCC identified that a violation of the Anti-deficiency Act (ADA), 31
U.S.C 1571 (a), may have occurred in September 2013 in the Feedstock Flexibility
Program. However, as of the date of this report, CCC has not completed its
investigation to determine whether a violation has occurred or not.



       Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position
and results of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515
(b), Financial Statements of Agencies. While the statements have been prepared from
the books and records of the entity in accordance with Generally Accepted Accounting
Principles (GAAP) for Federal entities and the formats prescribed by OMB, the
statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.


                                           32
Part II: Performance
Section (Unaudited)




             33
                         COMMODITY CREDIT CORPORATION
                                         Performance Section


                            CCC Strategic Goals
Given that most of CCC services are carried out by the employees of USDA agencies,
the mission of CCC aligns towards the strategic goals of the Department as well as to
the strategic goals of FSA and FAS. Each of these strategic goals, in turn, has
objectives that support the results that each agency wants to achieve. The performance
measures allow CCC to tangibly measure how well it is achieving these objectives
without creating a duplicate reporting burden. The chart below summarizes the
relationship between the USDA strategic goals and each agency’s strategic goals, and
the CCC program areas.
                              Chart 9: Summary of Strategic Goals
                   U.S. Department of Agriculture Strategic Goals
 Ensure Our National Forests and     Assist Rural Communities to             Help America Promote
 Private Working Lands Are           Create Prosperity so They Are           Agricultural Production and
 Conserved, Restored, and Made       Self-Sustaining, Repopulating, and      Biotechnology Exports as
 More Resilient to Climate           Economically Thriving                   America Works to Increase
 Change, While Enhancing Our                                                 Food Security
 Water Resources


  CCC Strategic Goal        CCC Strategic Goal          CCC Strategic Goal         CCC Strategic Goal
       Increase              Provide a Financial        Ensure Commodities         Increase U.S. Food
   Stewardship of              Safety Net for            are Procured and           and Agricultural
  Natural Resources             Farmers and                 Distributed                 Exports
 While Enhancing the             Ranchers                 Effectively and
    Environment                                              Efficiently

                                                                                      Program Area
                                                           Program Area
                               Program Area                                       Market Development
    Program Area
                                                            Commodity
                            Income Support and              Operations
    Conservation                                                                      Program Area
                             Disaster Assistance               and
                                                             Food Aid                 Export Credit




                                                                          Foreign Agricultural
                Farm Service Agency
                                                                                Service


                             Commodity Credit Corporation



                                                   34
                       COMMODITY CREDIT CORPORATION
                                    Performance Section


                  Conservation Program Area
                             MISSION ELEMENT
     Conserving soil, air, and water resources and protecting and improving wildlife
                                         habitats



Program Overview
The CCC Conservation Reserve Program (CRP) allows producers to plant long-term,
resource-conserving covers to improve water and air quality, control soil erosion, and
enhance wildlife habitat on land. In return, the program provides participants with rental
payments and cost-share assistance. Contract terms run between 10 and 15 years.
CRP is designed to restore and enhance wetland areas, increase sediment trapping
efficiencies, improve water quality, prevent soil erosion, and provide habitat for
waterfowl and other wildlife.

The program includes several initiatives for wetland restoration and enhancement. CRP
wetland initiatives now include a 600,000-acre Floodplain Restoration Initiative, a
250,000-acre Bottomland Hardwood Timber Initiative, a 350,000-acre Non-Floodplain
and Playa Wetland Restoration Initiative, and a 300,000-acre Prairie Pothole Duck
Nesting Habitat Initiative. Total CRP enrollment stood at 26.9 million acres as of
September 30, 2013. These acres annually reduce sedimentation, sequester carbon
dioxide, and reduce greenhouse gas emissions.

Analysis of Results
Due to the 3.3 million acres of CRP expiring in FY 2013, and the delayed extension of
Farm Bill authority and apportionment, combined with relatively high commodity prices,
USDA faced challenges in maintaining the magnitude of CRP’s conservation benefits.
As of June 2013, CCC has CRP contracts with landowners covering 2.10 million acres
of wetlands (including upland buffers), falling short of its FY 2013 target of 2.23 million
acres. Also, CRP contracts covered 1.88 million acres of buffers, therefore not meeting
its target of 1.95 million acres for FY 2013.

Total CRP enrollment currently stands at 26.9 million acres. These acres reduce
nitrogen, phosphorus, and sediment by more than 85 percent annually and helps
maintain proper carbon dioxide levels in soils and vegetation. CRP efforts contribute to
increased wildlife populations, and have added more than two million ducks to the
Prairie Pothole Region annually, protecting Sage Grouse populations in Eastern

                                            35
                             COMMODITY CREDIT CORPORATION
                                         Performance Section

Washington and Lesser Prairie Chicken populations in the Great Plains, and increasing
ring-necked pheasant and other grassland bird populations across the nation.

   Table 6: Summary of Performance Measure for Riparian and Grass Buffers Acreage
                                                                               FY 2013
Performance Measure          FY 2009   FY 2010   FY 2011   FY 2012
                                                                      Target   Actual    Result
CRP: acres of riparian
and grass buffers
                              2.01      2.02      2.01         1.98    1.95     1.88 1   Not Met
(cumulative and in million
acres)
Threshold range: +/- 0.05 million acres
Rationale for Met Range: Management Determination
                       Data Assessment of Performance Measure
Data source: The data source for this measure is the National CRP Contract Data Files.
                              1
Completeness of Data: Data reported are estimated final results for the fiscal year based
on data available as of June 30, 2013. The targets and actual data are annual. The measure
reports national acres under contract with the following buffer practices: Grass Filter Strips,
Riparian Buffers, Wildlife Habitat Buffers on Marginal Pasturelands, and Buffers established
under the State Acres for Wildlife Enhancement. There are no known data limitations.
Reliability of Data: USDA considers the data to be reliable. CRP is authorized through FY
2013.
Quality of Data: Overall, the quality of the data is good.




                                                 36
                          COMMODITY CREDIT CORPORATION
                                      Performance Section

        Table 7: Summary of Performance Measure for Restored Wetland Acreage
                                                                             FY 2013
Performance Measure       FY 2009   FY 2010   FY 2011   FY 2012
                                                                    Target   Actual    Result
CRP: restored wetland
                           2.04      2.05      2.23          2.29    2.23     2.10 1   Not Met
acreage (million acres)
Threshold range: +/- 0.05 million acres
Rationale for Met Range: Management Determination
                       Data Assessment of Performance Measure
Data source: The data source for this measure is the National CRP Contract Data Files.
                           1
Completeness of Data: Data reported are estimated final results for the fiscal year based
on data available as of June 30, 2013. The targets and actual data are annual. The measure
reports national acres under contract with the following wetland practices: Wetland
Restoration, Marginal Pastureland Buffers, Bottomland Trees, Shallow Water Areas for
Wildlife, Duck Nesting Habitat, and Farmable Wetlands Programs. There are no known data
limitations. Acres reported include associated upland buffers.
Reliability of Data: USDA considers the data to be reliable. CRP is authorized through FY
2013.
Quality of Data: Overall, the quality of the data is good.


Challenges for the Future
The 2008 Farm Bill reduced CRP enrollment authority to no more than 32 million acres.
FY 2013 enrollment is expected to end at about 26.9 million acres. Due to the 3.3
million acres of CRP expiring in FY 2013, and the delayed extension of Farm Bill
authority and apportionment, combined with relatively high commodity prices, USDA
faced challenges in maintaining the magnitude of CRP’s conservation benefits. With
the continued uncertainty of the pending Farm Bill reauthorization, estimates for future
years may need to be adjusted if there are changes to CRP acreage authorized. CCC
remains strongly committed to attaining its conservation objectives. Special focus will
be placed on accelerating the protection of clean and abundant water resources.




                                              37
                       COMMODITY CREDIT CORPORATION
                                     Performance Section


      Income Support and Disaster Assistance
                 Program Area
                              MISSION ELEMENT
              Stabilizing, supporting, and protecting farm income and prices



Program Overview
CCC is the financial instrument for millions of dollars in income support and disaster
assistance payments each year to agricultural commodity producers. These payments
stabilize, support, and protect farm income. CCC payments for these programs are
driven by commodity market prices, payment eligibility rules established in public policy,
and natural or human-caused disasters. CCC payments are best explained in the
context of a commodity crop year which does not directly correspond to financial
statement reporting.

The Direct and Counter-cyclical Payment Program (DCP) is a key CCC program in
mitigating market losses by providing direct and counter-cyclical payments to eligible
producers. The intent is to allow planting flexibility while providing a financial safety net.
Eligible crop producers receive counter-cyclical payments if the effective price for the
covered commodity is less than the target price for the covered commodity. Counter-
cyclical payments vary as market prices change relative to statutory income support
levels. Public Law 110-234, the Food, Conservation, and Energy Act of 2008 (2008
Farm Bill), as amended by the American Taxpayer Relief Act (ATRA) of 2012 (Public
Law 112-240), authorized DCP for 2008 through 2012 crop years.

The electronic Direct and Counter-cyclical Payment Program (eDCP) service allows
agricultural producers to enroll in the Average Crop Revenue Election (ACRE) Program
or DCP online. This service is intended to increase customer satisfaction and reduce
the producer’s time spent at USDA Service Centers. Producers can choose ACRE or
DCP payment options, assign crop shares, sign, view, print, and submit their ACRE or
DCP contracts from any computer with Internet access. This service has been available
to all eligible producers for the 2008-2013 program years and helps maintain
participation rates. While producers still have the option to sign-up for the programs in
person at their local USDA Service Center, offering sign-up options through the Internet
helps meet performance objectives, in accordance with the FSA mandate to expand E-
Government options for program participants.



                                             38
                      COMMODITY CREDIT CORPORATION
                                   Performance Section

The optional ACRE program, added under the 2008 Farm Bill, and amended by ATRA,
is an alternative revenue-based safety net to the price-based safety net provided by
counter-cyclical payments. Farms with covered commodity or peanut base acres could
participate in ACRE for crop years 2009 through 2013. Under ACRE, producers
received revenue-based payments as an alternative to receiving price-based counter-
cyclical payments.

ACRE provides producers an option to protect against declines in market revenue.
ACRE involves State and farm revenue changes from guarantee revenue levels that are
based on national prices, State planted yields, and farm planted yields. Because of the
extension of the farm bill authorized by ATRA, producers were given the option to either
elect and enroll in ACRE or participate in DCP for crop year 2013. Producers on farms
that elected ACRE were required to decide annually whether to enroll in ACRE. Failing
to re-enroll the farm rendered the farm ineligible for program year benefits even though
the ACRE election is in effect. Producers could elect the ACRE alternative on a farm-
by-farm basis. Producers who elected and enrolled a farm in ACRE agreed to: (1) forgo
counter-cyclical payments, (2) take a 20 percent reduction in their direct payments, and
(3) take a 30 percent reduction in the Marketing Assistance Loan (MAL) rates for all
commodities produced on the farm.

ACRE payments are tied to current plantings on the farm as opposed to counter-cyclical
payments, which are tied to the farm’s base acres. ACRE payments are issued when
two conditions are met for a commodity. The first condition is met when the “Actual
State Revenue” falls below the “State ACRE Guarantee”. The second condition is met
when the “Actual Farm Revenue” falls below the “Farm ACRE Guarantee”. Producers
on participating ACRE Program farms can receive both direct and ACRE payments, but
if receiving both payments, the direct payment will undergo a 20 percent reduction.

ACRE direct payments for a crop year are limited to $40,000 per person or legal entity
minus the amount that ACRE direct payments are reduced under ACRE. Total counter-
cyclical and ACRE payments are limited to $65,000 per person or legal entity plus the
amount that direct payments are reduced. The limitation is attributed to entities and
individuals, including indirect amounts received through entities. Persons or legal
entities whose average non-farm Adjusted Gross Income (AGI) exceeds $500,000 are
not eligible for DCP or ACRE payments. Also, persons or legal entities whose average
farm AGI exceeds $750,000 are not eligible for direct payments under the DCP or
ACRE Program.




                                           39
                      COMMODITY CREDIT CORPORATION
                                   Performance Section

Analysis of Results
CCC met its 2013 target to maintain the percentage of eligible base acres participating
in the DCP and ACRE programs. Maintaining a high participation rate in the DCP and
ACRE programs is important, because the associated program payments provide
income support and incentives for good land stewardship and acreage reporting. Due
to expected changes in the farm bill currently under consideration by Congress, CCC
may discontinue this measure in future reports. In FY 2013, DCP/ACRE payments
totaled $4.9 billion.

CCC helps farmers manage financial and market risks primarily through income support
and disaster assistance programs. These programs help farmers and ranchers address
major fluctuations in market conditions and unexpected natural or man-made disasters.
These programs provide a financial safety net to farmers and ranchers and supports
productive farms and ranches, thriving agricultural communities, market-based
agriculture, and secure and affordable food and fiber. Selected CCC Income Support
and Disaster Assistance accomplishments during the year include:

      The Noninsured Crop Disaster Assistance Program (NAP) provides a risk
       management tool for producers of non-insurable crops that are unable to obtain
       crop insurance through an insurance product. In FY 2013, approximately $322
       million in NAP payments were issued.
      The Farm Storage Facility Loan (FSFL) Program provides financing for on-farm
       storage, covering over 970 million bushels of eligible FSFL commodities since FY
       2000. More than 31,000 FSFLs were disbursed from FY 2000 through FY 2013
       totaling approximately $1.6 billion. As of September 10, 2013, 1,767 FSFL
       applications were received totaling $166 million. A total of 427 applications have
       been accepted, with a total of $29 million disbursed.
      The Loan Deficiency Payment (LDP) Program, applicable when market prices
       are low, issues all LDP benefits electronically, when LDPs are in effect. The
       Marketing Assistance Loan (MAL) Program disburses nonrecourse commodity
       loans during a crop year. For the last full crop year, 2012, there were 46,805
       MALs disbursed totaling over $5.9 billion. As of September 27, 2013, for crop
       year 2013, there have been 905 MALs disbursed totaling over $93.5 million.
       Loan activity for the 2013 crop year will increase as the harvest of most
       commodities is just beginning. The loan availability period for most crop year
       2013 commodities continues until the end of May 2014.
      The Milk Income Loss Contract Program (MILC) compensates dairy producers
       when domestic milk prices fall below a specified benchmark price. As of
       September 2013, approximately $473.7 million MILC payments have been

                                           40
                           COMMODITY CREDIT CORPORATION
                                       Performance Section

       issued for FY 2012 and approximately $197.4 million has been disbursed for FY
       2013. Rising feed costs for the remainder of FY 2013 may trigger small MILC
       payments for August but not for September. The MILC program ends September
       30, 2013, along with the current Farm Bill.

        Table 8: Summary of Performance Measures for DCP and ACRE Programs
                                                                            FY 2013
Performance Measure        FY 2009   FY 2010   FY 2011   FY 2012
                                                                   Target   Actual    Result
Maintain the percent of
eligible base acres
                           95.99%    95.65%    95.34%    94.99%     95%      95% 1       Met
participating in DCP and
ACRE programs
Threshold range: +/-1.00% base acres
Rationale for Met Range: Management Determination
                          Data Assessment of Performance Measure
Data source: Direct and Counter-cyclical and ACRE Program Enrollment Report (DCP-01)
for the respective crop year.
Completeness of Data: 1 Data reported are estimated final results for the fiscal year based
on data available as of September 10, 2013, and on the historical trend from prior years.
Reliability of Data: Data are considered reliable. The measurement process involves
determining the number of base acres enrolled in the DCP and ACRE programs. That
number is then divided by the total number of base acres on all farms to calculate the
percentage of enrolled base acres. The enrollment report is updated periodically.
Quality of Data: Overall, the quality of the data is good.


Challenges for the Future

Congress has not yet passed multiyear comprehensive Food, Farm and Jobs
legislation. Beginning October 1, 2013, the authority or funding provided under the
2008 Farm Bill, as amended by ATRA, for USDA to operate a number of programs will
expire, and the authority and funding for additional programs will expire over the coming
months. This creates uncertainty in terms of USDA programs and benefits available to
U.S. farmers and ranchers.




                                               41
                      COMMODITY CREDIT CORPORATION
                                   Performance Section


         Commodity Operations and Food Aid
                  Program Area
                            MISSION ELEMENT
  Maintaining balanced and adequate supplies of agricultural commodities and aiding
                             in their orderly distribution


Program Overview
CCC Commodity Operations manages the acquisition, handling, storage, transportation,
and disposition of agricultural commodities. Commodity Operations performs licensing
and examination activities in accordance with the United States Warehouse Act
(USWA), to maintain acceptable standards for the protection of stored commodities.

CCC is also responsible for administering storage agreements that commercial
warehouse operators establish with CCC. The agreements are for CCC interest
commodities, including commodities owned by CCC or pledged as collateral for
Marketing Assistance Loans (MALs). These programs help achieve domestic farm
program price support objectives, ensure the timely provision of various commodities for
domestic and international food assistance, and administer a uniform regulatory system
for storing agricultural products. Warehouse operators issue negotiable warehouse
receipts to producers under the provisions of the USWA. Producers who use the stored
commodity as collateral for a MAL may deliver the warehouse receipts to CCC as
security for a nine-month MAL.

CCC also works with its Dairy Product Price Support Program partners to provide
adequate, secure storage capacity to maintain quality and improve the purchase and
delivery of food aid. Food assistance purchases support domestic programs such as
the National School Lunch Program and the Emergency Food Assistance Program, as
well as international food aid through the U.S. Agency for International Development
and the United Nations' World Food Program.

Analysis of Results
The more frequently warehouses are examined, the sooner potential compliance
issues, pest infestation, or deterioration of quality for commodities in store are
discovered. The 2013 CCC performance estimate of 358 days between warehouse
examinations falls within its target range (plus or minus 25 days). The FY 2013 target
was 365 days. The increasing number of commodity warehouses and the increasing


                                           42
                         COMMODITY CREDIT CORPORATION
                                      Performance Section

capacities of licensed warehouses within the USWA are the major factors in the
increase in number of days between examinations from previous fiscal years. The
addition of 19 International Food Aid warehouses licensed in FY 2013 is also a
contributing factor.

    Table 9: Summary of Performance Measure for Commodity Operations Program
                                                                            FY 2013
Performance Measure      FY 2009   FY 2010   FY 2011    FY 2012
                                                                   Target   Actual    Result
Average time between
warehouse examinations     363       345        355          342    365      358 1     Met
(in days)
Threshold range: +/- 25 days
Rationale for Met Range: Management Determination
                       Data Assessment of Performance Measure
Data source: The data source for this measure is internal Deputy Administrator for
Commodity Operations (DACO) files.
Completeness of Data: 1Data reported are estimated final results for the fiscal year based
on data available as of September 10, 2013. The targets and actual data are annual.
Reliability of Data: USDA considers the data to be reliable.
Quality of Data: Overall, the quality of the data is good.


Challenges for the Future
As staffing decreases, the challenge is to have examiner resources available to
maintain the timeliness of examinations. The USWA-licensed warehouses represent
more than half of all licensed grain, cotton, and peanut warehouse capacity in the
United States. The USWA trend lines are for additional warehouses to be licensed as
well as increased storage capacities of warehouses currently under license. CCC
examination demands especially in sugar and cotton warehouses are on the increase.
Marketing and transportation complexities in the commodity industry are also
expanding. The implementation of non-traditional examination procedures and use of
electronic mediums will provide efficiencies in the examination process. Management
will need to be very proactive in balancing work force needs with budgetary restraints
while meeting the demand of the commodity industry and CCC.




                                              43
                      COMMODITY CREDIT CORPORATION
                                    Performance Section


           Market Development Program Area
                            MISSION ELEMENT
       Developing new domestic and foreign markets and marketing facilities for
                             agricultural commodities




Program Overview
One-third of all U.S. agricultural cash receipts come from export sales, making the
economic well-being of rural America heavily dependent on international trade. U.S.
farmers and ranchers are among the worlds’ most productive and efficient. However,
they face complex and unfair obstacles in the global marketplace where 95 percent of
the world’s consumers live. A cooperative effort with the U.S. industry is needed to
ensure the U.S. producers have fair market access, a strong understanding of key
market trends, and support in overcoming constraints such as tight credit in international
markets.

CCC supports U.S. industry efforts to build, maintain, and expand overseas markets for
U.S. agricultural, fish, and forest products. The FAS manages several export
development programs including the Foreign Market Development (Cooperator)
Program (FMD), Market Access Program (MAP), Technical Assistance for Specialty
Crops (TASC) Program, Quality Samples Program (QSP), and Emerging Markets
Program (EMP).        These programs provide matching funds to U.S. non-profit
organizations to conduct a wide range of activities including market research, consumer
promotion, trade servicing, capacity building, and market access support. Working with
the State Regional Trade Groups (SRTG) and other industry organizations, CCC
programs also provide funding to encourage small to medium-sized enterprises (SME)
to become active in international markets. FAS staff in over 100 countries around the
world support industry efforts by providing market intelligence and introducing U.S.
exporters to potential foreign customers. FAS trade services staff, FAS overseas
offices and cooperators all provide services that help U.S. companies successfully
access potential buyers in a wide-range of international trade shows.




                                            44
                       COMMODITY CREDIT CORPORATION
                                       Performance Section

Analysis of Results

An external cost-benefit analysis 3 of market development programs found that U.S. food
                                  2F




and agricultural exports increased by $35 for every dollar expended by government and
industry, up from $25 in 2007. The study used multivariate econometric models for bulk
commodities and high value products that isolated the unique long-run trade impacts of
foreign market development. The report also showed that agricultural exports in 2009
were $6.1 billion higher than they would have been without increased investment in
market development. In addition, export gains associated with the programs increased
the average annual level of U.S. farm cash receipts by $4.4 billion.

There are over 70 non-profit associations that participate in CCC market development
programs. They are promoting U.S. products around the world and have an economic
impact on virtually every state in the union. A few examples of their successes
demonstrate the wide range of participants, activities, and target markets:
       The U.S. Soybean Export Council’s MAP- and FMD-funded technical assistance
        provides Nicaraguan poultry, swine, dairy and cattle producers the management
        and animal nutrition information they need to improve efficiency and expand
        production. This type of hands-on technical advice has helped increase U.S.
        soybean meal exports, reaching nearly $40 million in 2012, a 54 percent increase
        in value over the previous year. As of completion of this report, 2013 results
        were not available.
       The Cotton Council International expanded U.S. mills’ business relationships in
        Colombia through their FMD-funded COTTON USA Sourcing Program, which
        enabled them to visit potential customers, participate in key textile trade fairs,
        and host buyer teams in their factories. Contacts established from these
        activities enabled U.S. mills to take advantage of the duty-free provisions under
        the U.S.-Colombia Free Trade Agreement very quickly when fully implemented in
        2012. U.S. cotton yarn exports to Colombia reached $12 million in 2012 and
        U.S. cotton yarn’s market share in Colombia reached nearly 10 percent,
        compared to 1 percent in 2011. As of completion of this report, 2013 results
        were not available.
       MAP-funded trade missions have been very effective at generating new sales.
        For example, in anticipation of the U.S.-Korea Free Trade Agreement passage,
        the U.S. Dairy Export Council used MAP to fund a trade mission to Korea which
        resulted in an estimated $31.5 million of new business for U.S. cheese suppliers.


3
 Information based on the report “A Cost-Benefit Analysis of USDA’s International Market
Development Programs” dated March 2010, prepared by IHS Global Insight (USA), Inc.

                                               45
                      COMMODITY CREDIT CORPORATION
                                   Performance Section

       A Softwood Export Council trade mission to Australia in July 2012 generated an
       estimated $13 million in new sales. A U.S. Dry Bean Export Council MAP-funded
       trade visit to Poland in 2012 resulted in first-ever dark red kidney beans sales
       and U.S. dry bean exports to Poland reached $380 million in 2012, following no
       exports in 2011. Exports in the first six months of 2013 have already reached
       $374 million.
      Alaska Seafood Marketing Institute (ASMI) used MAP funds to participate at the
       HOFEX trade show in Hong Kong, the largest food and beverage trade show in
       Asia. Held in May 2013, the show attracted more than 19,000 exhibitors and
       35,000 visitors and the USA Pavilion had 41 exhibitors and an estimated 32,000
       visitors during the show. ASMI reported $2 million in on-site sales and projected
       12-month sales totaling an additional $10 million.
      The U.S. Potato Board’s use of the TASC program facilitated access to the
       Philippine market for U.S. table stock potatoes in June 2013. A TASC-funded
       Philippine trade mission to the United States in 2012, facilitating firsthand
       experience with U.S. potato production, storage, shipping, and U.S. seed
       certification, provided a critical breakthrough in negotiations.
      The Cranberry Marketing Committee has increased demand for U.S. cranberries
       in Mexico by providing product samples through the QSP and technical
       assistance through MAP. U.S. exports have doubled over the past five years,
       reaching $34.5 million for the marketing year ended August, 2012. Much of this
       growth has been through expanded use of dried cranberries in the food
       manufacturing sector. In 2012, 228 processed products using cranberries were
       available in Mexico, a 33 percent increase from the previous year.

CCC market development programs support the U.S. National Export Initiative (NEI),
broadening the base of U.S. exporters supports economic recovery and American jobs.
A central focus of NEI is to provide additional assistance to SMEs, which are major
drivers of new job creation. In calendar year 2012 there were 1,716 new U.S. company
participants in market development programs; and 1,829 buyers were brought to the
U.S. on reverse trade missions. Trade show participation is a key component of SME
program participation and cornerstone of cooperators’ MAP and FMD investments.




                                           46
                           COMMODITY CREDIT CORPORATION
                                       Performance Section

            Table 10: Summary of Performance Measure for Market Development
                                                                             FY 2013
Performance Measure        FY 2009   FY 2010   FY 2011   FY 2012
                                                                   Target    Actual     Result
Value of agricultural
exports resulting from
                                                                             $1,464
participation in foreign    $697     $1,097    $1,072    $1,332    $1,350            Exceeded
                                                                            Estimate
food and agricultural
trade shows (million $)
Threshold range: +/-$150 million
Rationale for Met Range: Management Determination
                      Data Assessment of Performance Measure
Data source: Data are collected by surveying U.S. company participants at the end of each
trade show. Voluntary survey responses represent about 60 to 90 percent of total company
participants at a show. In large, multiproduct shows, about a third to a half of the respondents
are companies that are participating with one of the market development organizations. In
more product-specific shows, about two-thirds of the respondents are linked to market
development funded participants. Data reported are 12-month projected sales.
Completeness of Data: Data are through September 30, 2013.
Reliability of Data: Data are considered reliable.
Quality of Data: Data are self-reported but are considered a good indicator of aggregate
company sales. In 2011, the Office of Trade Programs (OTP) conducted a test on the
reliability of the data, OTP analyzed reported projected sales of three trade shows. This
analysis compared reported projected sales to actual 12-month sales that were obtained
through an extensive telephone survey. This review demonstrated that overall the projections
understated actual sales. Prior to the review, many assumed projections were considerably
overstating final sales.


Challenges for the Future
The economic fragility of the EU, the political unrest in the Middle East, and the
slowdown in the Chinese economy, all can have a detrimental impact on the export
results of market development programs, including dampening U.S. company sales
prospects at international trade shows. CCC’s ability to continue to survey company
sales following trade shows may be disrupted, as the OMB continues its review of the
current survey, as required by the Paperwork Reduction Act. Consistent and
predictable funding for various market development programs is a challenge. A new
Farm Bill, or an extension of the current 2008 Farm Bill, is needed to establish
predictable program funding levels in order to bring stability to planning and program
implementation. These factors can greatly influence the performance measure
outcomes and the availability of data to support them.


                                               47
                      COMMODITY CREDIT CORPORATION
                                   Performance Section




                  Export Credit Program Area
                            MISSION ELEMENT
  Creating U.S. agricultural export opportunities and enhancing global food security




Program Overview
The primary objective of the CCC Export Credit Guarantee Programs is to increase
sales of U.S. agricultural commodities to international markets by facilitating the
extension of export credits to countries that may not have access to adequate
commercial credit. These CCC programs encourage U.S. lenders and exporters to
extend credit terms on sales of agricultural commodities and products to overseas
customers. The CCC Export Credit Guarantee Programs support the involvement of
foreign private sector banks and private sector importers in commercial trade
transactions with the U.S. The Export Credit Guarantee (GSM-102) Program provides
guarantees for export sales with repayment terms up to 2 years by current policy with
further restrictions depending upon the risk grade of the country. The statutory cap on
repayment terms remains at 3 years.

Analysis of Results
The CCC Export Credit Guarantee Program was impacted by the drought-related
downturn in U.S. feed corn exports. The FY 2013 program finished at $3.1 billion in
registered port value for all commodities, thus not meeting the target of $3.4 billion.
Even with the downturn in registrations, the program exceeded its 2013 economic return
ratio target of $100 per dollar invested. The economic return ratio for FY 2013 is $131
per dollar invested. This is an increase over the FY 2012 economic return ratio of $117
per dollar invested. The increase in the economic return ratio was due to reduced
default estimates and reduced administrative costs. No claims or defaults were
received in FY 2013, continuing the FY 2012 trend.

The Economic Return Ratio is calculated using gross default estimates and does not
take into consideration expected recoveries on claims paid. Program accomplishments
for FY 2013 include:
      Although FY 2013 program usage decreased about 26 percent from FY 2012,
       mainly due to reduced sales of U.S. corn and soybeans, program demand for


                                           48
                   COMMODITY CREDIT CORPORATION
                                 Performance Section

    other commodities, including corn gluten meal, grain sorghum, lumber, poultry,
    and cotton increased this year.
   Turkey was the largest GSM-102 market in FY 2013, supporting sales of almost
    $800 million, a 14 percent increase over FY 2012. Sales of cotton, soybean
    meal, printing/writing paper, distiller’s dry grains, and wheat to Turkey increased
    in FY 2013. As of July 2013, GSM-102 had supported 33 percent of total U.S.
    agricultural exports to Turkey, including 66 percent of all U.S. soybean and
    soybean meal exports to Turkey and 33 percent of all cotton.
   In FY 2013, a U.S. exporter registered a $3 million sale of poultry to Georgia, the
    first sale registered to that country under the program since FY 2008.
   In the Africa/Middle East Region, for the first time since 2002, the GSM-102
    program supported exports of U.S. hard red winter wheat to Nigeria
    (approximately $19 million), one of the largest U.S. importers of wheat. In
    addition, for the first time ever, U.S. rice was shipped to Libya (approximately $9
    million) under the program. Poultry exports to Angola under GSM-102 more than
    tripled this year over 2012, to a total of $40 million.
   The GSM-102 program supported $51 million in sales of U.S. agricultural
    commodities to Vietnam in FY 2013, mainly soybeans. Sales of U.S. lumber to
    Vietnam increased by 30 percent in FY 2013.




                                         49
                        COMMODITY CREDIT CORPORATION
                                    Performance Section


                   Table 11: Summary of Performance Measure for GSM
                                                                           FY 2013
Performance Measure     FY 2009   FY 2010   FY 2011   FY 2012
                                                                  Target   Actual    Result
Estimated trade value
resulting from USDA
GSM export credit        $5.43     $3.15     $4.20        $4.21   $3.40     $3.17    Not Met
guarantee program
(dollars in billions)
Threshold range: +/- 0.25 billion
Rationale for Met Range: Management Determination
                       Data Assessment of Performance Measure
Data source: The data source for this measure is the GSM System. The GSM System
records all export sales registered, guarantees issued and shipments and makes adjustments
to these amounts due to reserves or shipments not completed. Figures have been updated to
reflect actual export value (versus guaranteed value that was previously reported).
Completeness of Data: Data reported are based on results for the fiscal year based on
data available as of September 30, 2013.
Reliability of Data: CCC considers this data to be reliable. The GSM System is updated
every night. The GSM System is included in the annual A-123 review of the GSM-102
program and is also included in the annual audit by external auditors. The performance
measure is simply the port value derived from the Commitment Reports that are generated
from the GSM System.
Quality of Data: The GSM System is a system designed solely to support the GSM export
credit guarantee programs. The GSM System is updated every night and all changes are
tested before being incorporated into the system. Data is reviewed on a daily basis.




                                            50
                        COMMODITY CREDIT CORPORATION
                                    Performance Section

         Table 12: Summary of Performance Measure for Economic Return Ratio
                                                                             FY 2013
Performance Measure     FY 2009   FY 2010   FY 2011    FY 2012
                                                                  Target     Actual    Result

Economic Return Ratio     N/A      N/A      $(107/1)   $(117/1)   $(100/1)   $(131/1) Exceeded

Threshold range: +/- 5.00
Rationale for Met Range: Management Determination
                       Data Assessment of Performance Measure
Data source: The data source for this measure is the GSM System. The GSM System
records all export sales registered, guarantees issued and shipments and makes adjustments
to these amounts due to reserves or shipments not completed.
Completeness of Data: Data reported based on final results for the fiscal year based as of
September 30, 2013.
Reliability of Data: CCC considers this data to be reliable. The GSM System is updated
every night. The GSM System is included in the annual A-123 review of the GSM-102
program and is also included in the annual audit by external auditors.
Quality of Data: The GSM System is a system designed solely to support the GSM export
credit guarantee programs. The GSM System is updated every night and all changes are
tested before they are incorporated into the system. Data is reviewed on a daily basis.


Challenges for the Future
FY 2014 presents numerous challenges for the CCC-funded Export Credit Guarantee
Program. The pending Farm Bill and continued negotiation with Brazil to reach a
solution to a long-standing World Trade Organization dispute are likely to require some
level of program changes. Both remain unclear at this time. Continued uncertainties in
the global economic environment could create demand shifts based on commercial
financing availability as the size of this program typically runs countercyclical to global
financial stability.




                                            51
Part III: Financial Section




              52
                     COMMODITY CREDIT CORPORATION
                                       Financial Section


       Consolidated Financial Statements
                               Commodity Credit Corporation
                         CONSOLIDATED BALANCE SHEET
                             As of September 30, 2013 and 2012
                                        (In Millions)

                                                                   2013            2012
Assets:
 Intragovernmental:
   Fund Balance with Treasury (Note 2)                      $         2,686    $      2,984
   Accounts Receivable, Net (Note 4)                                     35             151
 Total Intragovernmental Assets                             $         2,721    $      3,135
 Accounts Receivable, Net (Note 4)                                    1,502           2,445
 Commodity Loans, Net (Note 5)                                          337             400
 Direct Loans and Loan Guarantees, Net (Note 6)                       3,449           3,840
 Commodity Inventories and Related Property, Net (Note 7)                69              14
 General Property and Equipment, Net (Note 8)                            20              28
 Other (Note 9)                                                         119             111
Total Assets                                                $         8,217    $      9,973
 Stewardship Land (Note 1)
Liabilities (Note 10):
 Intragovernmental:
   Debt to the Treasury (Note 11)                           $         5,609    $      2,682
   Other:
     Deposit and Trust Liabilities (Note 12)                          1,306           1,532
     Resources Payable to Treasury (Note 13)                          1,427           1,850
     Other (Note 13)                                                     95             159
   Subtotal                                                 $         2,828    $      3,541
 Total Intragovernmental Liabilities                        $         8,437    $      6,223
 Accounts Payable                                                       616             464
 Loan Guarantee Liability (Note 6)                                      126             174
 Environmental and Disposal Liabilities (Note 14)                         8               8
 Other Liabilities:
   Accrued Liabilities (Note 15)                                      6,956           8,246
   Deposit and Trust Liabilities (Note 12)                                6               7
   Other (Note 13)                                                       34              84
 Subtotal                                                   $         6,996    $      8,337
Total Liabilities                                           $        16,183    $     15,206
Commitments and Contingencies (Note 16)
Net Position:
 Capital Stock                                              $           100    $        100
 Unexpended Appropriations                                              372             900
 Cumulative Results of Operations                                    (8,438)         (6,233)
Total Net Position                                          $        (7,966)   $     (5,233)
Total Liabilities and Net Position                          $         8,217    $      9,973

The accompanying notes are an integral part of these statements.




                                              53
                          COMMODITY CREDIT CORPORATION
                                             Financial Section

                                      Commodity Credit Corporation
                         CONSOLIDATED STATEMENTS OF NET COST
                       For the Fiscal Years Ended September 30, 2013 and 2012
                                              (In Millions)

                                                                         2013             2012
Strategic Goals (Note 17):

Provide a Financial Safety Net for Farmers and Ranchers
    Gross Cost                                                       $      6,167     $      5,822
    Less: Earned Revenue                                                       36               86
    Net Goal Cost                                                    $      6,131     $      5,736

Increase Stewardship of Natural Resources While Enhancing the
Environment
     Gross Cost                                                      $      2,191     $      2,154
     Less: Earned Revenue                                                      35               39
     Net Goal Cost                                                   $      2,156     $      2,115

Ensure Commodities are Procured and Distributed Effectively and
Efficiently
     Gross Cost                                                      $          100   $          90
     Less: Earned Revenue                                                        21              25
     Net Goal Cost                                                   $           79   $          65

Increase U.S. Food and Agricultural Exports
     Gross Cost                                                      $      2,545     $      2,511
     Less: Earned Revenue                                                     286              702
     Net Goal Cost                                                   $      2,259     $      1,809

Total Gross Cost                                                     $     11,003     $     10,577
Less: Total Earned Revenue                                                    378              852
Net Cost of Operations                                               $     10,625     $      9,725

The accompanying notes are an integral part of these statements.




                                                     54
                 COMMODITY CREDIT CORPORATION
                                 Financial Section

                        Commodity Credit Corporation
CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
         For the Fiscal Years Ended September 30, 2013 and 2012
                                (In Millions)

                                                     2013              2012

Capital Stock                                    $          100    $          100

Cumulative Results of Operations:
 Beginning Balance                               $      (6,233)    $     (4,982)

Budgetary Financing Sources:
 Appropriations Used                                    11,138           11,431
 Non-exchange Revenue                                        6               (8)
 Transfers in/out without Reimbursement, Net            (3,833)          (4,042)

Other Financing Sources (Non-Exchange):
 Transfers in/out without Reimbursement, Net               -                (74)
 Imputed Financing                                       1,273            1,252
 Other                                                    (164)             (85)
Total Financing Sources                          $       8,420     $      8,474
Net Cost of Operations                                 (10,625)          (9,725)
Net Change                                       $      (2,205)    $     (1,251)
Cumulative Results of Operations                 $      (8,438)    $     (6,233)

Unexpended Appropriations:
 Beginning Balance                               $          900    $      1,167

Budgetary Financing Sources:
 Appropriations Received                                10,686           11,116
 Other Adjustments                                         (76)              48
 Appropriations Used                                   (11,138)         (11,431)
Total Budgetary Financing Sources                $        (528)    $       (267)
Total Unexpended Appropriations                  $         372     $        900

Net Position                                     $      (7,966)    $     (5,233)

The accompanying notes are an integral part of these statements.




                                        55
                                 COMMODITY CREDIT CORPORATION
                                                        Financial Section

                                                 Commodity Credit Corporation
                                 COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                  For the Fiscal Years Ended September 30, 2013 and 2012
                                                         (In Millions)

                                                                                      2013                            2012
                                                                                               Non-                            Non-
                                                                                             Budgetary                       Budgetary
                                                                                               Credit                          Credit
                                                                                              Reform                          Reform
                                                                                             Financing                       Financing
                                                                          Budgetary          Accounts     Budgetary          Accounts
Budgetary Resources:
 Unobligated balance brought forward, October 1                           $    1,213     $         341    $    1,870     $         657
 Recoveries of prior year unpaid obligations                                     372                41         1,199                29
 Other changes in unobligated balance                                           (193)             (107)          (50)             (437)
 Unobligated balance from prior year budget authority, net                     1,392               275         3,019               249
 Appropriations (discretionary and mandatory)                                  2,449                 -         2,503                 -
 Borrowing Authority (discretionary and mandatory)                            16,117               270        11,267               219
 Spending authority from offsetting collections (discretionary and
 mandatory)                                                                    2,590               291         5,715               282
 Total Budgetary Resources                                                $   22,548     $         836    $   22,504     $         750

Status of Budgetary Resources:
 Obligations Incurred (Note 18)                                           $   21,481     $         460    $   21,291     $         409
 Unobligated balance, end of year:
     Apportioned                                                                 215               168           199               217
     Exempt from apportionment                                                   304                 8           355                 5
     Unapportioned                                                               548               200           659               119
  Total Unobligated balance, end of year                                       1,067               376         1,213               341
 Total Budgetary Resources                                                $   22,548     $         836    $   22,504     $         750

Change in Obligated Balance:
 Unpaid obligations:
   Unpaid obligations, brought forward, Oct 1                    $             11,358    $         173    $     9,924    $         210
   Obligations incurred                                                        21,481              460         21,291              409
   Outlays (gross)                                                            (20,869)            (384)       (18,658)            (417)
   Recoveries of prior year unpaid obligations                                   (372)             (41)        (1,199)             (29)
   Unpaid obligations, end of year                                             11,598              208         11,358              173
 Uncollected payments:
   Uncollected payments, Federal sources, brought forward, Oct 1                (134)             (157)          (53)             (157)
   Change in uncollected payments, Federal sources                                86                 -           (81)                -
   Uncollected payments, Federal sources, end of year                            (48)             (157)         (134)             (157)
 Memorandum (non-add) entries:
    Obligated balance, start of year                             $            11,224     $          16    $    9,871     $          53
    Obligated balance, end of year                               $            11,550     $          51    $   11,224     $          16

Budget Authority and Outlays, Net:
 Budget authority, gross (discretionary and mandatory)                    $    21,156    $         561    $   19,485     $         501
 Actual offsetting collections (discretionary and mandatory)                  (10,133)            (527)       (9,437)             (561)
 Change in uncollected customer payments from Federal sources
 (discretionary and mandatory)                                                    86                 -           (81)                -
 Budget authority, net (discretionary and mandatory)                      $   11,109     $          34    $    9,967     $         (60)

 Outlays, gross (discretionary and mandatory)                             $    20,869    $         384    $   18,658     $         417
 Actual offsetting collections (discretionary and mandatory)                  (10,133)            (527)       (9,437)             (561)
 Outlays, net (discretionary and mandatory)                                    10,736             (143)        9,221              (144)
 Distributed offsetting receipts                                                    -             (102)            -               (74)
 Agency Outlays, net (discretionary and mandatory)                        $    10,736    $        (245)   $    9,221     $        (218)

The accompanying notes are an integral part of these statements (Note 18).


                                                                     56
                      COMMODITY CREDIT CORPORATION
                                     Financial Section


            Notes to the Financial Statements
Note 1 - Significant Accounting Policies
Reporting Entity
CCC is a Federal corporation operating within and through USDA. It was established to
stabilize, support, and protect farm income and prices; assist in the maintenance of
balanced and adequate supplies of agricultural commodities; and facilitate the orderly
distribution of those commodities.

CCC’s statutory authority for its operations is found in the Commodity Credit
Corporation Charter Act, 15 U.S.C. 714, and et seq. The Corporation is managed by a
Board of Directors subject to the general supervision and direction of the Secretary of
Agriculture who is an ex-officio director and chairperson of the Board. The members of
the Board and the Corporation's officers are officials of USDA.

CCC operations are financed through appropriated funds as well as an authority to
borrow from the U.S. Treasury (Treasury). The Treasury also holds capital stock in the
amount of $100 million with no obligation to repay, on which the Corporation pays
interest. CCC receives direct appropriations for several of its foreign assistance
programs and special activities, such as disaster aid. Permanent indefinite borrowing
authority exists for programs subject to the Federal Credit Reform Act of 1990 (FCRA),
as amended (Refer to Note 18 – Disclosures Related to the Statement of Budgetary
Resources for additional information). Receipts flowing through CCC's related revolving
fund include proceeds from the sale of CCC commodities, loan repayments, interest
income, and various program fees.

CCC has no employees or facilities. Its programs are administered through various
agencies including FSA, AMS, NRCS, FAS, and USAID. The accompanying financial
statements include an allocation, as appropriate, of salaries and expenses (e.g., facility
costs) incurred by FSA. In other instances, CCC reimburses the other agencies for their
administrative costs.

Basis of Presentation
The Corporation’s financial statements report the financial position and results of
operations of CCC pursuant to the requirements of 31 U.S.C. 3515 (b), Financial
Statements of Agencies. These statements have been prepared from the accounting
records of CCC as of September 30, 2013 and September 30, 2012, in accordance with
generally accepted accounting principles for Federal entities and policies prescribed in
OMB Circular A-136, Financial Reporting Requirements.


                                            57
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 1 - Significant Accounting Policies, Continued

OMB financial reporting guidelines require the presentation of comparative financial
statements for all principal financial statements. The statements are in addition to the
external financial reports used to monitor and control budgetary resources, which are
also prepared from CCC’s general ledger. These financial statements have been
prepared for the Corporation which is a component of the U.S. Government, a
sovereign entity.

Basis of Accounting
The accounting structure of Federal agencies is designed to reflect both accrual and
budgetary accounting transactions.        Under the accrual method, revenues are
recognized when earned, and expenses are recognized when a liability is incurred
without regard to receipt or payment of cash. The budgetary accounting principles, on
the other hand, are designed to recognize the obligation of funds according to legal
requirements, which in many cases is prior to the occurrence of an accrual-based
transaction. The recognition of budgetary accounting transactions is essential for
compliance with legal constraints and controls over the use of Federal funds. The
financial statements include all Treasury funds of CCC, which encompass its domestic
and foreign activities. CCC consolidates all costs related to its child activities for the
allocated funds transfers and shared appropriations. (Refer to the Allocation Transfers
and Shared Appropriations section of this note for parent/child information). In
consolidation, intra-agency activities and balances have been eliminated except for the
Statement of Budgetary Resources, which is presented on a combined basis as
required by OMB Circular A-136 guidance.

Use of Estimates
The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amounts of assets, liabilities, the disclosure of
contingent assets and liabilities at the date of the financial statements, and the reported
amounts of revenues and expenses during the reporting period. Actual results will
invariably differ from those estimates.

Allocation Transfers and Shared Appropriations
CCC is a party to allocation transfers with another Federal agency as a transferring
(parent) entity. Allocation transfers are legal delegations by one department of its
authority to another department (child entity) to obligate budget authority and outlay
funds. A separate fund account (allocation account) is created in Treasury as a subset
of the parent fund account for tracking and reporting purposes.




                                             58
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 1 - Significant Accounting Policies, Continued

All allocation transfers of balances are credited to this account, and subsequent
obligations and outlays incurred by the child entity are charged to this allocation account
as they execute the delegated activity on behalf of the parent entity.

CCC allocates funds, as the parent, to USAID to fund P.L. 480 Title II transportation and
other administrative costs in connection with foreign donations. CCC reports USAID’s
budgetary and proprietary transactions for which it is the parent.

Direct Loans and Loan Guarantees – Credit Reform
The Federal Credit Reform Act of 1990 (FCRA) applies to direct loans and loan
guarantees made on or after October 1, 1991 (Post-1991).

Direct loans are a disbursement of funds by the Government to non-Federal borrowers
under contracts that require the repayment of such funds within a certain time with or
without interest. It includes the purchase of, or participation in, a loan made by another
lender and financing arrangements that defer payment for more than 90 days.

The cost of direct loans is accounted for on a net present value basis at the time when
the direct loan is disbursed. It includes the cash flows of loan disbursements;
repayments of principal; payments of interest; recoveries or proceeds of asset sales;
and other payments by or to the Government over the life of the loan. The present
value computation also contains effects for estimated defaults, prepayments, fees,
penalties, and any expected actions, such as the exercise by the borrower of an option
included in the loan contract. Under the present-value method, the outstanding
principal of the direct loans less the allowance equal to the difference between the
outstanding principal and the present value of the expected net cash flows.

Loan guarantees represent insurance that the payment of all or part of the principal or
interest on any debt obligation of a non-Federal borrower to a non-Federal lender will be
received by the non-Federal lender. A defaulted loan guarantee occurs if the borrower
fails to make a payment pursuant to the terms of the obligation.

CCC’s Export Credit Guarantee Program provides guarantees to buyers in countries
where credit is necessary to maintain or increase U.S. sales of agricultural products.
CCC underwrites credit extended by the private banking sector under the Export Credit
Guarantee Program (GSM-102) and Facilities Guarantee Program (FGP). CCC records
a liability and an allowance expense to the extent that CCC will be unable to recover
claim payments under the Credit Reform Export Credit Guarantee programs. The
allowance is based on management’s estimate.


                                             59
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 1 - Significant Accounting Policies, Continued

The cost of loan guarantees is accounted for on a net present value basis at the time
the guaranteed loan is disbursed. The cost includes the estimated cash flows of
payments by CCC to cover defaults and delinquencies; interest subsidies; payments to
CCC including origination and other fees, penalties, and recoveries, including the
effects of any expected actions by CCC and the exercise by the guaranteed lender or
the borrower of an option included in the loan guarantee contract.

In estimating net present values, the discount rate is the average interest rate on
marketable Treasury securities of similar maturity cash flows of the direct loan or loan
guarantee for which the estimate is being made. When funds are obligated for a direct
loan or loan guarantee, the estimated cost is based on the current assumptions
adjusted to incorporate the terms of the loan contract.

Rescheduling agreements frequently allow CCC to add uncollected interest to the
principal balance of foreign credit and other foreign receivables (capitalized interest). In
such circumstances, CCC records an allowance to reduce the receivable, including the
capitalized interest, to the present value of future cash flows. Interest income is
recognized only when, in management's judgment, debtors have demonstrated the
ability to repay the debt in the normal course of business.

CCC has several credit programs subject to Credit Reform requirements.               Credit
program receivables consist of:
      Direct loans extended under Public Law 83-480 (P.L. 480) programs;
      Receivables in the Debt Reduction Fund (this fund is specifically setup to
       restructure loans);
      Receivables for the General Sales Manager program in the form of rescheduled
       agreements;
      Loans made to producers to build or upgrade farm, sugar storage and handling
       facilities;
      Loans made to apple producers who incurred losses due to low market prices;
       and
      Loans made to the Texas Boll Weevil Eradication Foundation.

Refer to Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers for
additional information.




                                             60
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 1 - Significant Accounting Policies, Continued

Fund Balance with Treasury
CCC disbursements are made by checks or electronic funds transfers that are deducted
from CCC’s account at Treasury.

Treasury requires that the Fund Balance with Treasury amounts reported via Federal
Agencies' Centralized Trial-Balance System I (FACTS I) be in agreement with
Treasury’s records. To comply with these requirements, cash timing differences due to
deposits in-transit or outstanding checks are reported as “in-transit”. The cash balance
includes such timing differences as a result of varying processing times and cut-off
dates between CCC, Treasury, and other USDA entities. Refer to Note 2 – Fund
Balance with Treasury for additional information.

Cash
CCC does not maintain cash in commercial bank accounts.

Accounts Receivable
Accounts receivable arise from claims to cash or other assets against other entities,
either based on legal provisions, such as program overpayments, or for goods or
services provided.

Accounts receivable are adjusted by a valuation allowance based on historical
collection, write-off information, and other analysis which reduces the receivables to
their estimated net realizable value. Refer to Note 4 – Accounts Receivable, Net for
additional information.

Commodity Loans
CCC makes both recourse and nonrecourse loans to producers of designated
agricultural commodities. In the case of nonrecourse loans, producers have the option
to: (a) repay the principal plus interest; (b) repay the loan (for certain designated
commodities) at the market rate if the market rate is less than the loan rate; or (c) forfeit
the commodity in satisfaction of the loan at maturity. Commodity loans are statutorily
exempt from the accounting and reporting requirements of the FCRA.

Interest is accrued on the unpaid principal balance of commodity loans and is included
in the reported net commodity loans receivable balances.




                                             61
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 1 - Significant Accounting Policies, Continued

Commodity loans are reported net of an allowance for doubtful accounts which reduces
the loans to their estimated net realizable value. The allowance is based on the
estimated loss on ultimate disposition when it is more likely than not that the loans will
not be fully collected. When CCC disposes of forfeited commodities, depending on the
type of disposition, any loss on the disposition is realized as either a cost of sales or a
donation. Refer to Note 5 – Commodity Loans, Net for additional information.

Tobacco Transition Payment Program (TTPP)
The American Jobs Creation Act of 2004, which included The Fair and Equitable
Tobacco Reform Act (the Law), effectively ended the tobacco loan program for CCC,
which provided recourse loans to tobacco producers or quota holders. The Law
provided that CCC would collect funds from the tobacco manufacturers and importers
and make payments over a 10 year period to tobacco producers or quota holders. CCC
levies assessments to the manufacturers and importers quarterly. All collections from
the tobacco industry are deposited into the Tobacco Trust Fund managed by CCC.

The Law allows CCC’s revolving fund to make payments to the quota holders and
producers, and provides for reimbursement from the Tobacco Trust Fund. The
assessments collected from the tobacco industry are subsequently transferred to CCC’s
revolving fund, reimbursing that fund for the payments made to quota holders and
producers based on approved contracts.

In FY 2005, CCC recognized a public receivable for the present value of the expected
future collections from the manufacturers and importers over the 10-year period. In
addition, CCC recognized an accrued liability for the present value of the remaining pay-
out amount to the quota holders and producers. The present value recorded by CCC is
adjusted annually to reflect the present value of the future collections and payments.

At the completion of the TTPP, the remaining amount expended by CCC revolving fund
in excess of collections from the trust fund will be included in the computation of Net
Realized Loss for reimbursement by apportionment from Treasury.




                                             62
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 1 - Significant Accounting Policies, Continued

Commodity Inventories
Commodity inventories, referred to as goods held under price support and stabilization
programs in the SFFAS No. 3, Accounting for Inventory and Related Property, issued by
the Federal Accounting Standards Advisory Board (FASAB), represent commodities
acquired by the Corporation for donation or price support purposes. They are
eventually sold or otherwise disposed of to help satisfy economic goals. Acquisition is
generally made through commodity loan forfeitures or by purchase of commodities on
the open market.

In accordance with SFFAS No. 3, the cost of commodity inventories sold to other
Federal entities is classified as an expense with the public since the commodities being
sold are originally purchased or otherwise acquired from a public source.

Commodity inventories are valued using the weighted average method and valued at
the lower of cost or the net realizable value in accordance with SFFAS No. 3. Ending
inventory balances are examined at period end to determine each commodity’s market
value. A valuation allowance is recorded if the book value of a commodity exceeds its
market value.

For financial statement purposes, the Barter Delivery Obligations (BDOs) are valued at
the net sales proceeds and are presented as part of CCC’s Commodity Inventories and
Related Property. CCC recognizes a gain or loss on each exchange transaction
determined by the difference between CCC’s book value of the commodity and the BDO
value received in the exchange (Refer to Note 7 – Commodity Inventories and Related
Property, Net for additional information).

General Property and Equipment
General property and equipment purchases are recorded at the acquisition cost plus
expenditures related to placing the asset into service such as freight, installation, and
testing. Purchases of property valued at $25,000 or more and a useful life of 2 years or
greater are capitalized. Property and equipment is depreciated on a straight-line basis.
Automated Data Processing (ADP) computer equipment has a service life of 5 years.
There is no salvage value associated with general property and equipment.

In addition, internal use software valued at $100,000 or more and a useful life of 2 years
or greater is capitalized. Internal use software development costs are accumulated and
capitalized upon completion. In accordance with SFFAS No. 10, Accounting for Internal
Use Software, capitalized software development costs include contractor developed
software, purchased software, and internally developed software.

                                            63
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 1 - Significant Accounting Policies, Continued

Capitalized internal use software costs are amortized over a period of 5 years beginning
with the first year the software is fully operational. Also included are costs incurred by
FSA which are transferred to CCC without reimbursement and are reflected as
software-in-development on CCC’s financial statements until such time as the software
is completed and put into operation. Once the software is put into operation,
amortization begins (Refer to Note 8 – General Property and Equipment, Net for
additional information).

Non-Entity Assets
Non-entity assets are assets held by CCC that are not available for use in its
operations. In FY 2013, CCC did not have any non-entity assets.

Liabilities
Depending on the type of transaction, CCC recognizes a liability in one of two ways. If
an exchange transaction occurs (i.e., receipt of goods or services in return for a promise
to provide money or other resources in the future), a liability is recognized in the period
in which the exchange occurred. If a nonexchange transaction occurs (i.e., government
programs where there is a one-way flow of resources or promises), a liability is
recognized for any unpaid amounts due as of the reporting date. Liabilities not covered
by budgetary resources, disclosed in Note 10 – Liabilities Not Covered by Budgetary
Resources, result from the accrual of unpaid amounts due to various CCC programs.
Budgetary resources for the programs will not be made available until the subsequent
fiscal year when Congressional action or OMB apportionment is completed.

Custodial Collections
As a normal part of its business practices, CCC collects FSA farm loans and forwards
them to FSA. In addition, penalties, fines, fees, and other funds are collected and
forwarded to Treasury. These are not part of CCC budget authority.

Imputed Costs
Imputed costs represent costs incurred by other USDA agencies for the benefit of CCC.
The majority of CCC’s programs and related expenses are delivered through the
personnel and facilities of FSA. The imputed costs consist of the costs of hired labor,
opportunity costs of unpaid labor, capital recovery of machinery and equipment,
opportunity costs of land, general overhead, payroll taxes, and insurance.




                                             64
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 1 - Significant Accounting Policies, Continued

Stewardship Land
Although the funding source of easements purchased for the Wetlands Reserve
Program (WRP) has changed over the life of the program, the authority for
administering and managing the program has resided with NRCS since the 1994 USDA
Reorganization Act. NRCS holds the accountability for the management, monitoring,
and enforcement for all easements purchased under the WRP. As such, NRCS
remains responsible to disclose required information for all WRP easements as
stewardship land.

Tax Status
CCC, as a Federal entity, is not subject to Federal, State, or local income taxes, and
accordingly, no provision for income tax is necessary.

Capital Transfers
In FY 2013, the U.S. Treasury issued guidance regarding transfer of funds due to the
Treasury, referred to as a “capital transfer,” from one “liquidating” account (Pre-Credit
Reform) to another for management purposes. Agencies are required to transfer end-
of-year unobligated balances in these accounts to the general fund as soon as
practicable after the close of the fiscal year. Treasury’s guidance directed a transfer
from Liability for Capital Transfer account to Liability for Non-Entity Assets Not Reported
on the Statement of Custodial Activity. The net effect on CCC’s financial statements is
zero. Refer to Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers for
additional information on credit reform accounting.




                                             65
                         COMMODITY CREDIT CORPORATION
                                          Financial Section

Note 2 – Fund Balance with Treasury
Fund Balance with Treasury, by fund type, as of September 30, 2013 and 2012 were as
follows:
                     Table 13: Fund Balance with Treasury by Fund Type
                                                                          (In Millions)

                                                                   2013                   2012
Fund Balance with Treasury, by type of fund:
 Trust Funds                                                   $       187         $           49
 Revolving Funds                                                     1,407                  1,259
 General Funds                                                       1,092                  1,676
Total Fund Balance with Treasury                               $     2,686         $        2,984


Status of Fund Balance with Treasury:
 Unobligated Balance:
   Available                                                   $       695         $          776
   Unavailable                                                         748                    778
 Obligated Balance not yet Disbursed                                11,600                 11,239
 Subtotal                                                      $    13,043         $       12,793
 Less: Borrowing Authority not yet Converted to Fund Balance        (10,357)                (9,809)
Total Fund Balance with Treasury                               $      2,686        $         2,984


The Unavailable balance represents unobligated resources not yet apportioned by OMB
and unobligated appropriations from prior years that are no longer available for new
obligations. Borrowing Authority not yet Converted to Fund Balance represents
unobligated and obligated amounts recorded as of September 30, 2013 and 2012,
which will be funded by future borrowings.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11,
Preparation, Submission, and Execution of the Budget. Borrowing authority permits the
Corporation to incur obligations and authorizes it to borrow funds to liquidate the
obligations (Refer to Note 1 - Significant Accounting Policies, under Reporting Entity,
and Note 18 – Disclosures Related to the Statement of Budgetary Resources for
additional information on permanent indefinite borrowing authority).




                                                 66
                       COMMODITY CREDIT CORPORATION
                                        Financial Section

Note 3 – Cash and Other Monetary Assets
As of September 30, 2013, CCC does not have balances classified as Cash and Other
Monetary Assets.

Note 4 – Accounts Receivable, Net
Accounts Receivable as of September 30, 2013 and 2012 were as follows:
                             Table 14: Accounts Receivable

                                                                           (In Millions)

                                                                2013                       2012
Intragovernmental:
  Due from the Department of Treasury                       $          -             $              4
  Due from the Department of Transportation                                35                     112
  Due from Other Federal Agencies                                      -                           35
Total Intragovernmental Accounts Receivable, Net            $              35        $            151

Public:
 Notes Receivable                                           $          7             $           20
 Interest Receivable                                                   7                         16
 TTPP Receivable                                                   1,367                      2,286
 Other                                                               127                        137
Subtotal                                                    $      1,508             $        2,459
Less: Allowances for Doubtful Accounts                                     (6)                    (14)
Total Public Accounts Receivable, Net                       $      1,502             $        2,445


CCC records a receivable due from the Department of Treasury. The receivable is
related to the collection of credit subsidy for the Debt Reduction Fund.

The Cargo Preference provisions of the Food Security Act of 1985 mandated a gradual
increase in the share of particular exports, mostly food aid, which must be carried on
U.S. flagged vessels. The Food Security Act and Section 901d (b) of the Merchant
Marine Act, 1938 (the Act), provide for the reimbursement of certain transportation costs
the Corporation incurs.

Other Public Receivables consist of amounts due as a result of program overpayments
or dishonored checks. Examples of CCC programs include Crop Disaster Assistance
and Conservation Reserve Program.



                                               67
                         COMMODITY CREDIT CORPORATION
                                          Financial Section

Note 4 – Accounts Receivable, Net, Continued

As of September 30, 2013, Public Accounts Receivable for the Tobacco Transition
Payment Program (TTPP) was $1,367 million and included $398 million in Short-Term
Receivable, $11 million in Notes Receivable, and $8 million in Interest Receivable. As
of September 30, 2012, Public Accounts Receivable for TTPP was $2,286 million and
included $388 million in Short-Term Receivable, $14 million in Notes Receivable, and
$8 million in Interest Receivable. Refer to Note 1 - Significant Accounting Policies
under TTPP, for general information on the program.


Note 5 – Commodity Loans, Net
Commodity Loans Receivable, by commodity, as of September 30, 2013 and 2012 were
as follows:
                  Table 15: Commodity Loans Receivable by Commodity
                                                                         (In Millions)

                                                                  2013                   2012
      Cotton                                                  $          13       $             93
      Dry Whole Peas                                                      1                      2
      Feed Grains:
       Barley                                                              4                      3
       Corn                                                               33                     57
      Honey                                                                1                      2
      Oilseeds                                                             1                      1
      Peanuts                                                             60                     25
      Rice                                                                45                    160
      Soybeans                                                             5                     10
      Sugar                                                              137                      -
      Wheat                                                               36                     43
      Total Commodity Loans                                   $          336      $             396

      Accrued Interest Receivable                             $           2       $              3
      Penalties, Fines, and Administrative Fees               $           (1)     $              1
      Total Commodity Loans, Net                              $          337      $             400




                                                  68
                      COMMODITY CREDIT CORPORATION
                                    Financial Section

Note 5 – Commodity Loans, Net, Continued

As of September 30, 2013, net commodity loans decreased by $63 million from the
previous year. Significant loan balance changes occurred in sugar, rice, and cotton.

As of September 30, 2013, sugar loans were $137 million higher than in FY 2012.
Sugar is required by law to be repaid by September 30th. As a result, during most years
there is a zero commodity loans receivable balance. This year a number of producers
forfeited sugar due to low market prices. Loans were forfeited by the producer on
September 30, 2013, and were taken into CCC inventory on October 1, 2013.

As of September 30, 2013, rice loans were $115 million less than in FY 2012. The 2013
harvest is significantly behind average in the Delta states because of a wet spring that
delayed rice plantings in Arkansas, Mississippi, and Missouri unlike the rapid harvest
pace of the 2012 crop that accelerated loan placements.

As of September 30, 2013, cotton loans were $80 million less than in FY 2012. Upland
cotton loans decreased from 2012 to 2013. Loans traditionally start in late June and
ramp up in volume to September 30th. This year, no loans were made in either June or
July and were very low in August as well.




                                           69
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers

Direct credit and loan obligations and credit guarantee commitments made after FY
1991 and the resulting direct credits and loans or credit guarantees are governed by the
Federal Credit Reform Act of 1990 (FCRA), as amended. The FCRA requires agencies
to estimate for the President’s Budget the cost of direct credits and loans and credit
guarantees at the present value of future cash flows. Additionally, the present value of
the subsidy costs (i.e., interest rate differentials, interest subsidies, delinquencies and
defaults, fee offsets and other cash flows) associated with direct credits and loans and
credit guarantees are recognized as a cost in the year the direct credit and loan or credit
guarantee is disbursed. The net present value of loans or defaulted guaranteed loans
receivable at any point in time is the amount of the gross loan or defaulted guaranteed
loans receivable less the present value of the subsidy at that time.

The net present value of Direct Loan and Loan Guarantees, Net as shown in the
Balance Sheet, is not necessarily representative of the proceeds that might be expected
if these loans were sold on the open market.

The credit program account is the budget account into which an appropriation to cover
the cost of a direct loan or loan guarantee program is made and from which such cost is
disbursed to the financing account.

The financing account is the non-budget account or accounts associated with each
credit program account that holds balances, receives the cost payment from the credit
program account, and also includes all other cash flows to and from CCC resulting from
direct loan obligations or loan guarantee commitments made on or after October 1,
1991.

The liquidating account is the budget account that includes all cash flows to and from
CCC resulting from direct loan obligations or loan guarantee commitments made prior to
October 1, 1991. These accounts are shown in the Federal budget on a cash basis.

Collections resulting from direct loans obligated or loan guarantees committed prior to
October 1, 1991, are credited to the liquidating accounts. The amounts credited are
available to the same extent that they were available to liquidate obligations arising from
such direct loans obligated or loan guarantees committed prior to October 1, 1991,
including repayment of any obligations held by the Department of Treasury. The
unobligated cash balances of such accounts that are in excess of current needs must
be transferred at least annually to the general fund of the Treasury. Refer to Note 13 –
Other Liabilities for additional information on Resources Payable to Treasury.


                                             70
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
These receivables (including related interest), for Post-Credit Reform, are recognized as
assets at the present value of their estimated net cash inflows. The difference between
the outstanding principal of these receivables and the present value of their net cash
inflows is recognized as an allowance. CCC uses the Credit Subsidy Calculator 2
(CSC2) for computing the subsidy re-estimates for its Credit Reform programs. The
CSC2 is an OMB tool for performing credit calculations, incorporating both financing
account interest and cash flow amounts. CCC also uses the Treasury Credit Reform
Certificate Program guidelines, Statement of Federal Financial Accounting Standards
(SFFAS) No. 2, Accounting for Direct Loans and Loan Guarantees, SFFAS No. 18,
Amendments to Accounting for Direct Loans and Loan Guarantees, and SFFAS No. 19,
Technical Amendments to Accounting for Direct Loans and Loan Guarantees for the
accounting and reporting of its loan subsidy cost re-estimation and amortization.

When direct and guaranteed loan financing funds collect more subsidy than necessary
to fund future net cash outflows, the applicable financing account transfers the excess
subsidy, with interest, to a Treasury General Fund Receipt (GFR) Account. The GFR
accounts are shown in the financial statements as non-entity. The downward
reestimate costs are shown in the “Other” line of the Statement of Changes in Net
Position. Refer to Note 13 – Other Liabilities for additional information on Excess
Subsidy Payable to Treasury.

Credit Program Discussion and Descriptions
Direct Credit Programs – Food Aid
Under the P.L. 480 Title I Program, CCC finances the sales of U.S. agricultural
commodities to countries in need of food assistance on favorable credit terms (at low
rates of interest for up to 30 years with grace periods of up to 7 years). P.L. 480 Title I
provides for government-to-government (and some government-to-private entity) sales
of U.S. agricultural commodities to developing countries on credit terms or for local
currencies. Priority is given to countries with the greatest need for food that are
undertaking economic development to improve food security and agricultural
development, alleviate poverty, and promote broad based, equitable and sustainable
development. All credits under this program are in U.S. dollar denominations. The aid
provided under this program is in the form of agricultural commodities instead of actual
loans; hence the term direct credit rather than direct loans. Although legislative
authority for the P.L. 480 Title I Program still exists, there have been no new loans
extended under the program since FY 2006.


                                             71
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
Direct Credit Programs – Export
Under the GSM program, several cohorts have had defaults that resulted in
rescheduled loans which are now direct loans owed to CCC. The programmatic
purpose does not differ from the original guaranteed loans under GSM.

Direct Credit Programs – Domestic
The Farm Storage Facility Loan (FSFL) Program was implemented to provide low cost
financing for producers to build or upgrade on-farm commodity storage and handling
facilities. The loans have a term of 7, 10, or 12 years with a requirement of annual
repayment installments. Interest on these loans is accrued monthly from the date of
disbursement. The borrower’s rate is established to be equivalent to the rate of interest
charged on the Treasury securities of comparable maturity.

Sugar Storage Facility Loans were authorized by the 2008 Farm Bill specifically for
processors of domestically produced sugarcane and sugar beets for the construction or
upgrading of storage and handling facilities for raw sugars and refined sugars. The loan
term is 15 years, and the maximum principal amount is 85 percent of the net cost of the
storage or handling equipment. No sugar storage loans have been made since the
program was authorized. In FY 2013, one Sugar Storage Facility Loan was approved
for $3.9 million. The loan has not been disbursed as of September 2013.

The Boll Weevil Program was made available to the Texas Boll Weevil Eradication
Foundation in FY 2001, as an interest-free $10 million loan to be repaid over 10 years.
The loans had not been repaid at the end of the 10 year timeframe, and new promissory
notes were signed in May 2011, extending the repayment period to October 2020.

The Apple Loan Program in FY 2001 provided loans to apple producers who suffered
hardships due to low prices following the 1998-1999 growing season when apple prices
fell to their lowest levels in nearly 10 years. Eligible applicants obtained loans up to
$300 per acre of apple trees in production in 1999 or 2000, up to a maximum
indebtedness of $500,000. The original loan term was established as 3 years, but CCC
is still receiving repayments.

Guaranteed Loans, Credit Guarantee Programs – Export
CCC’s Export Credit Guarantee (GSM) programs encourage exports of U.S. agricultural
products to buyers in countries where credit is necessary to maintain or increase U.S.
sales, but where financing may not be available without such credit guarantees.



                                            72
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
The GSM program has two sub categories, GSM-102 and GSM-103. The underlying
difference between these two programs is principally in the length of their terms of
coverage. The Corporation underwrites credit extended by the private banking sector in
the U.S. (or, less commonly, by the exporter) under the GSM-102 program for terms of
up to three years and the GSM-103 program covers credit terms of up to ten years.
CCC does not provide financing, but guarantees payments due from foreign banks and
obligors. Typically, 98 percent of principal and a portion of interest at an adjustable rate
are covered. All guarantees under these programs are in U.S. dollar denominations. In
the event that CCC pays a claim under the guarantee programs, CCC assumes the
debt and treats it as a credit receivable for accounting and collection purposes.

Supplier Credit Guarantee Program (SCGP) is a subset of GSM-102 offering short term
(6-months) credit at a reduced guarantee percentage of 65 percent. Credit was
extended by the exporter to the importer for the purchase of U.S. agricultural products
and had to be secured by a promissory note signed by the importer.

Under Section 3101 of the 2008 Farm Bill, authority for GSM-103 and SCGP was
specifically repealed. Remaining liability under these programs is still subject to annual
reestimate.

The Facility Guarantee Program (FGP) provides payment guarantees to finance
commercial exports of U.S. manufactured goods and services that will be used to
improve agriculture-related facilities. Payment terms may range from 1 to 10 years, with
semi-annual installments on principal and interest. An initial payment representing at
least 15 percent of the value of the sales transaction must be provided by the importer
to the exporter. The rate of coverage is currently 95 percent and will apply to the value
of the transaction, excluding the minimum 15 percent initial payment. Only one facility
guarantee has been made since program inception.

Obligated Loans
P.L. 480 Title I direct credits outstanding that were obligated prior to October 1, 1991
(Pre-1992) and P.L. 480 direct credits and direct loans for FSFL, Boll Weevil, and Apple
loans that were obligated on or after October 1, 1991 (Post-1991) and related interest
receivable outstanding as of September 30, 2013 and 2012 are shown in Table 16.
Pre-1992 defaults on credit guarantees and related interest receivable are also
presented in Table 16.



                                             73
                          COMMODITY CREDIT CORPORATION
                                            Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
                 Table 16: Direct Loans and Defaulted Guaranteed Loans, Net
                                                                     (In Millions)
                                                                                                    Value Of
                                              Loans                             Present             Assets
                                            Receivable,         Interest          Value            Related to
2013                                          Gross            Receivable      Allowance             Loans
 Direct Loans:
Obligated Pre-1992
   P.L. 480 Title 1                     $          2,896   $          847      $     (2,271)   $        1,472
Pre-1992 Total                          $          2,896   $          847      $     (2,271)   $        1,472
Obligated Post-1991
  P.L. 480 Title 1                      $            938   $            43     $      (273)    $          708
  Debt Reduction Fund                                152                 7            (154)                 5
  Farm Storage Facility                              718                12              12                742
  Boll Weevil Program                                  8                 -              (5)                 3
Post-1991 Total                         $          1,816   $            62     $      (420)    $        1,458
Total Direct Loan Program Receivables   $          4,712   $          909      $     (2,691)   $        2,930
Defaulted Guaranteed Loans:
Pre-1992
   Export Credit Guarantee Programs     $           101    $          210      $      (268)    $           43
 Pre-1992 Total                         $           101    $          210      $      (268)    $           43
Post-1991
  Export Credit Guarantee Programs      $           736    $            19     $      (279)    $          476
 Post-1991 Total                        $           736    $            19     $      (279)    $          476
Total Defaulted Guaranteed Loans        $           837    $          229      $      (547)    $          519
Total Direct Loans and Defaulted
Guaranteed Loans, Net                   $          5,549   $         1,138     $     (3,238)   $        3,449

2012
 Direct Loans:
Obligated Pre-1992
   P.L. 480 Title 1                     $          3,168   $          824      $     (2,362)   $        1,630
Pre-1992 Total                          $          3,168   $          824      $     (2,362)   $        1,630
Obligated Post-1991
  P.L. 480 Title 1                      $          1,066   $           47      $      (278)    $          835
  Debt Reduction Fund                                235               15             (244)                 7
  Farm Storage Facility                              714               52              (21)               745
  Boll Weevil Program                                  9                -               (5)                 4
Post-1991 Total                         $          2,024   $          114      $      (548)    $        1,591
Total Direct Loan Program Receivables   $          5,192   $          938      $     (2,910)   $        3,221
Defaulted Guaranteed Loans:
Pre-1992
   Export Credit Guarantee Programs     $           109    $          207      $      (264)    $           52
 Pre-1992 Total                         $           109    $          207      $      (264)    $           52
Post-1991
  Export Credit Guarantee Programs      $           814    $            20     $      (266)    $          568
 Post-1991 Total                        $           814    $            20     $      (266)    $          568
Total Defaulted Guaranteed Loans        $           923    $          227      $      (530)    $          620
Total Direct Loans and Defaulted
Guaranteed Loans, Net                   $          6,115   $         1,165     $     (3,440)   $        3,840




                                                   74
                            COMMODITY CREDIT CORPORATION
                                            Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
Disbursement
For the fiscal years ended September 30, 2013 and 2012, disbursements of Post-1991
direct credits and loans were as follows:

                Table 17: Total Amount of Direct Loans Disbursed (Post-1991)

                                                                          (In Millions)
                                                                  2013                     2012
             Direct Loan Programs
               Farm Storage Facility                        $            173          $           205
             Total Direct Loans Disbursed                   $            173          $           205


Table 18 shows new loans disbursed at face value. Since the loans have not yet
defaulted, they are not accounted as Credit Program Receivables, Net on the Balance
Sheet.

For the fiscal years ended September 30, 2013 and 2012, credit guaranteed
disbursements were as follows:

                               Table 18: Guaranteed Loans Disbursed
                                                                          (In Millions)
                                                       2013                                          2012
                                        Principal,               Principal,           Principal,               Principal,
                                       Face Value               Guaranteed           Face Value               Guaranteed
Loan Guarantee Programs                Disbursed                 Disbursed           Disbursed                 Disbursed
  Export Credit Guarantee Programs   $         3,176          $         3,117      $         4,399          $         4,306
Total Guaranteed Loans Disbursed     $         3,176          $         3,117      $         4,399          $         4,306




                                                       75
                        COMMODITY CREDIT CORPORATION
                                          Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
Guaranteed Loans Outstanding
Outstanding principal and interest guaranteed represents a contingent liability for
amounts owed by foreign banks to exporters or assignee U.S. financial institutions
participating in the program.

As of September 30, 2013 and 2012, Post-1991 credit guarantees outstanding were as
follows:
                          Table 19: Guaranteed Loans Outstanding

         2013                                                    (In Millions)

                                                    Post - 1991               Post - 1991
                                               Outstanding Principal,    Outstanding Principal,
          Loan Guarantee Programs                   Face Value               Guaranteed
            Export Credit Guarantee Program    $              5,345      $              5,238
          Total Guaranteed Loans Outstanding   $              5,345      $              5,238



         2012                                                    (In Millions)

                                                    Post - 1991               Post - 1991
                                               Outstanding Principal,    Outstanding Principal,
          Loan Guarantee Programs                   Face Value               Guaranteed
            Export Credit Guarantee Program    $              6,195      $              6,071
          Total Guaranteed Loans Outstanding   $              6,195      $              6,071


Liability for Loan Guarantees
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the
loan guarantee liability held against those loans. Current year subsidy expense and
reestimates contributed to the change of the loan guarantee liability through the year.
The loan guarantee liability represents CCC’s liability for guarantees in the GSM
program.




                                                 76
                                     COMMODITY CREDIT CORPORATION
                                                                   Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
As of September 30, 2013 and 2012, Post-1991 Liability for Loan Guarantees (Present
Value Method) were as follows:

Table 20: Liability for Loan Guarantees (Present Value Method for Post-1991 Guarantees)
                                                          (In Millions)
                                                  2013                  2012
                                                                               Liabilities for Loan              Liabilities for Loan
                                                                             Guarantees on Post-               Guarantees on Post-
                                                                               1991 Guarantees,                  1991 Guarantees,
         Loan Guarantee Programs                                                 Present Value                     Present Value
           Export Credit Guarantee Program                                   $                   126           $                   174
         Total Liability for Loan Guarantees                                 $                   126           $                   174


Subsidy Expense
Total direct loan subsidy expense is a combination of subsidy expense for new direct
loans disbursed in the current year, modifications to existing loans, and technical and
interest rate reestimates to existing loans. Subsidy reestimates are calculated on
cumulative disbursements for all budget fiscal years and the respective cohorts (direct
loan origination year) that comprise them. There were no additional direct food aid
credit agreements made in either 2012 or 2013.

             Table 21: Subsidy Expense for Direct Loans by Program and Component

2013                                                                                        (In Millions)

                                                      Fees and                                      Interest
                                      Interest         Other             Subtotal      Total         Rate       Technical    Total    Total Subsidy
Direct Loan Programs                Differential    Collections          Subsidy    Modifications Reestimates Reestimates Reestimates   Expense
 P.L 480 Title 1                    $          -    $         -                  - $            4 $        47 $        28 $        75 $         79
 Farm Storage Facility                        (3)             -                 (3)              -           3         (3)          -           (3)
Total Direct Loan Subsidy Expense   $         (3)   $         -      $          (3) $           4 $        50 $        25 $        75 $         76

2012                                                                                        (In Millions)

                                                      Fees and                                      Interest
                                      Interest         Other             Subtotal      Total         Rate        Technical    Total     Total Subsidy
Direct Loan Programs                Differential    Collections          Subsidy    Modifications Reestimates Reestimates Reestimates     Expense
 P.L 480 Title 1                    $          -    $         -      $           - $           21 $          - $        10 $        10 $          31
 Farm Storage Facility                        (4)            (1)                (5)              -           -         (17)        (17)          (22)
Total Direct Loan Subsidy Expense   $         (4)   $        (1)     $          (5) $          21 $          - $        (7) $       (7) $          9




                                                                              77
                          COMMODITY CREDIT CORPORATION
                                                Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
Post-1991 subsidy expenses related to credit guarantees, net of fees and other
collections, and subsidy reestimates for the fiscal years ended September 30, 2013 and
2012 are shown in Table 22 below. Subsidy reestimates are calculated on cumulative
disbursements for all cohorts.

     Table 22: Subsidy Expense for Loan Guarantees by Program and Component

        2013                                                (In Millions)
                                                                                              Total
                                                   Interest Rate Technical     Total        Subsidy
        Loan Guarantee Programs                    Reestimates Reestimates Reestimates      Expense
         Export Credit Guarantee Programs          $         (7) $       (3) $       (10) $        (10)
        Total Loan Guarantees Subsidy Expense      $         (7) $       (3) $       (10) $        (10)


        2012                                                (In Millions)
                                                                                               Total
                                                   Interest Rate Technical    Total          Subsidy
        Loan Guarantee Programs                    Reestimates Reestimates Reestimates       Expense
         Export Credit Guarantee Programs          $         (4) $      35 $        31     $         31
        Total Loan Guarantees Subsidy Expense      $         (4) $      35 $        31     $         31

Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses as disclosed below.
The subsidy rates disclosed in Table 23 and Table 24 pertain only to the FY 2013 and
FY 2012 cohorts. These rates cannot be applied to the direct credits and loans and
guaranteed loans disbursed during the current reporting year to yield the subsidy
expense. The subsidy expense for new loans reported in the current year could result
from disbursements of loans from both current year cohorts and prior-year cohorts. The
subsidy expense reported in the current year also includes reestimates. For the fiscal
years ended 2013 and 2012, there were no new loans for P.L. 480, and thus, no
subsidy rate was provided. The Apple and Boll Weevil Loan Programs are one year
programs, both in cohort 2001.




                                                       78
                            COMMODITY CREDIT CORPORATION
                                              Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
FY 2013 and 2012 subsidy rates (percentage) for direct credits and loans were as
follows:

            Table 23: Subsidy Rates for Direct Loans by Program and Component

 2013
                                                              Fees and
                               Interest                        Other
 Direct Loan Programs        Differential      Defaults      Collections       Other            Total
   Farm Storage Facility             (2.14)          0.02            (0.27)        (0.07)           (2.46)
   Sugar Storage Facility             3.21           0.03              -           (0.13)            3.11

 2012
                                                              Fees and
                               Interest                        Other
 Direct Loan Programs        Differential      Defaults      Collections       Other            Total
   Farm Storage Facility             (1.97)          0.02            (0.27)        (0.08)           (2.30)


FY 2013 and 2012 subsidy rates (percentage) for credit guarantee programs were as
follows:

         Table 24: Subsidy Rates for Loan Guarantees by Program and Component

        2013
                                                                     Fees and
                                                                      Other
        Guaranteed Loan Programs                 Defaults           Collections             Total
         Export Guarantee Programs                    0.05                 (1.16)              (1.11)

        2012
                                                                     Fees and
                                                                      Other
        Guaranteed Loan Programs                 Defaults           Collections             Total
         Export Guarantee Programs                    0.06                 (0.74)              (0.68)




                                                     79
                       COMMODITY CREDIT CORPORATION
                                        Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
Schedule for Reconciliation
Subsidy Allowance in Table 25 includes subsidy for both direct loans and loans
receivable derived from those defaulted guaranteed loans which CCC rescheduled as
direct loans.

Table 25: Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct
                                              Loans
                                                                         (In Millions)
                                                                   2013                2012
 Beginning Balance of the Subsidy Cost Allowance                 $      813        $        800
 Add: Subsidy expense for direct loans disbursed during the year
by component
  Interest Rate Differential Costs                                        (3)                (4)
  Fees and Other Collections                                                -                (1)
 Total Subsidy Expense prior to Adjustments and Reestimates               (3)      $         (5)

 Adjustments:
  Loan Modifications                                            $          4      $         21
  Accruals - Technical Default Reestimates                                50                 5
  Loans written off                                                     (159)             (629)
  Subsidy allowance amortization                                         (58)              (14)
  Other                                                                  (50)              559
  Net Present Value (NPV) Adjustment                                      24                83
 Total Subsidy Cost allowance before reestimates                $        621      $        820

 Add or Subtract Reestimates by Component:
  Interest rate reestimate                                      $         50      $          -
  Technical/Default Reestimate                                            25                (7)
 Total Reestimates                                                        75                (7)
 Ending Balance of the Subsidy Cost Allowance                   $        696      $        813




                                                80
                          COMMODITY CREDIT CORPORATION
                                           Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued

The change in the liability for Post-1991 credit guarantees as of September 30, 2013
and 2012 was as follows:

                Table 26: Schedule for Reconciling Loan Guarantee Liability

                                                                                   (In Millions)
                                                                            2013                   2012
Beginning balance of the loan guarantee liability                       $          174      $             114

Adjustments:
 Fees received                                                                      37      $              41
 Other                                                                             (75)                   (12)
Ending balance of the Loan Guarantee Liability before reestimates       $          136      $             143

Add or Subtract reestimates by component:
 Interest rate reestimate                                               $           (7)     $              (4)
 Technical/default reestimate                                                       (3)                    35
Total of the above reestimate components                                $          (10)     $              31
Ending balance of the loan guarantee liability                          $          126      $             174


Administrative Expenses
Consistent with FCRA, subsidy cash flows exclude direct Federal administrative
expenses. Administrative expenses on direct credit and loan programs are as noted in
Table 27 below.

                               Table 27: Administrative Expenses
                                                             (In Millions)
                                                        2013               2012
             Direct Loan Programs                        $          3       $              2
             Guaranteed Loan Programs                               6                      7
             Total Administrative Expenses               $          9       $              9




                                                    81
                      COMMODITY CREDIT CORPORATION
                                    Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued
Loan Modifications and Rescheduling
A modification is any Government action different from the baseline assumptions that
affects the subsidy cost such as a change in the terms of the loan contract. The cost of
a modification is the difference between the present value of the cash flows before and
after the modification.

The Debt Reduction Fund is used to account for CCC’s modified debt. Debt is
considered to be modified if the original debt has been reduced or the interest rate of
the agreement changed. In contrast, when debt is "rescheduled," only the date of
payment is changed. Rescheduled debt is carried in the original fund until paid. With
one exception, all outstanding CCC modified debt is carried in the Debt Reduction Fund
and is governed by the FCRA. The exception was a prepayment by Peru of GSM-102
rescheduled debt.

Events and Changes Having a Significant and Measurable Effect upon Subsidy Rates,
Subsidy Expense, and Reestimates
Cashflow models were updated during FY 2013 for all three major CCC programs. For
Export Credit Guarantees and Farm Storage, the updates were mainly to econometric
predictors to incorporate the effects of the most recent programmatic performance. For
P.L. 480, econometrics were updated as well, but CCC also changed the model
methodology in regard to debt reductions. CCC now predicts no future recoveries on
agreements modified by debt reduction agreements that were not rescheduled, a more
conservative approach to future cashflow predictions. This had the one-time effect of a
significant upward reestimate in those cohorts that had the most debt affected by this
change.

During FY 2013, as well as in other recent fiscal years, FAS increased fees for the
GSM-102 and Facilities Guarantee programs. These fee increases have served to
lower the subsidy rates for both programs. FAS will continue to evaluate fees and
incorporate changes as deemed necessary.

Other than as stated above, CCC is unaware of any measurable events or pending
legislation at this time that may affect subsidy rates and reestimates in the future.




                                           82
                      COMMODITY CREDIT CORPORATION
                                    Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued

Interest Credit
Interest is accrued monthly on both performing and non-performing direct loans and
loan guarantee receivables as it is earned using simple interest calculations based upon
a 365-day year. A non-performing direct loan or loan guarantee receivable is defined as
a repayment scheduled under a credit agreement with an installment payment in arrears
more than 90 days. For those non-performing receivables, accrued interest is not
recognized as income; rather, it is deferred until the interest is received or the
receivable is returned to performing status.

Based on the FCRA and SFFAS No. 2, all credit reform loans initiated after September
30, 1991 need to be presented on a present value basis. For loans initiated before
October 1, 1991 (Pre-1992), restatement of loan value on a present value basis is
permitted but not required. Since CCC elected to restate the Pre-1992 loan receivables
from nominal value to net present value starting in 2001, the accounting treatment,
including revenue recognition and allowance calculation, has been applied consistently
to Pre-1992 and Post-1991 Direct Loan and Loan Guarantee programs. For Pre-1992
and Post-1991 loan interest receivable, the portion related to non-performing loans is
deferred and presented net of the loan receivable line item in the Balance Sheet.

Reestimate Trend Analysis
Agencies are required to reestimate the subsidy cost throughout the life of each cohort
of direct loans or loan guarantees to account for differences between the original
assumptions of cash flow and actual cash flow or revised assumptions about future
cash flow. These reestimates represent additional costs or savings to the Government
and are recorded in the budget. Reestimates that indicate an increase in the subsidy
cost are financed by permanent indefinite authority. Refer Note 18 – Disclosures
Related to the Statement of Budgetary Resources for additional information.




                                           83
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 6 – Direct Loans and Loan Guarantees: Non-Federal Borrowers,
Continued

P.L. 480 Title I Direct Credit - The P.L. 480 program had a net technical reestimate for
FY 2013 of $28 million; $29 million upward and $1 million downward. Actual recoveries
in FY 2013 were $16 million less than projected at the end of FY 2012, and defaults
were $3 million less than projected, for a net decrease in cash receipts of $13 million in
FY 2013. The remainder of the upward reestimate is due to a change in the treatment
of debt reduction modifications, which resulted in increases in projected defaults and
decreases in projected recoveries. In addition, interest on the reestimate was
significant ($47 million), almost entirely attributable to the older cohorts for which the
debt reduction methodology change had the most impact. Refer to Table 21 for a
summary on the reestimates.

Farm Storage Facility Loans - The FSFL program had a net technical reestimate of $3
million, which is less than 2 percent of overall disbursements and therefore not
significant.

Export Credit Guarantees (GSM) - The GSM-102 program had a net technical
reestimate of $7 million for FY 2013. The upward technical reestimate is $9 million, of
which $6 million is attributable to the 2012 and 2013 cohorts. The upward reestimate is
due to a change in model methodology to more accurately capture the anticipated
defaults on all loan guarantee disbursements. The model now establishes a projected
repayment schedule for registrations that did not have scheduled principal and interest
repayments at the time of reestimate. The downward reestimate is $16 million, of which
$13 million is related to the 2008, 2009 and 2010 cohorts. The downward reestimate is
due to significantly greater recoveries in FY 2013 than anticipated at the end of FY
2012, mainly for Kazakhstan. The SCGP program technical reestimate of $4 million
was offset by downward interest on the reestimate of $3.3 million, resulting in a total
reestimate of less than $500 thousand, which is not significant. Refer to Table 22 for a
summary on the reestimates.




                                            84
                                                                    COMMODITY CREDIT CORPORATION
                                                                                              Financial Section

Note 7 – Commodity Inventories and Related Property, Net
Commodity inventory and related property as of September 30, 2013 (In Thousands) was as follows:
                                                         Table 28: Inventory and Related Property, September 30, 2013
                                                 Beginning Inventory                                                                    Other Dis pos ition,                                  Ending Inventory
                                                   October 1, 2012                Acquis itions             Collateral Acquired        Addition, & Deduction           Donations             Septem ber 30, 2013
                                      Unit of
                                      Meas ure   Quantity        Value       Quantity         Value        Quantity        Value       Quantity       Value       Quantity       Value       Quantity       Value

Dry Edible Beans                      Cwt.               -   $           -        265     $    11,355             -    $           -         -    $           -       (265) $ (11,355)             -    $            -
                      Beans Total                     XXX    $           -        XXX     $    11,355           XXX    $           -       XXX    $           -       XXX $ (11,355)             XXX    $            -
Corn Soya Blend               Pounds                 2,138   $      734       134,934     $    50,697              -   $           -          -   $           -   (112,530) $ (43,457)         24,542   $     7,974
Wheat Soy Blend               Pounds                     -            -         9,092           3,617             -                -         -                -     (9,092)    (3,617)              -             -
          Blended Foods Total                         XXX    $      734          XXX      $    54,314           XXX    $           -       XXX    $           -       XXX $ (47,074)             XXX    $     7,974
Em ergency Food Ration Bars   Pounds                 1,345   $     2,742         6,172    $    10,779              -   $           -         -    $           -      (6,803) $ (12,376)          714    $     1,145
                    CCC Total                         XXX    $     2,742          XXX     $    10,779           XXX    $           -       XXX    $           -        XXX $ (12,376)            XXX    $     1,145
Mis cellaneous                Cwt.                       -   $      456              -    $     6,268             -    $           -         -    $           -          -   $     (6,724)         -    $            -
            CCC/AMS-FNS Total                         XXX    $      456           XXX     $     6,268           XXX    $           -       XXX    $           -        XXX   $     (6,724)       XXX    $            -
Upland Cotton                         Bales              -   $           -          -     $            -          1    $      201            (1) $       (191)           -   $           -         -    $           10
                      Cotton Total                    XXX    $           -        XXX     $            -        XXX    $      201          XXX $         (191)         XXX   $           -       XXX    $           10
Dry Whole Peas                 Cwt.                     -    $           -       2,179    $    58,750             -    $           -         -    $           -      (1,997) $ (54,733)          182    $     4,017
Lentils Dry                    Cwt.                     -                -         801         21,453              -               -         -                -        (652)   (17,808)          149          3,645
          Dry Whole Peas Total                        XXX    $           -        XXX     $    80,203           XXX    $           -       XXX    $           -        XXX $ (72,541)            XXX    $     7,662
Corn                          Bus hels                   -   $           -         626    $     5,199              -   $           -          -   $           -       (626) $  (5,199)              -   $        -
Corn Meal                     Pounds                     -               -      76,162         18,937              -               -          -               -    (76,162)   (18,937)              -            -
Grain Sorghum                 Bus hels                   -               -       9,782         74,018              -               -          -               -     (9,644)   (73,168)           138           850
            Feed Grains Total                         XXX    $           -        XXX     $    98,154           XXX    $           -       XXX    $           -       XXX $ (97,304)             XXX    $      850
Peanuts                               Pounds             -   $           -          -     $            -    41,593     $     7,492     (41,593) $      (7,492)           -   $           -          -   $            -
                    Peanut Total                      XXX    $           -        XXX     $            -      XXX      $     7,492        XXX $        (7,492)         XXX   $           -       XXX    $            -
Potatoes Dehydrated            Pounds                    -   $           -         39     $           60           -   $           -         -    $           -         (39) $        (60)         -    $            -
       Potato Dehydrated Total                        XXX    $           -        XXX     $           60        XXX    $           -       XXX    $           -        XXX $          (60)       XXX    $            -
Milled Head Rice                      Cwt.             78    $     1,914         2,479    $    66,532              -   $           -         -    $           -      (2,468) $ (66,265)           89    $     2,181
                         Rice Total                   XXX    $     1,914          XXX     $    66,532           XXX    $           -       XXX    $           -        XXX $ (66,265)            XXX    $     2,181
Soybean Meal                          Pounds            -    $           -    113,757     $    27,974             -    $           -          -   $           -   (113,757) $ (27,974)              -   $            -
Soybeans                              Bus hels           -               -         73           1,448              -               -          -               -        (73)    (1,448)             -                 -
                   Soybean Total                      XXX    $           -       XXX      $    29,422           XXX    $           -       XXX    $           -       XXX $ (29,422)             XXX    $            -
Raw Cane Sugar                        Pounds             -   $           -           -    $ 30,666         140,750     $    27,390            -   $       -              -   $ (30,666)      140,750    $    27,390
Refined Beet Sugar                    Pounds             -               -          -        89,529         30,000           7,179           -      (69,490)             -     (20,040)       30,000          7,178
                      Sugar Total                     XXX    $           -        XXX     $ 120,195           XXX      $    34,569         XXX    $ (69,490)           XXX   $ (50,706)         XXX     $    34,568
Vegetable Oil                  Pounds               12,220   $     7,851      191,426     $ 122,101                -   $           -         -    $           -   (180,319) $ (114,585)        23,327   $    15,367
  Vegetable Oil Products Total                        XXX    $     7,851         XXX      $ 122,101             XXX    $           -       XXX    $           -       XXX $ (114,585)            XXX    $    15,367
Bulgur                                Pounds             -   $           -      67,649    $  14,675                -   $           -          -   $           -    (61,268) $ (13,637)          6,381   $     1,038
Flour                                 Pounds             -               -      57,597       13,179                -               -          -               -    (57,597)   (13,179)              -             -
Wheat                                 Bus hels           -               -      22,252      211,152                -               -         -                -    (22,252)  (211,152)              -             -
                      Wheat Total                     XXX    $           -        XXX     $ 239,006             XXX    $           -       XXX    $           -       XXX $ (237,968)            XXX    $     1,038
Total Com m odities                                   XXX    $    13,697          XXX     $ 838,389             XXX    $    42,262         XXX    $ (77,173)           XXX   $ (746,380)         XXX    $    70,795
Allowance for Los s es                                                                                                                                                                                  $    (1,909)
Barter Delivery Obligations                                                                                                                                                                                     325

Com m odity Inventories and Related Property, Net                                                                                                                                                       $    69,211

Note: Due to dis tinct units of m eas ure, Quantity totals are not tabulated, and are denoted as xxx.




                                                                                                           85
                                                                    COMMODITY CREDIT CORPORATION
                                                                                              Financial Section

Note 7 – Commodity Inventories and Related Property, Net, Continued
Commodity inventory and related property as of September 30, 2012 (In Thousands) was as follows:
                                                         Table 29: Inventory and Related Property, September 30, 2012
                                                 Beginning Inventory                                                                   Other Dis pos ition,                                     Ending Inventory
                                                   October 1, 2011                Acquis itions            Collateral Acquired        Addition, & Deduction             Donations              Septem ber 30, 2012
                                      Unit of
                                      Meas ure   Quantity        Value       Quantity         Value       Quantity        Value       Quantity       Value         Quantity        Value       Quantity       Value

Dry Edible Beans                      Cwt.             57    $     2,536          243     $    12,937            -    $           -         3    $      157            (303) $ (15,630)              -    $           -
                      Beans Total                     XXX    $     2,536          XXX     $    12,937          XXX    $           -       XXX    $      157            XXX $ (15,630)              XXX    $           -
Corn Soya Blend               Pounds                15,983   $     5,209      168,712     $    54,192             -   $           -          -   $           (1)   (182,557) $ (58,666)           2,138   $      734
Wheat Soy Blend               Pounds                     -             -        7,924           2,765             -               -          -                -      (7,924)    (2,765)               -            -
          Blended Foods Total                         XXX    $     5,209         XXX      $    56,957          XXX    $           -       XXX    $           (1)       XXX $ (61,431)              XXX    $      734
Em ergency Food Ration Bars   Pounds                 2,183   $     4,440         2,752    $     5,620             -   $           -          -   $            -       (3,589) $     (7,318)       1,345   $     2,742
                    CCC Total                         XXX    $     4,440          XXX     $     5,620          XXX    $           -       XXX    $            -         XXX $       (7,318)        XXX    $     2,742
Mis cellaneous                Cwt.                       -   $      129              -    $     7,708             -   $           -          -   $            -            -   $    (7,381)           -   $      456
Poultry Frozen Chicken        Pounds                     -            -              -          1,155            -                -         -                 -           -         (1,155)          -             -
            CCC/AMS-FNS Total                         XXX    $      129           XXX     $     8,863          XXX    $           -       XXX    $            -         XXX    $    (8,536)        XXX    $      456
Nonfat Dry Milk                Pounds                    -   $           -           -    $           -           -   $           -       970    $     1,446           (970) $      (1,446)           -   $           -
           Dairy Program Total                        XXX    $           -        XXX     $           -        XXX    $           -       XXX    $     1,446           XXX $        (1,446)        XXX    $           -
Upland Cotton                         Bales              -   $           -           -    $           -           -   $           -          -   $            -           -    $           -         -    $           -
                      Cotton Total                    XXX    $           -        XXX     $           -        XXX    $           -       XXX    $            -         XXX    $           -       XXX    $           -
Dry Whole Peas                 Cwt.                   250    $     8,486         2,089    $    64,601             -   $           -          -   $       (43)         (2,339) $ (73,044)              -   $           -
Lentils Dry                    Cwt.                      -             -           681         19,930             -               -          -             -            (681)   (19,930)             -                -
          Dry Whole Peas Total                        XXX    $     8,486          XXX     $    84,531          XXX    $           -       XXX    $       (43)           XXX $ (92,974)             XXX    $           -
Corn                          Bus hels                   -   $         -          488     $   3,735               -   $           -          -   $            -        (488) $   (3,735)              -   $           -
Corn Meal                     Pounds                     -             -      102,520        22,860               -               -          -               (1)   (102,520)    (22,859)              -               -
Grain Sorghum                 Bus hels                627          4,725       13,653       105,472               -               -          -                -     (14,280)   (110,197)             -                -
            Feed Grains Total                         XXX    $     4,725         XXX      $ 132,067            XXX    $           -       XXX    $           (1)       XXX $ (136,791)             XXX    $           -
Pork Meats                            Pounds           72    $      155              -    $           -           -   $           -         -    $            -        (742) $        (155)          -    $           -
             Meat Products Total                      XXX    $      155           XXX     $           -        XXX    $           -       XXX    $            -        XXX $          (155)        XXX    $           -
Milled Head Rice                      Cwt.              6    $      148          3,265    $    80,714            -    $           -        11    $      248           (3,204) $ (79,196)            78    $     1,914
                         Rice Total                   XXX    $      148           XXX     $    80,714          XXX    $           -       XXX    $      248             XXX $ (79,196)             XXX    $     1,914
Soybean Meal                          Pounds             -   $           -      93,496    $    17,997             -   $           -       683    $      352         (94,180) $ (18,349)               -   $           -
Soybeans                              Bus hels           -               -          55            895             -               -          -            -             (55)      (895)              -                -
                   Soybean Total                      XXX    $           -        XXX    $     18,892          XXX    $           -       XXX    $      352            XXX $ (19,244)              XXX    $           -
Vegetable Oil                  Pounds               33,102   $    24,429      210,449    $ 149,543               -    $           -       309    $      225        (231,640) $ (166,346)         12,220   $     7,851
  Vegetable Oil Products Total                        XXX    $    24,429         XXX     $ 149,543             XXX    $           -       XXX    $      225            XXX $ (166,346)             XXX    $     7,851
Bulgur                                Pounds             -   $           -     72,612    $  13,936                -   $           -          -   $            -     (72,612) $ (13,936)               -   $           -
Flour                                 Pounds             -               -    125,607       26,721                -               -          -                -    (125,607)   (26,721)               -               -
Wheat                                 Bus hels           -               -     27,244      222,134                -               -          -                -     (27,244)  (222,134)              -                -
                      Wheat Total                     XXX    $           -       XXX     $ 262,791             XXX    $           -       XXX    $            -        XXX $ (262,791)             XXX    $           -

Total Com m odities                                   XXX    $    50,257          XXX    $ 812,915             XXX    $           -       XXX    $     2,383            XXX    $ (851,858)         XXX    $    13,697
Allowance for Los s es                                                                                                                                                                                    $       (45)
Barter Delivery Obligations                                                                                                                                                                                           87

Com m odity Inventories and Related Property, Net                                                                                                                                                         $    13,739

Note: Due to dis tinct units of m eas ure, Quantity totals are not tabulated, and are denoted as xxx.




                                                                                                          86
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 7 – Commodity Inventories and Related Property, Net, Continued

Inventories are initially recorded at acquisition cost plus processing and packaging costs
incurred after acquisition. Acquisition cost is the amount of the loan settlement,
excluding interest, or the amount of the purchase settlement price. Since loan rates and
income support levels are established by statute, inventory acquisitions are usually
recorded at a cost higher than market value.

Generally, disposition costs are based on the average cost of the commodity in
inventory at the end of the previous month. In other cases, the cost is computed on the
basis of actual (historical) cost of the commodity. Actual cost is used with: (a)
simultaneous acquisition and disposition for commodity export programs; and (b)
dispositions of commodities previously pledged as price support loan collateral, which
are acquired and simultaneously disposed of by CCC during the exchange of
commodity certificates. Commodity certificates are issued electronically by CCC and
must be immediately exchanged for a commodity owned by the Corporation.

CCC purchases commodities for USAID in order to meet humanitarian food needs in
foreign countries. This prepositioned inventory is procured and made readily available
as needed for foreign countries in need. This is done in advance because the process
from procurement to delivery can be lengthy and by having the inventory available these
food needs can be met more timely. Both domestic and foreign prepositioned inventory
are recorded on CCC’s financial statements.

Allowance for losses as of fiscal year ended September 30, 2013, increased by $2
million compared to the prior year. This increase is due to a decline in corn value and
volume as a result of strong competition from Brazil, Argentina, and others; as well as
lower wheat value and volume as a result of slow sales and competition from northern
hemisphere producers.

As of September 30, 2013, commodity loan forfeitures, recognized as Collateral
Acquired, increased by $42 million compared to the prior year. There were essentially
no forfeitures of commodities in FY 2012 which resulted in zero inventory as of
September 30, 2012. However, in FY 2013 market conditions triggered sugar and
peanut forfeitures. Low market prices provided the incentive for producers to forfeit
sugar; approximately $27 million of raw cane sugar and $7 million of refined beet sugar
were in inventory as of September 30, 2013. Peanuts were forfeited due to higher
acreage and higher yields causing issues in storage capacity and processing, as a
result farmers chose to forfeit about $7 million of peanuts.




                                            87
                      COMMODITY CREDIT CORPORATION
                                       Financial Section

Note 7 – Commodity Inventories and Related Property, Net, Continued

Barter Delivery Obligations (BDOs) are immaterial for the fiscal year ended September
30, 2013. BDOs were received by CCC in exchange for CCC-owned commodities. The
BDOs may only be exchanged for food products to be utilized in domestic and export
food programs (Refer to the Commodity Inventories section of Note 1 - Significant
Accounting Policies for additional information).


Note 8 – General Property and Equipment, Net
General Property and Equipment as of September 30, 2013 and 2012 were as follows:

                       Table 30: General Property and Equipment

                                                            (In Millions)

2013                                          Acquisition   Accumulated         Net Book
                                                Value       Depreciation         Value

Equipment                                    $         28   $        (28)   $           -
Capitalized Software Costs                            128           (108)              20
Total General Property and Equipment         $        156   $       (136)   $          20


                                                            (In Millions)

2012                                          Acquisition   Accumulated         Net Book
                                                Value       Depreciation         Value

Equipment                                    $         30   $        (30)   $           -
Capitalized Software Costs                            128           (100)              28
Total General Property and Equipment         $        158   $       (130)   $          28




                                              88
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 9 – Other Assets
Other Assets as of September 30, 2013 and 2012 were as follows:
                                  Table 31: Other Assets
                                                                      (In Millions)

                                                               2013                   2012
   Public:
    Voluntary Public Access-Habitat Incentive Program      $            9      $              19
    Peanut Loan Advance                                                48                     48
    USAID                                                              61                     42
    Other                                                               1                      2
   Total Other Assets                                      $          119      $             111


The programs contributing to the majority of the Other Assets (Public) include:

Voluntary Public Access-Habitat Incentive Program (VPA)
VPA was authorized as a CCC program under Section 2606 of the 2008 Farm Bill.
Starting in FY 2010, State and tribal governments applied for grants to encourage
owners and operators of privately-held farm, ranch, and forest land to voluntarily make
that land accessible to the public for wildlife-dependent recreation, including hunting and
fishing under programs administered by the States and tribal governments. As of
September 30, 2013, CCC’s advance to VPA was $10 million less than the previous
year.

Peanut Loan Advance (PLA)
CCC advanced funds to the Peanut Designated Marketing Association’s (DMA)
Disbursement Program for the 2013 marketing season. As the need for drawdown
funds diminish, during the marketing season, excess drawdown advanced funds will be
reimbursed to CCC. At the end of the marketing season, the DMA will reimburse CCC
for any remaining drawdown fund advances; this will take place sometime after January
2014. As of September 30, 2013 and 2012, advance payments for peanut loans were
$48 million for both fiscal years.

USAID
As of September 30, 2013 CCC’s advance related to the Food for Peace Title II
program increased by $19 million compared to the prior year. The USAID program
covers transportation related costs in accordance with Public Law 480 under the
authority of the Secretary of Agriculture. Food for Peace Title II program carries out
emergency and non-emergency food assistance to other countries. Advances occur
when funds are disbursed to a grantee providing transportation services for
commodities being delivered prior to the submittal of the expenses.


                                             89
                         COMMODITY CREDIT CORPORATION
                                         Financial Section

Note 10 – Liabilities Not Covered by Budgetary Resources
Liabilities not Covered by Budgetary Resources as of September 30, 2013 and 2012
were as follows:
                   Table 32: Liabilities not Covered by Budgetary Resources


                                                                        (In Millions)

                                                                 2013                   2012
     Public:
      Environmental and Disposal Liabilities (Note 14)       $            8      $            8
      Tobacco Transition Payment Program                                954               1,906
      Pigford II - Court Ordered Payments                                 -                  50
      Other Programs                                                     18                  17
     Total Public                                            $          980      $        1,981

     Total Liabilities Not Covered by Budgetary Resources    $          980      $        1,981

     Total Liabilities Covered by Budgetary Resources        $    15,203         $       13,225

     Total Liabilities                                       $    16,183         $       15,206


Liabilities not Covered by Budgetary Resources
Unfunded liabilities are not covered by budgetary resources or offsetting collections. An
OMB apportionment and/or collection of cash is needed to provide budgetary resources
and allow payment of the liability in a future period. The FY 2014 program payments for
the Tobacco Transition Payment Program are the majority of the Unfunded Liabilities.
(Refer to Note 1 - Significant Accounting Policies, under Liabilities, for additional
information).

Liabilities Covered by Budgetary Resources
Funded liabilities are delivered orders unpaid or accruals of payables for which CCC
has not yet paid as of the end of the period. For the period ending September 30, 2013,
the majority of the open liability for CCC is $5.6 billion in payables for principal due to
the Bureau of Public Debt; $6 billion in program liabilities, $1.4 billion in Pre-Credit
reform liabilities payable to Treasury, and $1.3 billion in advances from others. .




                                                90
                       COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 11 – Debt to the Treasury
Debt to the Treasury, categorized as interest bearing as of September 30, 2013 and
2012 was as follows:
               Table 33: Debt to Treasury, categorized as Interest Bearing

                                                                    (In Millions)

                                                             2013                   2012
  Debt, beginning of Fiscal Year
   Principal                                             $     2,682         $        2,865

  New Debt
   Principal                                             $    26,562         $       18,127
   Accrued Interest Payable                                    1,941                      4
  Total New Debt                                         $    28,503         $       18,131

  Repayments
   Principal                                             $    (23,635)       $       (18,310)
   Accrued Interest Payable                                    (1,941)                    (4)
  Total Repayments                                       $    (25,576)       $       (18,314)

  Debt, as of September 30
   Principal                                             $     5,609         $        2,682

  Total Debt Outstanding, as of September 30             $     5,609         $        2,682


CCC may borrow interest-free up to the amount of its unreimbursed realized losses.
Debt and interest payable to Treasury as of December 31, 2012 is paid and refinanced
by borrowing like amounts from Treasury as of January 1, 2013. Interest expense
incurred on Treasury borrowings was $103 million and $117 million for the fiscal years
ended September 30, 2013 and 2012, respectively. The majority of the interest
expense was associated with Credit Reform programs, totaling $100 million in FY 2013
and $117 million in FY 2012.

Monthly interest rates ranged from 0.125 percent to 0.250 percent for both FY 2013 and
2012. The FY 2013 and 2012 interest rates on long-term borrowings under the
permanent indefinite borrowing authority for CCC’s Credit Reform programs are
calculated using the OMB Credit Subsidy Calculator 2 (CSC2). For FY 2001 and
subsequent cohorts, the single effective interest rate produced from the calculator,
along with budget assumptions, is used to calculate interest expenses for CCC’s Credit
Reform programs.




                                            91
                      COMMODITY CREDIT CORPORATION
                                    Financial Section

Note 11 – Debt to the Treasury, Continued

The repayment terms for borrowings from Treasury made for the Export Credit
Guarantee programs can be up to 10 years. Currently, maximum loan terms do not
exceed 7 years, while the repayment term for P.L. 480 Title I Direct Credits program
borrowing is 30 years. The repayment term for direct loans under the Farm Storage
Facility Loans (FSFL) program is 7, 10, or 12 years, based on the loan amount
(maximum loan amount is $500K). The repayment term is 3 years for direct loans
under the Apple Loan Program, and 10 years for the direct loans made under the Boll
Weevil program. For all Credit Reform programs, with the exception of FSFL, principal
repayments are required only at maturity but are permitted at any time during the term
of the loan. For FSFL, loans are required to be repaid in equal amortized installments
over the term of the loan.

CCC has permanent indefinite borrowing authority that is used by Credit Reform
programs to finance disbursements on Post-1991 Credit Reform direct credit and loan
obligations and credit guarantees. On October 1, CCC borrows from Treasury for the
entire fiscal year based on annual estimates of the difference between the amount
appropriated (subsidy) and the amount to be disbursed to the borrower. CCC may
repay the loan agreement, in whole or in part, prior to maturity by paying the principal
amount of the borrowings plus accrued interest up to the date of repayment. Interest is
paid on these borrowings based on weighted average interest rates for the cohort to
which the borrowings are associated.

CCC has an authorized capital stock of $100 million held by the Treasury and has
permanent indefinite authority to finance disbursements made under the liquidating
accounts related to the Pre-Credit Reform program activities, which are not covered by
available working capital. Interest on borrowings from the Treasury (and on capital
stock) is paid at a rate based upon the average interest rate of all outstanding
marketable obligations (of comparable maturity date) of the U.S. government as of the
preceding month. CCC incurred $2 million in interest expense on capital stock for both
fiscal years 2013 and 2012, which is separate from the interest expense on Treasury
borrowings.




                                           92
                        COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 11 – Debt to the Treasury, Continued
Total debt outstanding, by program and maturity date, as of September 30, 2013, was
as follows:
            Table 34: Total Debt Outstanding, by program and maturity date
                    Program               Debt (In Millions)       Maturity Date
      CCC Borrowing Authority           $                3,315        January 1, 2014
      Export Credit Guarantees                                9   September 30, 2015
                                                              5   September 30, 2018
                                                              3   September 30, 2019
                                                             95   September 30, 2020
                                                           171    September 30, 2021
                                                             79   September 30, 2022
                                                             20   September 30, 2023
                                                             26   September 30, 2024
                                                              5   September 30, 2025
                                                              2   September 30, 2026
      P.L. 480 Direct Credits                                 1   September 30, 2014
                                                           124    September 30, 2018
                                                             78   September 30, 2019
                                                             65   September 30, 2020
                                                             49   September 30, 2021
                                                             62   September 30, 2022
                                                             47   September 30, 2023
                                                             73   September 30, 2024
                                                             57   September 30, 2025
                                                             39   September 30, 2026
                                                             49   September 30, 2027
                                                             53   September 30, 2031
                                                             33   September 30, 2032
                                                             27   September 30, 2033
                                                             23   September 30, 2034
                                                             18   September 30, 2035
      Debt Reduction                                          6   September 30, 2018
                                                              1   September 30, 2020
                                                              9   September 30, 2021
                                                             40   September 30, 2022
                                                             12   September 30, 2023
                                                             24   September 30, 2024
                                                             14   September 30, 2026
                                                              3   September 30, 2028
      Farm Storarge Facility Loans                           13   September 30, 2014
                                                             22   September 30, 2015
                                                             46   September 30, 2016
                                                             87   September 30, 2017
                                                           189    September 30, 2018
                                                           186    September 30, 2019
                                                           176    September 30, 2020
                                                           246    September 30, 2021
      Sugar Storage Facility Loans                            4   September 30, 2028
      Boll Weevil                                             3   September 30, 2020
      Total Debt Outstanding            $                5,609


                                            93
                        COMMODITY CREDIT CORPORATION
                                         Financial Section

Note 12 – Deposit and Trust Liabilities

Deposit and Trust Liabilities are amounts advanced to or deposited with CCC on behalf
of other entities (Refer to Note 19 – Disclosures Not Related to a Specific Statement
under Transactions with Related Organizations, for additional information). The
balances, categorized as intragovernmental and public, as of September 30, 2013 and
2012 were as follows:

          Table 35: Intragovernmental and Public - Deposit and Trust Liabilities
                                                                        (In Millions)

                                                                 2013                   2012
  Intragovernmental:
    Agricultural Marketing Service                           $       206         $          429
    Food and Nutrition Service                                       596                    469
    Foreign Agricultural Service                                     245                    398
    Natural Resources Conservation Service                           259                    236
  Total Intragovernmental Deposit and Trust Liabilities      $     1,306         $        1,532

  Public                                                     $           6       $             7
  Total Public Deposit and Trust Liabilities                 $           6       $             7


AMS, FNS, and FAS activities contribute to the majority of the Intragovernmental
Deposit and Trust Liabilities. Within USDA, AMS and FNS coordinate with FSA/CCC to
purchase certain commodities for domestic feeding programs. AMS funds the purchase
of commodities for the purpose of facilitating additional sales in world markets at
competitive prices. FNS funds the purchase of commodities for the National School
Lunch program and many other domestic feeding programs administered by voluntary
organizations which help to fight hunger.        In conjunction with FSA/CCC, FAS
administers foreign food aid programs, helping people in need around the world. As of
September 30, 2013, Intragovernmental Deposit and Trust Liabilities decreased by
$226 million compared to the prior year.          This variance is attributed to the
implementation of a Direct Cite Pilot program in May 2013 which eliminates the need to
advance amounts to CCC. Full implementation is scheduled for October 1, 2013.

The Public Deposit and Trust Liability was $6 million and $7 million as of September 30,
2013 and 2012, respectively. This liability consists of unapplied collections for
warehouse user fees, claims for disaster programs, and other miscellaneous collections
that are temporarily held in suspense until appropriately identified and applied.




                                                94
                           COMMODITY CREDIT CORPORATION
                                         Financial Section

Note 13 – Other Liabilities
Other liabilities as of September 30, 2013 and 2012 were as follows:

                                   Table 36: Other Liabilities
                                                                            (In Millions)

                                                                     2013                   2012
 Intragovernmental:
 Resources Payable to Treasury:
    P.L.480 Direct Credit Liquidating Fund                       $     1,427         $        1,820
    Export Credit Guarantee Liquidating Fund                             -                       30
 Total Resources Payable to Treasury                             $     1,427         $        1,850
  Accrued Conservation Reserve Program Technical Assistance      $          10       $              68
  Excess Subsidy Payable to Treasury                                        59                      73
  Other                                                                     26                      18
 Total Intragovernmental Other Liabilities                       $          95       $             159

 Public                                                          $          34       $             84
 Total Public Other Liabilities                                  $          34       $             84

Resources Payable to Treasury represents CCC’s liquidating fund assets (cash and
loans receivable, net of an allowance) less any liabilities that may be held as working
capital. Loans made in 1991 and before (Pre-Credit Reform direct loans and assigned
loan guarantees) are accounted for in liquidating funds. These funds collect loan
payments and pay any related expenses or default claims. At the end of each year, any
unobligated cash balance is transferred to Treasury.

The Conservation Reserve Program Technical Assistance is administered by NRCS
and provides land users with proven conservation technology and the delivery system
needed to achieve the benefits of a healthy and productive landscape. As of
September 30, 2013 and 2012 the accrued CRP Technical Assistance was $10 million
and $68 million, respectively.

The Excess Subsidy Payable to Treasury is the downward reestimate paid to Treasury
from the financing fund. As of September 30, 2013 and 2012, the excess subsidy
payable to Treasury was $59 million and $73 million, respectively.

As of September 30, 2013, Other Liabilities (Public) is $34 million; $19 million of the
liability is due to General Sales Manager and P.L. 480 Direct Loans. An additional $15
million is deferred revenue made up of credits under the currency use payment
provisions in the commodity sales agreements in the P.L. 480 program.

                                                95
                        COMMODITY CREDIT CORPORATION
                                        Financial Section

Note 14 – Environmental and Disposal Liabilities

The Corporation formerly operated approximately 4,500 grain storage facilities in the
U.S. Carbon Tetrachloride 4 has been discovered in groundwater at approximately 120
                             3F




of these facilities. CCC recorded an estimate of the total liability for remediation of
affected sites of $8 million for both fiscal years ended September 30, 2013 and 2012
based on actual cleanup costs at similar sites. This liability is not covered by budgetary
resources (Refer to Note 10 – Liabilities Not Covered by Budgetary Resources for
additional information).

Hazardous Waste Program
Since the first discovery of contaminated groundwater, CCC has been engaged in an
active program to identify affected sites, perform site investigations, risk assessments,
and conduct cleanup actions. As of September 30, 2013 and 2012, payments for these
activities totaled $5 million each year. At September 30, 2013, CCC estimates the
range of potential future losses due to remedial actions to be between $8 million and
$55 million. This liability is not covered by budgetary resources.


Note 15 – Accrued Liabilities
Accrued Liabilities as of September 30, 2013 and 2012 were as follows:
                                  Table 37: Accrued Liabilities
                                                                         (In Millions)

                                                                  2013                   2012

    Conservation Reserve Program                            $       1,507         $        1,546
    Export Programs                                                     1                      1
    Income Support Programs:
      Direct and Counter-cyclical Payment Program                   4,290                  4,654
      Sugar                                                            66                      -
      Other                                                            33                     21
    Tobacco Transition Payment Program                                954                  1,906
    Other                                                             105                    118
    Total Accrued Liabilities                               $       6,956         $        8,246

TTPP Accrued Liability was $954 million and $1,906 million, as of September 30, 2013
and 2012 respectively. TTPP includes a current liability of $952 million and the
remaining balance is a long term liability. Refer to Note 1 - Significant Accounting
Policies, under Liabilities, for additional information.


4
 Carbon Tetrachloride is commonly used at grain storage facilities as a grain fumigant and
pesticide. It is suspected to be a human carcinogen.

                                               96
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 16 – Commitments and Contingencies

A loss contingency is an existing condition, situation, or set of circumstances involving
uncertainty as to possible loss to an entity. The uncertainty will ultimately be resolved
when one or more future events occur or fail to occur. A loss contingency is a liability
when a past event or exchange transaction has occurred, a future outflow or other
sacrifice of resources is probable, and the future outflow or sacrifice of resources is
measurable.

In addition to loss contingencies, CCC also discloses (1) an estimate of obligations
related to canceled appropriations and borrowing authority programs for which the
reporting entity has a contractual commitment for payment and (2) amounts for
contractual arrangements that may require future financial obligations.

Commitments
Many programs and policies of the USDA were authorized under the 2008 Farm Bill
through September 30, 2012, and were then extended by the American Taxpayer Relief
Act though September 30, 2013. Beginning October 1, 2013, the authority or funding
under the 2008 Farm Bill for USDA to operate a number of these programs expired, and
the authority and funding for additional programs will expire in the following
months. Because Congress has not passed a new farm bill or an extension, USDA can
no longer make new commitments for programs for which the Department’s authority or
funding has expired. Some programs continue with no changes and others that
received discretionary funding during FY 2013 will continue under the Continuing
Resolution. For those programs, policies, and authorities that expired, obligations
and/or payments may still continue to be made in FY 2014 as required under the 2008
Farm Bill only for the 2013 crop year and prior year agreements. Some of the major
programs that will continue include Emergency Forestry Conservation Reserve
Program, Noninsured Crop Disaster Assistance Program, Tobacco Transition Payment
Program, CCC Charter Act Section 4 - contracts and Section 11 - reimbursable
agreements, Export Credit Guarantees, Farm and Sugar Storage Facility loans, and
peanut handling costs. Dairy Indemnity Program will continue under authority in the FY
2014 continuing resolution.




                                            97
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 16 – Commitments and Contingencies, Continued
Grassland Reserve Program (GRP)
GRP is a voluntary program for landowners to protect, restore, and enhance grasslands
on their property. NRCS and FSA jointly implement GRP to conserve vulnerable
grasslands from conversion to cropland or other uses and conserve valuable grasslands
by helping maintain viable ranching operations. GRP rental contracts can be 10, 15, 20,
or 30 years long.

Payments are not static due to many variables (i.e. amount of program funding received
each year, length of rental contracts, number of easements perfected/finalized each
year and if the landowner takes a lump sum easement payment or chooses the option
to receive 10 annual payments).

Noninsured Crop Disaster Assistance Program (NAP)
NAP was authorized as a CCC program under the Federal Agriculture Improvement and
Reform Act of 1996. NAP provides financial assistance to producers of non-insurable
crops when a low-yield crop, loss of inventory, or prevented planting occurs due to
natural disasters. The crops must be non-insurable commodities for which the
catastrophic risk protection level of crop insurance is not available. At September 30,
2013, CCC had no undelivered orders on current contracts.

Conservation Reserve Program (CRP)
Through CRP, eligible participant’s sign 10 to 15 year contracts to remove land from
production in exchange for an annual rental payment.             The participants also
receive cost-share assistance for establishing conservation practices on the reserve
acreage and additional incentive payments for adopting high-priority conservation
measures. Although CRP funding expired under the 2008 Farm Bill, CCC estimates
that the future liability for CRP rental payments through FY 2019 will average $2 billion
annually for the 2013 crop year and prior year agreements.

Contingencies

Legal Disputes and Claims
In the normal course of business, CCC becomes involved in various legal disputes and
claims. CCC vigorously defends its position in such actions through the Office of the
General Counsel (OGC) and the U.S. Department of Justice.




                                            98
                       COMMODITY CREDIT CORPORATION
                                      Financial Section

Note 16 – Commitments and Contingencies, Continued

As of September 30, 2013, the Pigford II claim litigation case has been resolved in favor
of the plaintiff. CCC is liable for $100 million of the total $1.25 billion liability. As of
September 30, 2013, all but $200,000 of the $100 million CCC funding had been
disbursed. The $200,000 remains for the payment of future anticipated liabilities.

Funds are being held in the Tobacco Trust Fund associated with an appeal of the
assessment value for Phillip Morris (PMUSA). PMUSA has disputed the assessment
and asked that the funds be held in escrow until a determination has been made. The
amount held is $48 million, and an additional $16 million per quarter is required to be
held in escrow pending resolution of the case. Refer to Note 1 - Significant Accounting
Policies, under TTPP, for general information on the program.

A contingency is considered reasonably possible when the chance of the future
confirming event or events occurring is more than remote, but less than probable. CCC
has one ongoing case, Prime Time International Company v. Vilsack. A payment for
this case has been deemed reasonably possible, and the estimated amount of potential
loss ranges from $2 million to $16 million.

No amounts have been accrued in the financial statements for claims where the amount
is uncertain or where the probability of judgment against USDA is remote.




                                             99
                      COMMODITY CREDIT CORPORATION
                                        Financial Section

Note 17 – Disclosures Related to the Statement of Net Cost

Earned Revenue

Revenue and expense are recognized based on SFFAS No. 7, Accounting for Revenue
and Other Financing Sources. CCC follows the implementation guide for classifying,
recognizing, and measuring inflows of resources. Earned revenues are exchange
revenues, which arise when a Federal entity provides goods and services to the public
or to another government entity for a price.

Earned Revenue for the fiscal years ended September 30, 2013 and 2012 were as
follows:
                               Table 38: Earned Revenue
                                                                       (In Millions)

                                                                2013                   2012

  Intragovernmental Earned Revenue:
    Interest Income                                         $           18      $               26
    Other                                                              224                    318
    Less: Intra-Agency Eliminations                                    (49)                   -
  Total Intragovernmental Earned Revenue                    $          193      $             344

  Earned Revenue from the Public:
   Interest Income                                          $          185      $             508
  Total Earned Revenue from the Public                      $          185      $             508

  Total Earned Revenue                                      $          378      $             852


The $(49) million Intra-Agency Elimination is recorded to eliminate tobacco interchange
transfer between CCC Revolving Fund and the Tobacco Trust Fund expenditure
transfer.

CCC’s strategic goals are as follows:

Provide a Financial Safety Net for Farmers and Ranchers
Under this strategic goal, program areas include Income Support and Disaster
Assistance. CCC provides financial assistance in the form of flexible payments and
short term financing to stabilize, support, and protect farm income and prices due to the
fluctuation of commodity market prices or income support due to damage caused by
natural disasters. Commodity Loans, Tobacco Transition Payment Program, Disaster
Assistance, Milk Income Loss Payments, Price Support, and Direct and Counter-cyclical
Payment programs comprise major program activity.



                                              100
                     COMMODITY CREDIT CORPORATION
                                   Financial Section

Note 17 – Disclosures Related to the Statement of Net Cost, Continued

Increase Stewardship of Natural Resources While Enhancing the Environment
Under this strategic goal, the Conservation Reserve Program safeguards natural
resources by paying farmers to take environmentally sensitive crop land out of
production and plant long-term resource-conserving covers (such as grass and trees).
These covers improve the quality of water and air, control soil erosion, and enhance
wildlife habitat.

Ensure Commodities are Procured and Distributed Effectively and Efficiently
Under this strategic goal, program areas include Commodity Operations and Food Aid.
These programs protect the nation’s agriculture and food supply through a uniform
regulatory system for the storage of agricultural products and ensure the timely
provision of food products procured for domestic and international food assistance
programs and market development programs.

Increase U.S. Food and Agricultural Exports
Under this strategic goal, program areas include Export Credit and Market
Development. FAS and CCC form cooperative agreements with nonprofit agricultural
trade commodity groups to encourage development, maintenance, and expansion of
commercial export markets for agricultural commodities. Major programs include Food
Aid, Foreign Market Development, and Export Credit Guarantee.

Refer to the Management Discussion and Analysis, Performance Section, for additional
information on the alignment of CCC’s and USDA’s strategic goals.




                                         101
                                                     COMMODITY CREDIT CORPORATION
                                                                      Financial Section

Note 17 – Disclosures Related to the Statement of Net Cost, Continued
Table 39: Net Costs of Operations by Strategic Goal and Program for the fiscal year ended September 30, 2013 (In Millions)
                                                                                                    Commodity          Market           Intra-
                                                              Income Support and    Conservation    Operations    Development and      Agency
                                                              Disaster Assistance    Programs      and Food Aid    Export Credit    Eliminations       Total

Provide a Financial Safety Net for Farmers and Ranchers
   Intragovernment Cost                                       $              831    $          -   $        68    $             -   $         -    $        899
   Public Cost                                                             5,262               -             6                  -             -           5,268
   Total Cost                                                 $            6,093    $          -   $        74    $             -   $         -    $      6,167

   Intragovernment Earned Revenue                             $               49    $          -   $          -   $             -   $       (49)   $             -
   Public Earned Revenue                                                      36               -              -                 -             -                 36
   Total Earned Revenue                                       $               85    $          -   $          -   $             -   $       (49)   $            36

Increase Stewardship of Natural Resources While Enhancing the
Environment
    Intragovernment Cost                                      $                -    $        426   $          -   $             -   $         -    $        426
    Public Cost                                                                -           1,765              -                 -             -           1,765
    Total Cost                                                $                -    $      2,191   $          -   $             -   $         -    $      2,191

   Intragovernment Earned Revenue                             $                -    $        33    $          -   $             -   $         -    $            33
   Public Earned Revenue                                                       -              2               -                 -             -                  2
   Total Earned Revenue                                       $                -    $        35    $          -   $             -   $         -    $            35

Ensure Commodities are Procured and Distributed Effectively
and Efficiently
   Intragovernment Cost                                       $               21    $          -   $        84    $             -   $         -    $           105
   Public Cost                                                                (3)              -            (2)                 -             -                 (5)
   Total Cost                                                 $               18    $          -   $        82    $             -   $         -    $           100
   Intragovernment Earned Revenue                             $                8    $          -   $          -   $             -   $         -    $             8
   Public Earned Revenue                                                      13               -              -                 -             -                 13
   Total Earned Revenue                                       $               21    $          -   $          -   $             -   $         -    $            21
Increase U.S. Food and Agricultural Exports
    Intragovernment Cost                                      $                -    $          -   $          -   $           112   $         -    $        112
    Public Cost                                                                -               -              -             2,433             -           2,433
    Total Cost                                                $                -    $          -   $          -   $         2,545   $         -    $      2,545
   Intragovernment Earned Revenue                             $                -    $          -   $          -   $          152    $         -    $           152
   Public Earned Revenue                                                       -               -              -              134              -                134
   Total Earned Revenue                                       $                -    $          -   $          -   $          286    $         -    $           286
Total Gross Cost                                              $            6,111    $      2,191   $       156    $         2,545   $         -    $     11,003
Less: Total Earned Revenue                                                   106              35             -                286           (49)            378
Net Cost of Operations                                        $            6,005           2,156   $       156    $         2,259   $        49    $     10,625




                                                                             102
                                                     COMMODITY CREDIT CORPORATION
                                                                      Financial Section

Note 17 – Disclosures Related to the Statement of Net Cost, Continued
Table 40: Net Costs of Operations by Strategic Goal and Program for the fiscal year ended September 30, 2012 (In Millions)
                                                                                                    Commodity          Market           Intra-
                                                              Income Support and    Conservation    Operations    Development and      Agency
                                                              Disaster Assistance    Programs      and Food Aid    Export Credit    Eliminations       Total

Provide a Financial Safety Net for Farmers and Ranchers
   Intragovernment Cost                                       $              818    $          -   $        68    $             -   $         -    $        886
   Public Cost                                                             4,908               -            28                  -             -           4,936
   Total Cost                                                 $            5,726    $          -   $        96    $             -   $         -    $      5,822

   Intragovernment Earned Revenue                             $                -    $          -   $          -   $             -   $         -    $             -
   Public Earned Revenue                                                      86               -              -                 -             -                 86
   Total Earned Revenue                                       $               86    $          -   $          -   $             -   $         -    $            86

Increase Stewardship of Natural Resources While Enhancing the
Environment
    Intragovernment Cost                                      $                -    $        460   $          -   $             -   $         -    $        460
    Public Cost                                                                -           1,694              -                 -             -           1,694
    Total Cost                                                $                -    $      2,154   $          -   $             -   $         -    $      2,154

   Intragovernment Earned Revenue                             $                -    $        37    $          -   $             -   $         -    $            37
   Public Earned Revenue                                                       -              2               -                 -             -                  2
   Total Earned Revenue                                       $                -    $        39    $          -   $             -   $         -    $            39

Ensure Commodities are Procured and Distributed Effectively
and Efficiently
   Intragovernment Cost                                       $               25    $          -   $        82    $             -   $         -    $           107
   Public Cost                                                               (28)              -            11                  -             -                (17)
   Total Cost                                                 $               (3)   $          -   $        93    $             -   $         -    $            90
   Intragovernment Earned Revenue                             $               10    $          -   $          -   $             -   $         -    $            10
   Public Earned Revenue                                                      15               -              -                 -             -                 15
   Total Earned Revenue                                       $               25    $          -   $          -   $             -   $         -    $            25
Increase U.S. Food and Agricultural Exports
    Intragovernment Cost                                      $                -    $          -   $          -   $           132   $         -    $        132
    Public Cost                                                                -               -              -             2,379             -           2,379
    Total Cost                                                $                -    $          -   $          -   $         2,511   $         -    $      2,511
   Intragovernment Earned Revenue                             $                -    $          -   $          -   $          298    $         -    $           298
   Public Earned Revenue                                                       -               -              -              404              -                404
   Total Earned Revenue                                       $                -    $          -   $          -   $          702    $         -    $           702
Total Gross Cost                                              $            5,723    $      2,154   $       189    $         2,511   $         -    $     10,577
Less: Total Earned Revenue                                                   111              39             -                702             -             852
Net Cost of Operations                                        $            5,612           2,115   $       189    $         1,809   $         -    $      9,725




                                                                             103
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 18 – Disclosures Related to the Statement of Budgetary Resources
The Statement of Budgetary Resources (SBR) is a combined statement that provides
information about how budgetary resources were made available, as well as their status
at the end of the period. The format of the SBR presentation was moderately modified
compared to its FY 2012 presentation. In accordance with OMB Circular A-136
requirements, the change was necessary to better align with the reporting format of the
SF-133, Report on Budget Execution and Budgetary Resources report. Due to this
change, the FY 2013 SBR has been reformatted in comparison to what was reported in
FY 2012. The result is a change in format only; the underlying data reported remains
unchanged.

Terms of Budget Authority Used
Unobligated budget authority is the difference between the obligated balance and the
total unexpended balance. It represents that portion of the unexpended balance
unencumbered by recorded obligations. Each appropriation is provided on an annual,
multi-year, or no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain
their fiscal-year identity in an expired account for an additional five fiscal years. The
unobligated balance remains available to make legitimate obligation adjustments, i.e., to
record previously unrecorded obligations and to make upward adjustments in previously
underestimated obligations for five years. At the end of the fifth year, the authority is
canceled. Thereafter, the authority is not available for any purpose.

Available Borrowing Authority
Per the Commodity Credit Corporation Charter Act, 15 U.S.C. 714, the Corporation’s
borrowing authority is made up of both interest and non-interest bearing notes. These
notes are drawn upon on a daily basis when disbursements exceed deposits, as
reported by the Federal Reserve Banks (FRB), their branches, the Treasury, and CCC’s
financing office. CCC is authorized to issue and have outstanding at any one time
bonds, notes, debentures, and other similar obligations in an aggregate amount not to
exceed $30 billion. CCC’s notes payable under its permanent indefinite borrowing
authority have a term of one year. On January 1 of each year, CCC refinances its
outstanding borrowings, including accrued interest, at the January borrowing rate.
Refer to Note 11 – Debt to the Treasury, for additional information. The amount of
borrowing authority less principal payments to the U.S. Treasury Bureau of the Public
Debt (i.e. available borrowing authority) for the fiscal year ended September 30, 2013,
was $10.4 billion (Refer to Note 2 – Fund Balance with Treasury – Borrowing Authority
not yet converted to Fund Balance). CCC receives an annual appropriation to fund its
net realized losses.


                                           104
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 18 – Disclosures Related to the Statement of Budgetary Resources,
Continued

In addition, CCC has permanent indefinite authority to finance disbursements made
under the liquidating accounts related to the Pre-Credit Reform program activities,
which are not covered by available working capital.

Apportionment Categories of Obligations Incurred
Obligations can either be categorized as direct or reimbursable. Direct obligations are
not financed from reimbursements while reimbursable obligations are financed by
offsetting collections that are payments to the performing account for goods and
services provided to the ordering entity. For the fiscal years ended September 30, 2013
and 2012, there were no obligations incurred under apportionment category A, which is
funded on a quarterly basis. Obligations incurred under apportionment category B,
which is funded annually, were as follows:
                      Table 41: Direct v. Reimbursable Obligations
          Obligations                                          Dollars in Billions
          For the Fiscal Year Ended September 30              2013          2012
             Direct                                      $    2.96 $        3.51
             Reimbursable                                    18.98        18.19
          Total Obligations                              $   21.94 $      21.70

Undelivered Orders
Undelivered orders, either unpaid or prepaid, are purchase orders or contracts awarded
for which goods or services have not yet been received. The amounts for undelivered
orders are $5.3 billion and $3.6 billion for the fiscal years ended September 30, 2013
and 2012, respectively.

Permanent Indefinite Appropriations
CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11.
A permanent indefinite borrowing authority becomes available pursuant to standing
provisions of law without further actions by Congress after the transmittal of the budget
for the year involved. CCC's authority is established annually to record the obligations
of CCC; apportionment documents received for some of CCC's specific programs
provide spending limitations within the borrowing authority and are subject to the
Antideficiency Act. The borrowing authority provides that all obligations are reported,
even though subsequent appropriations or offsetting collections will ultimately be used
to liquidate the obligations of the Corporation. CCC cannot borrow more than the
amount required to liquidate obligations incurred. Through the use of contract authority,
OMB Circular A-11 permits the Corporation to incur obligations which can exceed its
$30 billion borrowing authority ceiling and authorizes CCC to borrow funds to liquidate
the obligations. To date, CCC has not utilized this contract authority.

                                           105
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 18 – Disclosures Related to the Statement of Budgetary Resources,
Continued
Legal Arrangements Affecting the Use of Unobligated Balances
Any information about legal arrangements affecting the use of the unobligated balance
of budget authority is specifically stated by program and fiscal year in the appropriation
language or in the alternative provisions section at the end of the appropriations act.
CCC does not have obligations from canceled appropriations.

President’s Budget Reconciliation
The SF-133 which is used by CCC to report and certify obligation balances is also used
to populate some portions of the Program and Financing Schedules (P&F Schedules)
within the Budget of the United States Government.

Since the P&F Schedules within the Budget of the United States Government, Fiscal
Year 2015 were not available at the time CCC’s Annual Management Report for FY
2013 was issued, the reconciliation between the President’s Budget and the SBR for FY
2013 could not be performed. The Budget of the United States Government, Fiscal
Year 2015 is expected to be published in February 2014 and will be available on the
website of the Office of Management and Budget (http://www.whitehouse.gov) at that
time. The FY 2013 SBR will be reconciled to the FY 2013 actuals on the P&F
Schedules reported in the Budget of the United States Government, Fiscal Year 2015,
once released.

The summarized table below shows the reconciliation of the FY 2012 SBR to the FY
2012 actuals on the P&F Schedules presented in the Budget of the United States
Government, Fiscal Year 2014.




                                           106
                       COMMODITY CREDIT CORPORATION
                                       Financial Section

Note 18 – Disclosures Related to the Statement of Budgetary Resources,
Continued
                               Table 42: P&F Reconciliation
                                                                       Dollars in Millions
                                                               Distributed
                                        Budgetary Obligations Offsetting         Net
                                        Resources    Incurred    Receipts     Outlays
Combined Statement of Budgetary         $   23,254 $    21,700 $       (74) $      9,077
Resources
Reconciling Items:
   Rounding                                        3            -              -              -
                         1
   Shared Appropriation                            6            5              -              7
Distributed Offsetting Receipts                    -             -           74               -
Budget of the United States
Government                              $    23,263    $   21,705    $         -   $   9,084


Note:
1 - Hazardous Waste Management Fund (12X0500), is a shared appropriation. CCC reports
the budgetary information for its portion in its Statement of Budgetary Resources. The USDA
reports the SF-133 and MAX balances for this fund on a consolidated level.


Note 19 – Disclosures Not Related to a Specific Statement

Transactions with Related Organizations
CCC maintains deposit and trust liabilities for AMS, FAS, FNS, and the NRCS (Refer to
Note 12 – Deposit and Trust Liabilities for additional information). In addition, CCC has
the following transactions with other USDA agencies:
      For the fiscal years ended September 30, 2013 and 2012, outlays under
       reimbursable agreements with other USDA agencies amounted to $48 million
       and $49 million, respectively.
      For the fiscal years ended September 30, 2013 and 2012, CCC did not receive
       funding from FSA for the allocation of internal software development costs, which
       are capitalized. Refer to Note 1 - Significant Accounting Policies, under General
       Property and Equipment, for additional information on accounting for internal use
       software.




                                             107
                        COMMODITY CREDIT CORPORATION
                                           Financial Section

Note 19 – Disclosures Not Related to a Specific Statement, Continued

      CCC donates commodities for use under domestic feeding programs
       administered by FNS. The value of commodities donated for these domestic
       purposes, including related transportation and storage costs for the fiscal years
       ended September 30, 2013 and 2012 were $1 million and $6 million,
       respectively.

CCC transfers for the fiscal years ended September 30, 2013 and 2012 were as follows:

                  Table 43: Summary of CCC Transfers to Related Parties
                                                                              In Millions
                          Transferred to                               2013                 2012

 FNS for the Senior's Farmers Market Nutrition Program             $           20 $                 21

 Animal and Plant Health Inspection Service (APHIS) for bovine
 tuberculosis, light brown apple moth outbreak, and potato cyst    $           50 $                343
 nematode eradication programs

 Office of the CFO for bio-diesel fuel education and bio-based
                                                                   $           -    $                1
 products

 AMS for commodity assistance program and marketing service        $           54 $                 67


 Cooperative State Research, Education, and Extension Service
 (CSREES) for the national agricultural higher education,
 research, and extension system which are designed to address      $           -    $              149
 national problems and needs related to agriculture, the
 environment, human health and well-being, and communities

 On behalf of NRCS for various conservation programs and
                                                                   $     3,521      $         3,425
 technical assistance

 Other USDA agencies including FSA and Risk Management
                                                                   $            6 $                  6
 Agency (RMA)

 Rural Business and Cooperative Development Service, which
 provides for business credit needs in under-served rural areas,   $          147   $               -
 often in partnership with private-sector lenders




                                                 108
                      COMMODITY CREDIT CORPORATION
                                     Financial Section

Note 19 – Disclosures Not Related to a Specific Statement, Continued

For the fiscal years ended September 30, 2013 and 2012, CCC disbursed $79 million
and $91 million, respectively, to NRCS for CRP technical assistance. These programs
included Wetland Reserve Program, Environmental Quality Incentive Program (EQIP),
Farm and Ranch Lands Protection Program (FRPP), Wildlife Habitat Incentives
Program, Ground and Surface Water Conservation Program, Grassland Reserve
Program (GRP), and the Conservation Security Program. NRCS is responsible for the
administration of these programs. For GRP, NRCS has entered into a memorandum of
understanding with CCC to disburse funds using the services and facilities of CCC. It
should be noted that although NRCS has been receiving funding for the EQIP program
since FY 2003, CCC continues to receive separate funding for the FY 2002 and earlier
program years.

As part of its parent/child relationship, CCC provided funds to USAID to fund P.L. 480
Title II transportation and other administrative costs in connection with foreign
donations. The amount of funds provided to USAID for the fiscal years ended
September 30, 2013 and 2012 was $773 million and $961 million, respectively. Refer to
Note 1 - Significant Accounting Policies, under Allocation Transfers and Shared
Appropriations, for further information.

Custodial Activity

CCC’s custodial activities involve the collection and transfer of funds received from the
public on behalf of Treasury, FSA, and other USDA agencies. These collections include
amounts related to FSA’s Farm Loan Program, as well as other interest, fees, and
penalties due to Treasury and other USDA agencies.




                                           109
                            COMMODITY CREDIT CORPORATION
                                         Financial Section

Note 19 – Disclosures Not Related to a Specific Statement, Continued
Custodial Activities for the fiscal years ended September 30, 2013 and 2012 were as
follows:

                                  Table 44: Custodial Activities
                                                                           (In Millions)

                                                                    2013                   2012

   Revenue Activity:
    Sources of Cash Collections:
     Repayment of Farm Credit Loans                             $     1,871         $        1,820
     Administrative and Other Service Fees                              267                    234
    Total Cash Collections                                      $     2,138         $        2,054
   Total Custodial Revenue                                      $     2,138         $        2,054

   Disposition of Collections:
    Transfers to Others:
      USDA Farm Service Agency                                  $     1,894         $        1,829
      Other USDA Agencies                                               218                    199
      Department of Treasury                                             18                     34
   Total Disposition of Collections                             $     2,130         $        2,062
   (Increase)/Decrease in Amounts Yet to be Transferred (+/-)   $           (8)     $             8
   Net Custodial Activity                                       $            -      $             -



Note 20 – Reconciliation of Net Cost of Operations to Budget
Budgetary and proprietary accounting information are inherently different because of the
types of information and the timing of their recognition. The Reconciliation of Net Cost
of Operations to Budget provides a link between budgetary and proprietary accounting
information. It serves not only to explain how information on net obligations relates to
the net cost of operations but also to assure integrity between budgetary and proprietary
accounting.

Net obligations and the net cost of operations are different because (1) the net cost of
operations may be financed by non-budgetary resources (e.g. imputed financing); (2)
the budgetary and non-budgetary resources used may finance activities which are not
components of the net cost of operations; and (3) the net cost of operations may contain
components which do not use or generate resources in the current period.




                                               110
                               COMMODITY CREDIT CORPORATION
                                                    Financial Section

Note 20 – Reconciliation of Net Cost of Operations to Budget, Continued
The Reconciliation of Net Cost of Operations to Budget for the fiscal years ended
September 30, 2013 and 2012 were as follows:
                   Table 45: Reconciliation of Net Cost of Operations to Budget
                                                                                                       (In Millions)

                                                                                               2013                    2012
Resources Used to Finance Activities:
Budgetary Resources Obligated:
  Obligations Incurred                                                                     $     21,941         $        21,700
  Less: Spending Authority from Offsetting Collections and Recoveries                            10,988                  11,307
  Obligations Net of Offsetting Collections and Recoveries                                 $     10,953         $        10,393
  Less: Offsetting Receipts                                                                         102                      74
Net Obligations                                                                            $     10,851         $        10,319
Other Resources:
  Transfers In/Out without Reimbursement, Net                                              $          -         $           (74)
  Imputed Financing from Costs Absorbed by Others                                                 1,273                   1,252
  Other                                                                                            (164)                    (85)
Net Other Resources Used to Finance Activities                                             $      1,109         $         1,093
Total Resources Used to Finance Activities                                                 $     11,960         $        11,412

Resources Used to Finance Items not Part of the Net Cost of Operations:
Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but
not Yet Provided                                                                           $       (527)        $        (1,217)
Resources that Fund Expenses Recognized in Prior Periods                                         (1,088)                 (1,161)
Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations:
 Credit Program Collections which Increase Liabilities for Loan Guarantees or Allowances
 for Subsidy                                                                                        -                       798
 Change in Unfilled Customer Orders                                                               2,826                   1,530
 Decrease in Exchange Receivables from the Public                                                 5,741                   5,622
 Other                                                                                           (2,079)                 (1,674)
Resources that Finance the Acquisition of Assets                                                 (3,999)                 (4,164)
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of
Operations                                                                                       (4,019)                 (2,653)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations               $     (3,145)        $        (2,919)

Total Resources Used to Finance the Net Cost of Operations                                 $      8,815         $         8,493

Components of the Net Cost of Operations that will not Require or Generate
Resources in the current period:
Components Requiring or Generating Resources in Future Periods:
  Upward/(Downward) Reestimates of Credit Subsidy Expense                                  $           115      $               85
  (Increase) in Exchange Revenue Receivable from the Public                                           (138)                   (301)
  Other                                                                                                178                    (326)
Total Components of Net Cost of Operations that will Require or Generate Resources in
Future Periods                                                                             $          155       $             (542)
Components not Requiring or Generating Resources:
  Depreciation and Amortization                                                            $           (49)     $                6
  Revaluation of Assets or Liabilities                                                                   2                      (1)
Other Components not Requiring or Generating Resources:
   Bad Debt Expense                                                                                (187)                    163
   Cost of Goods Sold                                                                                56                     -
   Other                                                                                          1,833                   1,606
Total Components of Net Cost of Operations that will not Require or Generate Resources     $      1,655         $         1,774
Total Components of Net Cost of Operations that will not Require or Generate
Resources in the Current Period                                                            $      1,810         $         1,232

Net Cost of Operations                                                                     $     10,625         $         9,725



                                                            111
Part IV: Required
Supplementary Information
(Unaudited)




           112
                                                COMMODITY CREDIT CORPORATION
                                                       Required Supplementary Information

Schedule of Combined Statement of Budgetary Resources by Major Fund: Budgetary Accounts (Unaudited)
For the Fiscal Year Ended September 30, 2013
(Dollars in Millions)
                                                                          P.L. 480    Tobacco      USAID - P.L.     Export
                                                             CCC Fund      Title II     Trust       480 Title II    Loans          Other        Total
                                                                           Grants      Fund           Grants       Program

                                                             (12X4336)    (12X2278)   (12X8161)    ((72)12X2278)   (12X1336)
Budgetary Resources:
 Unobligated balance brought forward, October 1              $     821 $        105   $     49     $        127 $          -   $      111 $       1,213
 Recoveries of prior year unpaid obligations                       182            2          -              174            -           14           372
 Other changes in unobligated balance                              (83)         177          -             (177)           -         (110)         (193)
 Unobligated balance from prior year budget authority, net         920          284         49              124           -            15         1,392
 Appropriations (discretionary and mandatory)                        -          409        996              950          59            35         2,449
 Borrowing Authority (discretionary and mandatory)               16,166           -         (49)               -           -               -     16,117
 Spending authority from offsetting collections
 (discretionary and mandatory)                                  2,547             3          -                -           -            40         2,590
 Total Budgetary Resources                                   $ 19,633     $     696   $    996     $      1,074    $     59    $       90      $ 22,548


Status of Budgetary Resources:
 Obligations Incurred (Note 18)                              $ 18,976     $     600   $    857     $        950    $     59    $       39      $ 21,481
 Unobligated balance, end of year:
     Apportioned                                                    -            61         90               30           -            34           215
     Exempt from apportionment                                    301             -          -                -           -             3           304
     Unapportioned                                                356            35         49               94           -            14           548
 Total Unobligated balance, end of year                           657            96        139              124           -            51         1,067
 Total Budgetary Resources                                   $ 19,633     $     696   $    996     $      1,074    $     59    $       90      $ 22,548




                                                                          113
                                               COMMODITY CREDIT CORPORATION
                                                       Required Supplementary Information

                                                                        P.L. 480     Tobacco     USAID - P.L.     Export
                                                          CCC Fund       Title II      Trust      480 Title II    Loans           Other        Total
                                                                         Grants       Fund          Grants       Program

                                                          (12X4336)     (12X2278)    (12X8161)   ((72)12X2278)   (12X1336)
Change in Obligated Balance:
 Unpaid obligations:
    Unpaid obligations, brought forward, Oct 1           $ 9,930        $     173    $      -    $      1,232    $       -    $       23      $ 11,358
    Obligations incurred                                   18,976             600         857             950           59            39         21,481
    Outlays (gross)                                       (18,174)           (599)       (857)         (1,330)         (59)          150        (20,869)
    Recoveries of prior year unpaid obligations              (182)             (2)          -            (174)           -           (14)          (372)
    Unpaid obligations, end of year                        10,549             172           -             678            -           199         11,598
 Uncollected payments:
    Uncollected payments, Federal sources, brought forwa      (45)            (89)           -               -           -                -        (134)
    Change in uncollected payments, Federal sources            32              54            -               -           -                -          86
    Uncollected payments, Federal sources, end of year        (13)            (35)           -               -           -                -         (48)
 Memorandum (non-add) entries:
     Obligated balance, start of year                    $ 9,885        $      84    $       -   $      1,232    $       -    $       23      $ 11,224
     Obligated balance, end of year                       $ 10,536      $     137    $       -   $        678    $       -    $      199      $ 11,550


Budget Authority and Outlays, Net:
 Budget authority, gross (discretionary and mandatory)      $ 18,713    $     412    $    947    $        950    $     59     $       75      $ 21,156
 Actual offsetting collections (discretionary and mandatory   (9,739)         (57)          -               -           -           (337)       (10,133)
 Change in uncollected customer payments from Federal
 sources (discretionary and mandatory)                            32           54           -               -           -              -            86
 Budget authority, net (discretionary and mandatory) $ 9,006            $     409    $    947    $        950    $     59     $     (262)     $ 11,109


 Outlays, gross (discretionary and mandatory)               $ 18,174    $     599    $    857    $      1,330    $     59     $     (150)     $ 20,869
 Actual offsetting collections (discretionary and mandatory   (9,739)         (57)          -               -           -           (337)       (10,133)
 Outlays, net (discretionary and mandatory)                    8,435          542         857           1,330          59           (487)        10,736
 Distributed offsetting receipts                                   -            -           -               -           -              -              -
 Agency Outlays, net (discretionary and mandatory) $ 8,435              $     542    $    857    $      1,330    $     59     $     (487)     $ 10,736


                                                                        114
                                            COMMODITY CREDIT CORPORATION
                                                   Required Supplementary Information

Schedule of Combined Statement of Budgetary Resources by Major Fund: Non-Budgetary Credit Program
Financing Accounts (Unaudited)
For the Fiscal Year Ended September 30, 2013
(Dollars in Millions)
                                                                                                Farm
                                                                P.L. 480      CCC Export       Storage
                                                                                                               Other             Total
                                                              Direct Loan     Guaranteed       Facility
                                                                                             Direct Loan
                                                               (12X4049)       (12X4337)      (12X4158)
Budgetary Resources:
 Unobligated balance brought forward, October 1                $       88     $      138     $       18    $           97    $        341
 Recoveries of prior year unpaid obligations                            -              9             32                 -              41
 Other changes in unobligated balance                                 (45)           (12)           (47)               (3)           (107)
 Unobligated balance from prior year budget authority, net             43            135              3                94             275
 Appropriations (discretionary and mandatory)                           -              -              -                 -               -
 Borrowing Authority (discretionary and mandatory)                      1              7            260                 2             270
 Spending authority from offsetting collections (discretionary
 and mandatory)                                                       76             133             60             22               291
 Total Budgetary Resources                                     $     120      $      275     $      323    $       118       $       836


Status of Budgetary Resources:
 Obligations Incurred (Note 18)                               $          62   $         88   $      297    $           13    $       460
 Unobligated balance, end of year:
     Apportioned                                                      52             101              7              8               168
     Exempt from apportionment                                         -               8              -              -                 8
     Unapportioned                                                     6              78             19             97               200
 Total Unobligated balance, end of year                               58             187             26            105               376
 Total Budgetary Resources                                    $      120      $      275     $      323    $       118       $       836




                                                                   115
                                          COMMODITY CREDIT CORPORATION
                                                  Required Supplementary Information

                                                                                                  Farm
                                                                 P.L. 480       CCC Export       Storage
                                                                                                                    Other           Total
                                                               Direct Loan      Guaranteed       Facility
                                                                                               Direct Loan
                                                                (12X4049)        (12X4337)      (12X4158)
Change in Obligated Balance:
 Unpaid obligations:
    Unpaid obligations, brought forward, Oct 1             $               -    $        13    $       160      $         -     $        173
    Obligations incurred                                                  62             88            297               13              460
    Outlays (gross)                                                      (62)           (85)          (224)             (13)            (384)
    Recoveries of prior year unpaid obligations                            -             (9)           (32)               -              (41)
    Unpaid obligations, end of year                                        -              7            201                -              208
 Uncollected payments:
    Uncollected payments, Federal sources, brought forward               (42)          (115)                -               -           (157)
    Change in uncollected payments, Federal sources                        -              -                 -               -              -
    Uncollected payments, Federal sources, end of year                   (42)          (115)                -               -           (157)
 Memorandum (non-add) entries:
     Obligated balance, start of year                      $             (42)   $      (102)   $      160       $           -   $           16
     Obligated balance, end of year                            $         (42)   $      (108)   $      201       $           -   $           51


Budget Authority and Outlays, Net:
 Budget authority, gross (discretionary and mandatory)         $        77      $       140    $       320      $        24     $        561
 Actual offsetting collections (discretionary and mandatory)          (123)            (172)          (209)             (23)            (527)
 Change in uncollected customer payments from Federal
 sources (discretionary and mandatory)                                     -              -             -                   -                -
 Budget authority, net (discretionary and mandatory)           $         (46)   $       (32)   $      111       $           1   $           34


 Outlays, gross (discretionary and mandatory)                  $        62      $        85    $       224      $        13     $        384
 Actual offsetting collections (discretionary and mandatory)          (123)            (172)          (209)             (23)            (527)
 Outlays, net (discretionary and mandatory)                            (61)             (87)            15              (10)            (143)
 Distributed offsetting receipts                                        (9)             (63)           (30)               -             (102)
 Agency Outlays, net (discretionary and mandatory)             $       (70)     $      (150)   $       (15)     $       (10)    $       (245)



                                                                   116
Part V: Other Information
(Unaudited)




            117
                        COMMODITY CREDIT CORPORATION
                                        Other Information

Schedule of Spending
The Schedule of Spending (SOS) is a supplemental schedule included in CCC’s Annual
Management Report. The SOS presents an overview of what funds are available to
spend, how the obligations and expenditures of funds align with the major goals of
USDA and whether the funds were spent on Federal or Non-Federal entities.
There are two other financial reports which document the use of CCC resources; the
SBR and the Reconciliation Report of the USAspending.gov (agency input). These
reports serve different reporting requirements.
The SBR is a quarterly statement prepared for CCC to demonstrate the budgetary
authority and resources (funds) made available for CCC to conduct business. The
report demonstrates the use of the funds through obligations and the amount actually
paid to others.
The Reconciliation of the USAspending.gov (agency input) to CCC’s SBR Obligations
Incurred is required by OMB and the USDA OCFO to validate the federal funding
information contained in USAspending.gov.      The reconciliations are performed
quarterly.

Similarities between the three reports include:
    The financial data used to report the use of funds is the same for all of the
       reports.
    The SOS, SBR Obligations Incurred, and USAspending.gov reconciliation all
       report obligations using the same general ledger accounts.
    The SOS and USAspending.gov reconciliation reports obligation data at the
       Budget Object Class 5 (BOC) level.
                              4F




Differences between the three reports include:
     The SOS and SBR reports obligations at a summarized level and
       USAspending.gov reports obligations at a detail level.
     The SOS and SBR include obligation data not required for USAspending.gov
       reports (i.e. collections and receivables transactions, service fees including:
       certain administrative costs and Government to Government awards).
     The SOS reports spending at a two digit BOC level, the USAspending.gov SBR
       reconciliation reports spending at a four digit BOC level, and USAspending.gov
       does not require spending at a BOC level but at a Catalog of Federal Domestic
       Assistance (CFDA) level.


5
 BOCs are categories in a classification system that present obligations by items or services
purchased by the Federal Government.


                                              118
                         COMMODITY CREDIT CORPORATION
                                           Other Information

Schedule of Spending (Unaudited)
For the Fiscal Year Ended September 30, 2013
(Dollars in Millions)
The following schedule presents an overview of how and where CCC is spending its
money in alignment to the USDA Performance and Accountability Report goals. Refer
to the Management Discussion and Analysis, Performance Section, for additional
information on the alignment of CCC’s and USDA’s strategic goals.
                                                                                  Non-Budgetary
                                                                                  Credit Reform
                                                                                    Financing
                                                                   Budgetary        Accounts
 What Money is Available to Spend?
  Total Resources                                              $         22,548   $         836
  Less Amount Available but Not Agreed to be Spent                          519             176
  Less Amount Not Available to be Spent                                     548             200
 Total Amounts Agreed to be Spent                              $         21,481   $         460

 How was the Money Spent/Issued?
  Assist Rural Communities to Create Prosperity so They Are
  Self-Sustaining, Repopulating, and Economically Thriving:
  24, 25 - Other contractual services                          $            118   $            -
  33 - Investments and loans                                              5,737              298
  41 - Grants, subsidies, and contributions                              10,404                -
  43, 44 - Interest, dividends, and refunds                                   4                -
  Total                                                                  16,263             298

  Ensure Our National Forests and Private Working Lands Are
  Conserved, Restored, and Made More Resilient to Climate
  Change, While Enhancing Our Water Resources:
  24, 25 - Other contractual services                                         1                   -
  41 - Grants, subsidies, and contributions                               2,243                   -
  Total                                                                   2,244                   -

  Help America Promote Agricultural Production and Biotechnology
  Exports as America Works to Increase Food Security:
  24, 25 - Other contractual services                                        65                -
  33 - Investments and loans                                                  3              162
  41 - Grants, subsidies, and contributions                               2,906                -
  Total                                                                   2,974             162

 Total Amounts Agreed to be Spent                              $         21,481   $         460

 Who did the Money go to?
  Federal                                                      $          4,308   $         377
  Non-Federal                                                            17,173              83
 Total Amounts Agreed to be Spent                              $         21,481   $         460



                                                     119
                             COMMODITY CREDIT CORPORATION
                                               Other Information

Summary of Financial Statement Audit 7                       5F




The table below is a summary of the results of the FY 2013 independent audit of CCC’s
consolidated financial statements.

Audit Opinion                    Unqualified
Restatement                      No

                                   Beginning
Material Weaknesses                                    New               Resolved       Consolidated   Ending
                                    Balance
System Substantial Non-
Compliance - Funds Control             1                0                    0               0           1
Total Material Weakness                1                0                    0               0           1

Summary of Management Assurances 8                          6F




The table below is a summary of management assurances related to the effectiveness
of internal control over CCC’s financial reporting and operations, and its conformance
with financial management system requirements under Sections 2 and 4 of the Federal
Managers’ Financial Integrity Act (FMFIA). The last portion of the table is a summary of
CCC’s compliance with the Federal Financial Management Improvement Act (FFMIA).

                    Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance           Unqualified statement of assurance

                                  Beginning                                                             Ending
Material Weakness                                New              Resolved   Consolidated Reassessed
                                   Balance                                                              Balance
Funds Control Management              1            0                 0              0             0        1
Total Material Weakness               1            0                 0              0             0        1

                          Effectiveness of Internal Control over Operations (FMFIA § 2)


Statement of Assurance           Unqualified statement of assurance
                                  Beginning                                                             Ending
Material Weakness                                 New        Resolved        Consolidated Reassessed
                                   Balance                                                              Balance
                                      0            0             0                  0             0        0
Total Material Weakness               0            0             0                  0             0        0




7
  The Summary of Financial Statement Audit is as of completion of the Annual Management
Report.
8
  The Summary of Management Assurances is as of completion of the Annual Management
Report.

                                                       120
                            COMMODITY CREDIT CORPORATION
                                             Other Information

                Conformance with Financial Management Systems Requirements (FMFIA §4)
Statement of Assurance          Systems do not conform to financial management system requirements
                                 Beginning                                                         Ending
Material weakness                               New        Resolved Consolidated Reassessed
                                  Balance                                                          Balance
Not in Substantial Compliance
with FFMIA Funds Control
Management                           1           0           0             0            0            1
Total Non-conformances               1           0           0             0            0            1

                    Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                              Agency/Auditor
1. System Requirements                                            Yes
2. Accounting Standards                                           Yes
3. USSGL at Transaction Level                                      No




                                                     121
                      COMMODITY CREDIT CORPORATION
                                    Other Information

              Improper Payments Information Act of 2002
        Improper Payments Elimination and Recovery Act of 2012
  Improper Payments Elimination and Recovery Improvement Act of 2012
The Improper Payments Information Act of 2002 (IPIA), as amended by the Improper
Payments Elimination and Recovery Act of 2010 (IPERA) and the Improper Payments
Elimination and Recovery Improvement Act of 2012 (IPERIA), requires agencies to
review programs susceptible to significant improper payments, report estimated
improper payments and establish corrective actions to reduce improper payments.
OMB provides guidance on measuring, reducing, recovering, and reporting improper
payments through OMB Circular No. A-123, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments and OMB Circular A-136,
Financial Reporting Requirements.

CCC and FSA first reported on improper payments in 2004 for programs declared at
risk for significant improper payments (high risk programs). This report provides
improper payment information for FY 2013 regarding the estimated improper payment
rate, estimated improper payment amount, root causes, corrective actions taken,
planned reduction targets for future years, and improper payments recovered.

Fiscal Year 2013 Results
In addition to the table showing the FY 2013 results, performance highlights include:
      Marketing Assistance Loan (MAL) Program reported an improper disbursement
       rate of 0.17 percent, less than the FY 2013 reduction target of 0.49 percent.
      Noninsured Crop Disaster Assistance Program (NAP) reported an improper
       disbursement rate of 5.23 percent, less than the 7.00 percent improper payment
       rate reported for FY 2012.
      Milk Income Loss Contract Program (MILC) reported an improper disbursement
       rate of 0.17 percent, less than the FY 2013 reduction target of 1.80 percent and
       less than the improper payment rate of 2.00 percent for FY 2011, the last year
       the program was measured.
      Based on guidance received from the Department, revised High Dollar Quarterly
       Reporting to provide additional clarification and transparency to field offices.
      Completed implementation of the Payment Recapture and Recovery Auditing
       Initiative to identify, prevent, and recover overpayments. Conservation Reserve
       Program (CRP) and NAP are the two pilot programs affected by this effort.
      Conducted a briefing for State Executive Directors on IPIA, IPERA, and IPERIA
       regarding the impact on State and County Offices.
      Conducted a nationwide training session with State and County Offices on the
       FY 2013 High Dollar Quarterly Reporting process.

                                          122
                                   COMMODITY CREDIT CORPORATION
                                                        Other Information


FY 2014 operational guidance for all improper payment initiatives is anticipated to be
received in late October or early November.

                               Table 46: Summary of Improper Payment Results
                                                      Administrative    Incorrect                         Incorrect
                   Total Outlays    Improper Payments
                                                          Errors     Disbursements                    Disbursements
                    ($ millions)        ($ millions)
                                                       ($ millions)    ($ millions)                     (in percent)
Program           2012      2013       2012      2013        2012     2013     2012       2013        2012        2013
MAL              $2,878    $2,344       $2        $8          $0       $4       $2         $4        0.08%       0.17%
NAP               $69       $256        $5       $13          $2     $0.85      $3        $13        5.28%       5.23%
DCP 1            $3,867      N/A       $19        N/A         $0      N/A      $19         N/A       0.50%        N/A
       2
LFP               $477       $85       $10        $2          $1     $0.35     $9          $2        1.97%       2.48%
           3
SURE               N/A      $568       N/A       $22          N/A     N/A      N/A        $22         N/A        3.94%
CRP              $1,686    $1,651      $6         $6          $0      N/A      $6          $6        0.36%       0.38%
MILC 4             N/A      $401       N/A      $0.68         N/A     N/A      N/A        $0.68       N/A        0.17%

[1]
      DCP was not sampled in 2013 due to low outlays.
[2]
    LFP is part of the Miscellaneous Disaster Program.
[3]
    FSA instituted the Program Focused Approach in FY 2012 to review and sample disaster programs with most outlays for
best Return on Investment (ROI) due to budget constraints. SURE is part of the Miscellaneous Disaster Program and was not
selected for review in 2012.
[4]
    MILC was not sampled in 2012 due to low outlays.




                                                              123
Appendix: Glossary of
Acronyms




            124
              COMMODITY CREDIT CORPORATION
                               Glossary of Acronyms


ACRONYM   TITLE
ACRE      Average Crop Revenue Election Program

ADA       Antideficiency Act

ADP       Automatic Data Processing

AGI       Adjusted Gross Income

AMS       Agricultural Marketing Service

APHIS     Animal and Plant Health Inspection Service

ASMI      Alaska Seafood Marketing Institute

ATRA      American Taxpayer Relief Act

BCAP      Biomass Crop Assistance Program

BEHT      Bill Emerson Humanitarian Trust

BDO       Barter Delivery Obligations

BOC       Budget Object Class

CCC       Commodity Credit Corporation

CFDA      Catalog of Federal Domestic Assistance

CFO       Chief Financial Officer

CRP       Conservation Reserve Program

CSREES    Cooperative State Research, Education, and Extension Service

CSC2      Credit Subsidy Calculator 2

DACO      Deputy Administrator for Commodity Operations

DAFP      Deputy Administrator Farm Programs

DCP       Direct and Counter-cyclical Payment Program

DPPSP     Dairy Product Price Support Program

eDCP      Electronic Direct and Counter-Cyclical Payment Program

eFMS      Electronic Funds Management System

ELAP      Emergency Loss Assistance Program



                                        125
              COMMODITY CREDIT CORPORATION
                             Glossary of Acronyms


ACRONYM   TITLE
EMP       Emerging Markets Program

EQIP      Environmental Quality Incentive Program

FACTS I   Federal Agencies Centralized Trial Balance System I

FASAB     Federal Accounting Standards Advisory Board

FAS       Foreign Agricultural Service

FCRA      Federal Credit Reform Act of 1990

FFAS      Farm and Foreign Agricultural Services

FFMIA     Federal Financial Management Improvement Act

FGP       Facilities Guarantee Program

FMD       Foreign Market Development Program

FMFIA     Federal Managers’ Financial Integrity Act

FMMI      Financial Management Modernization Initiative

FNCS      Food, Nutrition, and Consumer Services

FNS       Food and Nutrition Service

FRB       Federal Reserve Bank

FRPP      Farm and Ranch Lands Protection Program

FSA       Farm Service Agency

FSFL      Farm Storage Facility Loan Program

FY        Fiscal Year

GAAP      Generally Accepted Accounting Principles

GRP       Grassland Reserve Program

GSM       General Sales Manager

IPERA     Improper Payments Elimination and Recovery Act

IPERIA    Improper Payments Elimination and Recovery Improvement Act

IPIA      Improper Payments Information Act of 2002



                                       126
                    COMMODITY CREDIT CORPORATION
                                   Glossary of Acronyms


ACRONYM        TITLE
ITSD           Information Technology Services Division

LDP            Loan Deficiency Payment Program

LRP            Local and Regional Pilot Program

MAL            Marketing Assistant Loan Program

MAP            Market Access Program

MIDAS          Modernize and Innovate the Delivery of Agricultural Systems

MILC           Milk Income Loss Contract Program

MRP            Marketing and Regulatory Programs

NAP            Noninsured Crop Disaster Assistance Program

NCFI           Net Cash Farm Income

NEI            National Export Initiative

NASDA          National Association of State Departments of Agriculture

NRE            Natural Resources and Environment

NRCS           National Resources Conservation Service

OCFO           Office of the Chief Financial Officer

OGC            Office of the General Counsel

OIG            Office of the Inspector General

OMB            Office of Management and Budget

OTP            Office of Trade Programs

P&F Schedule   Program and Financing Schedule

P.L.           Public Law

QSP            Quality Samples Program

RD             Rural Development

RMA            Risk Management Agency

ROI            Return on Investment


                                            127
              COMMODITY CREDIT CORPORATION
                            Glossary of Acronyms


ACRONYM   TITLE

SBR       Statement of Budgetary Resources

SCGP      Supplier Credit Guarantee Program

SFFAC     Statement of Federal Financial Accounting Concepts

SFFAS     Statement of Federal Financial Accounting Standards

SME       Small to Medium-Sized Enterprise

SOS       Schedule of Spending

SRTG      State Regional Trade Groups

TASC      Technical Assistance for Specialty Crops

TTPP      Tobacco Transition Payment Program

USAID     United States Agency for International Development

USDA      United States Department of Agriculture

USSGL     United States Standard General Ledger

USWA      United States Warehouse Act

WRP       Wetlands Reserve Program




                                    128
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
